<html>
<title> - HEARING ON THE NOMINATIONS OF LISA P. JACKSON TO BE ADMINISTRATOR OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY AND NANCY HELEN SUTLEY TO BE CHAIRMAN OF THE COUNCIL ON ENVIRONMENTAL QUALITY</title>
<body><pre>[Senate Hearing 111-1178]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1178

                     HEARING ON THE NOMINATIONS OF
                  LISA P. JACKSON TO BE ADMINISTRATOR
                  OF THE U.S. ENVIRONMENTAL PROTECTION
                  AGENCY AND NANCY HELEN SUTLEY TO BE
                       CHAIRMAN OF THE COUNCIL ON
                         ENVIRONMENTAL QUALITY

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS
                      
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 14, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
                                    ______
   
                       U.S. GOVERNMENT PUBLISHING OFFICE 

94-020 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001  

                               __________

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 14, 2009
                            
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     6
Menendez, Hon. Robert, U.S. Senator from the State of New Jersey.     8
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    10
Barrasso, Hon. John A., U.S. Senator from the State of Wyoming...    11
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    14
Bond, Hon. Christopher ``Kit'', U.S. Senator from the State of 
  Missouri.......................................................    14
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    16
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    19
Cardin, Hon. Benjamin, U.S. Senator from the State of Maryland...    20
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....    22
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    30
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    31
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    34
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    35
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    36

                               WITNESSES

Jackson, Lisa, nominated to be Administrator of the U.S. 
  Environmental Protection Agency................................    37
    Prepared statement...........................................    40
    Responses to additional questions from:
        Senator Boxer............................................    42
        Senator Carper...........................................    43
        Senator Lautenberg.......................................    46
        Senator Cardin...........................................    47
        Senator Udall............................................    48
        Senator Inhofe...........................................    49
        Senator Voinovich........................................    60
        Senator Isakson..........................................    66
        Senator Vitter...........................................    67
        Senator Barrasso.........................................    68
        Senator Bond.............................................    70
Sutley, Nancy Helen, nominated to be Chairman of the Council on 
  Environmental Quality..........................................   122
    Prepared statement...........................................   125
    Responses to additional questions from:
        Senator Carper...........................................   127
        Senator Lautenberg.......................................   129
        Senator Cardin...........................................   129
        Senator Udall............................................   130
        Senator Inhofe...........................................   130
        Senator Voinovich........................................   136
        Senator Isakson..........................................   139
        Senator Vitter...........................................   140
        Senator Barrasso.........................................   141

                          ADDITIONAL MATERIAL

Statement of the Engine Manufacturers Association................   152

 
 HEARING ON THE NOMINATIONS OF LISA P. JACKSON TO BE ADMINISTRATOR OF 
 THE U.S. ENVIRONMENTAL PROTECTION AGENCY AND NANCY HELEN SUTLEY TO BE 
            CHAIRMAN OF THE COUNCIL ON ENVIRONMENTAL QUALITY

                              ----------                              


                      WEDNESDAY, JANUARY 14, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Building, Hon. Barbara Boxer (chairman 
of the committee), presiding.
    Present: Senators Boxer, Inhofe, Baucus, Carper, Voinovich, 
Lautenberg, Isakson, Cardin, Vitter, Barrasso, Alexander, Bond, 
Klobuchar, Whitehouse, Udall, Merkley.
    Also present: Senator Menendez.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The Committee will come to order. We have 
very important business ahead of us. I thank everyone for being 
here.
    This is the way we are going to proceed, just given the 
schedule of Senators who are here, like Senator Menendez. So 
this is the way we are going to proceed.
    So this is the way we are going to proceed. I am going to 
make a 5-minute opening statement. Hopefully Senator Inhofe 
will make a 5-minute opening statement, and then we are going 
to go to Senator Menendez, first Senator Lautenberg, then 
Senator Menendez, to do an introduction. Then we will return 
here and we will go back and forth. Senator Inhofe and I have 
agreed if everyone could try to make their opening statement in 
3 minutes, but if you need more time I am happy to allow that, 
up to 4.
    So I think we are going to get started. I guess everyone 
knows, I believe we have a vote at 10:30. So what we will do is 
we will go until about 10:40, and then recess and come back. So 
we will start now.
    I have looked forward to this day for a long, long time. 
For me, today marks a turning point for the EPA and the White 
House Council on Environmental Quality. These two agencies, in 
my view, have a moral responsibility to protect our families 
and our communities from environmental threats, from hazards, 
from toxics. They have a duty to ensure that the health and 
safety of the air we breathe, the water we drink, and the 
planet we all share is healthy.
    Today, this Committee has the honor and privilege of 
conducting the nomination hearing for the leadership of two 
agencies that are critically important to the health of the 
American people.
    I want to welcome both of our nominees, Lisa Jackson and 
Nancy Sutley. You will hear a lot more about them and from them 
as the day goes on.
    I am not going to give any background about Lisa Jackson, 
because that is going to be done by her two Senators, who 
enthusiastically support her. I want to not only welcome Lisa 
Jackson, I have had the privilege of discussing many issues 
with her in my office and I am very excited about working with 
her.
    I do want to welcome Nancy Sutley, who has been nominated 
to be Chair of the CEQ. Nancy has a long history as a leader in 
environmental protection in my home State of California. She 
most recently served as Deputy Mayor for Energy and the 
Environment for the city of Los Angeles. She was a board member 
of the Metropolitan Water District of Southern California, and 
served on the California State Water Resources Control Board. 
She was a deputy at the California Environmental Protection 
Agency. So she comes to us with a great depth of experience and 
a great record of accomplishment on behalf of the people of 
California.
    The State of California has benefited from Nancy's passion 
for environmental protection, and I am so pleased that she has 
the opportunity to bring that high level of commitment to the 
White House.
    In the rest of my statement, I want to first talk about the 
mission of the EPA. It is pretty simple, and I think we have it 
on a chart, because sometimes we get astray from what the 
mission is: to protect human health and the environment. That 
is the mission. Unfortunately, I believe we have seen the 
agency move in a direction diametrically opposed to the mission 
it was established to achieve. And that is important. I think 
all you have to do is look at these headlines and see how 
astray they have gone. I am just showing you a few, if you can 
hold them up, because the clock is ticking here.
    Blowing smoke, the EPA's rejection of California's proposed 
tailpipe emission rules smells like blatant politics; ozone 
rules weakened at Bush's behest; EPA scrambles to justify 
action; EPA weakens lead rule after White House intervenes; EPA 
level of arsenic can lead to cancer; weak limits on soot; EPA 
has left thousands at risk; as toxic clouds roll by, EPA 
weakens regulation for chemical storage.
    Now, that last one is from New Jersey. The Philadelphia 
Inquirer is the other one, Contra Costa Times, State College, 
Pennsylvania, the Washington Post, L.A. Times. It doesn't 
matter where you live and where you look. This is the record. 
And this is just a very small part of the record. EPA has a 
responsibility to protect public health, not to ignore toxic 
pollution. EPA must rely on science, on science, not on special 
interests. EPA must listen to its professional staff and 
independent experts, not lobbyists. Not industry lobbyists, who 
have a special economic stake.
    EPA must ensure that our environmental laws protect our 
children first and foremost, not ignore the dangerous threats 
that children face from pollution. I want to say this: when we 
protect our children, we protect everyone. Everyone.
    EPA works for the American people. They don't work for a 
President, they don't work for us, they work for the people. 
And in my view, I believe, and obviously there is disagreement 
on the panel, and they will definitely speak for themselves, 
they are very good at it, the fact is, I believe the EPA has 
hurt the American people, made them less safe these past 8 
years.
    At this hearing, I intend to ask the nominee for EPA a 
series of questions. And I am looking for a renewed commitment 
simply to EPA's mission. Nothing more, nothing less.
    Like EPA, the White House Council on Environmental Quality 
has veered off course, in my view. Its fundamental mission is 
to promote the improvement of environmental quality. The White 
House Council on Environmental Quality needs to reassert itself 
as a key advisor to the President on environmental matters. The 
Chairman of the CEQ needs to bring together all the voices in 
the Administration for a strong, coordinated environmental 
policy. I am going to ask the nominee for Chair of the CEQ to 
make a similar commitment to a new direction at this important 
White House agency.
    The priorities of the leadership in these two agencies must 
include ensuring our drinking water quality, strong clean air 
safeguards, protective chemical policies, scientific integrity, 
transparency, toxic waste cleanup, protecting our natural 
environment, and addressing the urgent threat of global 
warming, something that all believe has been neglected. At 
least some of us believe it has been neglected.
    Look, all of us celebrate our grandchildren, and some of us 
read to them. Probably all of us do. As I reflect on the last 8 
years at EPA, I am reminded of the story of Sleeping Beauty. We 
have an agency and a set of laws that are already in place to 
do what must be done. But that agency, as it was conceived of 
by President Richard Nixon, needs to be awakened from a deep 
and nightmarish sleep.
    With new leadership, I am confident we can wake up the EPA 
and the CEQ to their critical mission: to protect human health 
and the environment. So again, I am very thrilled to have both 
of you here and looking forward to your testimony.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    First of all, let me say thank you to both Lisa Jackson and 
to Nancy Sutley. They have been kind enough to visit with me on 
the phone and talk over a lot of issues and come by and have 
personal visits in my office, which I assume you have had with 
other members, too, so you have been very busy. We are now to 
the point where we can get down to some of the specifics, and 
as a matter of public record.
    The Chair of the Council on Environmental Quality leads the 
Administration's effort to formulate and execute environmental 
policy across the Federal Government. It is a critical 
position, but like many others in Washington, I am quite 
concerned that the Chair's role is being diluted. I had 
occasion to do a couple of shows this morning on just exactly 
what is the role going to be with the Environmental Energy 
``czar,'' Carol Browner. Of course, we dealt with Carol Browner 
when she had the position for which you are nominated, Ms. 
Jackson, and while we didn't agree on a lot of things, we had a 
pretty good relationship.
    But this is new now, the new ``czar'' position. I would 
like to have both of you, in question and answer time, kind of 
elaborate as to what you think it is going to be. Are you going 
to be going back where you will be directly dealing, I would 
say this to Ms. Sutley, with the President, Administration, or 
is this level in between going to change the previous behavior 
of that position?
    Now, members on both sides of the Capitol and both sides of 
the aisle are publicly concerned about the outcome of the 
Massachusetts v. EPA case and with the potential regulation of 
greenhouse gases under the act. Over the coming weeks I will be 
issuing a series of letters and information requests in order 
to better understand if, when and how the new Administration 
plans to implement this new court-established authority. I 
would say authority in capital letters, it is authority, not 
any kind of a mandate.
    The CAIR Rule is also at the top of my list of concerns, 
specifically EPA's ability and timeframe to bring stability 
back to the tradable allowance market. As the Committee weighs 
its options on this matter, I am hopeful that the new 
Administration will resist activists' calls for overreaching, 
and instead choose to work toward a similar consensus as was 
achieved during the release of the initial CAIR Rule, the 
benefits of which were estimated by EPA to be over 25 times 
greater than their costs.
    Having long been an advocate for a more effective and 
accessible government, I want each of you to fully understand 
my belief that States and local governments possess unique 
local perspectives. There is kind of a mentality in Washington 
that if a decision isn't made here, or a position made here in 
Washington, it is not worthwhile. I am just of the opposite 
view. I think particularly the two of you have had experience 
on that level, and I would hope that you would keep in mind 
things such as property rights, States' rights, as we progress.
    I also have growing concerns about the Superfund program. 
EPA needs to, I believe, do a better job. Specifically, I am 
troubled with the current case, the Tronox case, which is an 
Oklahoma company, that is now filing for Chapter 11 as a result 
of some cleanup costs. This Committee, for the 14 years I have 
been on it, has had many experiences with cleanups. We have 
seen a lot of times people who are responsible to require 
cleanup are willing to do it themselves, they can do a good job 
and they can do it a lot cheaper than Government can do it. I 
think we need to really look at that. I am concerned about that 
Tronox case.
    But also the Tar Creek Superfund sites, I have talked to 
both of you about that. It is, I believe, not one of the most 
but the most severe site in the Country. And we have made 
incredible success in cleaning it up. We went 30 years not 
doing anything but spending millions of dollars. Now in the 
last 6 years, we have it so that we have done most of the work 
in terms of the relocation of the people. The subsidence was 
much more serious than we thought it would be. But we do have, 
we are 90 or 95 percent through with this now. I hope that both 
of you will work very closely with us on that specific Tar 
Creek Superfund site.
    Then of course we have the ultimate problem of cleaning it 
up. We haven't even addressed that yet. We are trying to get 
beyond the point of saving the lives that otherwise could have 
been lost in some of the subsidence. It ended up being a lot 
worse. That area had never been mapped before until we got into 
this thing. So that will be something I want to work very 
closely with both of you on.
    Thank you very much, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Good morning. We are here today to consider the nominations 
of Lisa Jackson for Administrator of the Environmental 
Protection Agency and Nancy Sutley for Chair of the Council on 
Environmental Quality.
    The Administrator of EPA implements the agency's mission to 
protect human health and the environment. Inherent in that 
charge is the recognition that the health of humans and the 
environment depends on the health of the economy. The course of 
action chosen by the next Administrator will indeed determine 
whether people and resources are reasonably protected or, to 
the contrary, whether overzealous regulations pull us deeper 
into economic turmoil.
    The Chair of the Council on Environmental Quality leads the 
Administration's effort to formulate and execute environmental 
policy across the Federal Government. It's a critical position, 
but, like many others in Washington, I am quite concerned that 
the Chair's role has been diluted by the addition of former EPA 
Administrator Carol Browner as White House climate and energy 
``czar.'' The law states that the CEQ chair is to report 
directly to the President on environmental policy. I sincerely 
hope that Ms. Browner's new position will not undermine the 
statute's intentions nor overshadow the Chair's autonomy and 
judgment. Let me be very clear on this point: The new Senate-
confirmed CEQ Chair will be expected to have the full authority 
to represent the White House on all matters before this 
Committee.
    Both the next EPA Administrator and CEQ Chair will face 
immediate challenges on some of today's highest profile issues. 
Of particular concern to me are the incoming Administration's 
aggressive statements about plans to regulate greenhouse gas 
emissions under the Clean Air Act. As you know, I have serious 
concerns about the timing and troubling implications that 
further regulation could have on our already fragile economy; 
those concerns are shared by many across the Country.
    Members on both sides of the Capitol and both sides of the 
aisle are publicly concerned with the outcome of the 
Massachusetts v. EPA case and with the potential regulation of 
greenhouse gases under the Act. Over the coming weeks I will be 
issuing a series of letters and information requests in order 
to better understand if, when, and how the new Administration 
plans to implement this new court-established authority.
    The CAIR Rule is also at the top of my list of concerns, 
specifically EPA's ability and timeframe to bring stability 
back to the tradable allowance market. As the Committee weighs 
its options on this matter, I am hopeful that the new 
Administration will resist activists' calls to overreach, and 
instead choose to work toward a similar consensus as was 
achieved during the release of the initial CAIR rule--the 
benefits of which were estimated by EPA to be over 25 times 
greater than their costs.
    Having long been an advocate for a more effective, 
accessible government, I want each of you to fully understand 
my belief that States and local governments possess unique 
local perspectives: they are generally best suited to respond 
to and prioritize constituent needs. It is my firm belief that 
protecting States' rights and private property rights are of 
the utmost importance. Unfortunately, the people of Oklahoma 
and many other States have seen their fundamental liberties 
unreasonably eroded in the name of environmental protection.
    I am most recently troubled by the attempt to exponentially 
expand the reach of the Clean Water Act under the proposed 
Clean Water Restoration Act, which Mrs. Browner supports, as 
well as the push to overturn long overdue, incremental reforms 
to the Endangered Species Act. I believe that both of these 
legislative initiatives are an assault on the original 
statutory intent and an attempt to give Federal bureaucrats 
authority to make final decisions about local land use; I 
believe that both are blatant infringements on the private 
property rights.
    As the senior Republican member of this Committee, please 
know that I intend to do everything possible to oversee and 
ensure that Federal agencies stop overstepping the authority 
given to them by Congress. I urge the incoming Administration 
to afford particular deference to State and local government 
knowledge, authority and expertise.
    I also have growing concerns about the Superfund program: 
EPA needs to do a better job managing many sites. Specifically, 
I am troubled to hear that Tronox, an Oklahoma company, has 
filed for Chapter 11 bankruptcy due to its legacy liabilities. 
EPA is currently suing Tronox for the cleanup costs at the 
Federal Creosote Site in Manville, New Jersey. This Superfund 
site is a prime example of Federal mismanagement.
    Finally, I remind you both of my longstanding concern about 
the Tar Creek Superfund Site. Since the early 1980s, EPA has 
ranked this site as one of the most severe sites in the 
Country. We have made tremendous progress over the past number 
of years to put together a coordinated remediation plan and 
provide assistance to the residents of the area. I am looking 
forward to working with you to complete the relocation work 
very soon and continue to work on the ultimate cleanup of the 
area.
    I sincerely hope that both of today's nominees acknowledge 
the importance of rebuilding a healthy economy while protecting 
the environment and human health, and look forward to hearing 
your perspectives on the issues that will be raised today. Most 
importantly, I welcome you both to this Committee.

    Senator Boxer. Thank you so much.
    So as we laid out, we are now going to have Senator 
Lautenberg and Senator Menendez make their introductory remarks 
about Lisa Jackson, at which point we will go back to opening 
statements and we will have 3 minutes a side. Please try to 
stick to that. And then we will get to Lisa.
    After we are finished questioning Lisa Jackson, we will 
then move to Nancy Sutley. I told her she is in a good 
position, because we will be a little tired by that time. But 
Nancy is ready for all questions.
    Senator Lautenberg, I know how happy you are about this 
nomination.
    Senator Lautenberg. Indeed.
    Senator Boxer. Please go ahead.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman. I 
am delighted to be able to greet Lisa Jackson to this 
Committee.
    I know that we have several friends here, visitors from New 
Jersey. Because few issues are of the importance that a clean 
environment is to our State, free of toxics, free of pollution. 
We work very hard at trying to control these things in our 
State. We come there as a result of a strong industrial past 
that operated under different rules.
    So I am privileged to bring before this Committee Lisa 
Jackson. We need the kind of bold and decisive, innovative 
leadership on environment that Lisa Jackson has brought and is 
going to deliver as the head of the Environmental Protection 
Agency. We congratulate her on her selection.
    Ms. Jackson has dedicated her life to public service. The 
past 3 years, she served as Commissioner of our State's 
Department of Environmental Protection. Because of her work, 
the rest of the Country looks to New Jersey for ideas on how to 
save energy and protect the environment. She has fought to 
preserve our State's strong chemical security laws and in 
contrast to my friend and colleague on the other side of the 
aisle, I think the States do have a responsibility to develop 
their own management plans. But I don't discard that which 
comes from the Federal Government. It can make the difference 
because it can pay a lot of the bills. And that counts.
    Lisa has fought to preserve our State's strong chemical 
security laws, keep our air clean from pollutants that make 
people ill and to stop global warming. Now, before Lisa Jackson 
became DEP Commissioner, she served 16 years with the EPA, 
first in the Superfund office and then in the regional office. 
She has directed thousands of employees in New Jersey, and her 
work at EPA itself will help her bring experience that can 
successfully manage the EPA's 25,000 employees while remaining 
a strong advocate for the environment, and while managing the 
process so that funds are not casually spent but are directed 
at the place of best result.
    Ms. Jackson has no small task before her, as she knows. The 
challenges facing our environment are serious, numerous and 
threatening. But Lisa Jackson has proven that she can solve 
challenges and she can inspire others to follow her leadership. 
We are pleased that she is joined here by her husband, Kenny, 
who brings enthusiastic support to Lisa's environmental work. 
We are pleased to see you.
    We have your community members from a town in New Jersey 
that has been beset by environmental problems, Ringwood, New 
Jersey. We are pleased to have those folks here. They have been 
sorely neglected by past EPA activities, declaring sites to be 
cleaned up when in fact there is toxicity worse than they were 
at the inception.
    Together, these community members and Ms. Jackson are 
working to clean up the Superfund site that is at Ringwood and 
make the area safe for families and their children. I am 
pleased to be joined here by my colleague in the Senate, my 
friend, Bob Menendez. Bob is someone for whom the environment 
is a critical issue. And he has been involved from his early 
days in Government and State government and local government, 
trying to protect the citizens from our polluted environment.
    Bob and I worked together to protect New Jersey's 
environment, and I know that he is here because he wants to say 
something about Lisa Jackson. Thank you.
    Senator Boxer. Yes, thank you, Senator.
    I would like to ask Lisa Jackson's husband, Ken, to stand 
up so we can recognize him. Because there is always a great man 
behind a great woman, we know.
    [Laughter.]
    Senator Boxer. Thank you, sir.
    And also we would love to see the community members who 
came here for this occasion, to rise so we could see you. We 
welcome you all here. Thank you very, very much for being here.
    And now we will turn it over to Senator Menendez, a real 
fighter for the environment. Thank you for being here.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Menendez. Thank you, Madam Chairman. To you and 
Ranking Member Inhofe and all the distinguished members of the 
Committee, I am proud to join my distinguished colleague, for 
which the environment is a signature issue for him in his now 
several decades of service in the U.S. Senate, in presenting to 
the Committee Lisa Jackson, as she is considered for her 
nomination to be the next Administrator of the Environmental 
Protection Agency.
    I am confident that the Committee and the full Senate will 
see that she is eminently qualified for the position and will 
confirm her for this important post.
    Lisa's 16 years of experience at the EPA and her experience 
leading over 3,000 employees at the New Jersey Department of 
Environmental Protection have given her the administrative and 
technical expertise to excel in her new position. But I would 
also highlight to you her background in science. When we talk 
about having the sound science for some of these issues, as a 
chemical engineer, where she developed that expertise in both 
Princeton and Tulane, I think complement very well her 
managerial experience.
    She will not only be the first African American 
Environmental Protection Agency Administrator, I believe she 
will be the best Environmental Protection Agency Administrator 
we have seen in the history of that department.
    Finally, as Senators, we all know that we can't make all 
the people love all the decisions we make all of the time. 
There is a famous tee-shirt that Senator Lautenberg and I enjoy 
that says, New Jersey: Only the Strong Survive. And Lisa 
Jackson has not only survived there, but she has thrived in 
developing and implementing policies that have won wide-ranging 
praise and respect.
    Under her watch, New Jersey has implemented strong flood 
plain and riparian buffer rules, passed cutting-edge global 
warming legislation, formulated an aggressive energy master 
plan to meet our State's impressive climate goals, became part 
of the regional greenhouse gas initiative, upgraded 600 miles 
of waterways, developed a groundbreaking electronics recycling 
law. And I would tell the members of the Committee that if you 
talk to members of the New Jersey legislature, and having 
served there, I understand how rambunctious that can be, the 
reality is that she is praised and respected on both sides of 
the aisle, because she has been willing to work with both sides 
of the aisle and been not only responsive but responsible.
    And I think it is a testament to her that those members of 
our State who have been victims of the only Superfund site that 
was ever closed and reopened are here today in testament to the 
type of leadership that she has exhibited. Those are wrongful 
decisions of the past that Lisa Jackson has been part of trying 
to make right.
    I think the most important thing to glean from her resume 
is that she has helped our home State in becoming one of the 
most environmentally aware and environmentally responsible 
States in the Nation. I think that she will bring, I know she 
will bring that same type of effort, commitment and zeal to 
this work and to work with all the members of the Senate, on 
both sides of the aisle, in a way that pursues the Nation's 
interests.
    Thank you, Madam Chairman, for the opportunity to join my 
distinguished colleague from New Jersey in presenting to you 
the next Environmental Protection Agency Administrator.
    Senator Boxer. Thank you so much, Senator. I know you have 
many other obligations. We excuse you and we thank you very 
much for your eloquence.
    We are going to go back now, as time permits, to going side 
to side here. I am going to list the order of arrival, because 
that is how people will be recognized. On our side, the 
Democratic side, Klobuchar, Udall, Lautenberg, Whitehouse, 
Carper and Merkley. On the Republican side, Barrasso, 
Alexander, Isakson, Voinovich and Bond.
    I want to make a note here. We are very pleased to again 
welcome Tom Udall and Jeff Merkley to the Committee. I know 
that Senator Inhofe has been very kind in his gracious remarks. 
We welcome you here.
    At the same time, we learned that two of our stars on this 
Committee, Senators Voinovich and Bond, will be with us for a 
couple of years, but after that, they have decided to do 
something else, other than continue to serve in the Senate. And 
I just want to say, I personally am going to miss both of you. 
However, as Senator Voinovich said, don't worry, we are going 
to be here for the next 2 years. So I am not worrying, I know I 
am going to work with you for the next 2 years.
    But it is sort of the sense that two come, two will be here 
a couple of years, and go. And we keep renewing this Senate. I 
want to say to the newcomers that these two on the other side 
of the aisle have been so good to work with. Even when we 
disagree, and we have done so, we have a really great working 
relationship. So it is a good role model to follow. So I wanted 
to pay tribute to both of you.
    Senator Bond. Thank you, Madam Chair. I am sure I speak for 
George when I say we will do all we can to keep it interesting 
and entertaining. I appreciate the way you have worked with us, 
even though occasionally we have a slight disagreement.
    Senator Boxer. Sometimes. But this Committee has that 
reputation of working well across the aisle, I say to both Lisa 
and to Nancy.
    So, Amy Klobuchar----
    Senator Inhofe. Let me just go ahead and first of all 
identify myself with your remarks. I haven't really gotten to 
know our new members as well as I look forward to. We did have 
breakfast this morning. And what she says is right, we have a 
diverse set of philosophies represented on this Committee. I 
will really miss these two guys. Kit and George; George, he and 
I were both mayors at the same time. He has such a background 
in understanding these issues, as does Kit. So they will sorely 
be missed.
    But I imagine we will just survive, we will have to do it.
    Senator Boxer. We will.
    Senator Klobuchar, you have the floor.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much. I echo your 
sentiments, Madam Chair, about our two members here. I have 
especially enjoyed working with Senator Voinovich on our 
Interparliamentarian Canadian Group. I hope you will continue 
that for the next 2 years.
    I also welcome our two new members as well as Ms. Jackson 
and Ms. Sutley. I have enjoyed meeting with you and look 
forward to working with you. I am optimistic about your 
appointment.
    There are really two reasons why I am so excited to welcome 
our new leadership on these issues to Washington today. First, 
to quote our former colleague on this Committee, Senator 
Clinton, I have been very concerned in the last 8 years that 
the EPA has been operating in an evidence-free zone. I think it 
is time to change. The American people must know the truth 
about the water that they drink and the air that they breathe. 
They must be able to see the information so that they can make 
decisions themselves, and no more back room peeks by a few 
Senators at findings by the Environmental Protection Agency. I 
would like no more redacted testimony as we go forward on 
climate change and no more testimony before Congress intended 
to mislead on the facts and the law.
    The second reason that I am so excited about our two new 
nominees is that we need new environmental policies that work 
hand in hand with our efforts at home-grown energy development 
and economic growth. I just completed a tour through 22 
counties in Minnesota, and I would note, Senator Lautenberg, 
when I heard Senator Menendez talk about the tee-shirt in New 
Jersey, where the strong survive, it was 25 below zero in 
Minnesota last night. So I think we could amend the tee-shirt.
    But I saw first-hand in our State the work that is being 
done where environmental action and energy job creation go hand 
in hand, from the Port of Duluth, where we have seen an 
increase in goods coming in with wind turbines, to Morton 
Construction, the largest wind construction company in the 
Country, that is located in our State, to Sebeka, Minnesota, 
where a small telephone company has decided to put together a 
small wind and small solar package for their customers who live 
in very rural areas, so that they have backup for power, to 
Benson, Minnesota, where the dream of a local farmer to grow 
his own motor fuel has set a new standard for ethanol plants 
everywhere. The Chippewa Valley Ethanol Plant, which began 
nearly 20 years ago, is now owned by local farmers and 
investors.
    Recently, just to give you an example of some of the new 
environmental work going on in this field, Chippewa Valley 
adopted a new technology to gasify local agricultural waste 
like corn cobs to power their production facility. To top off 
their efforts at pioneering energy efficient technology, they 
even recycle some of their excess product to produce two 
premium vodkas under the labels Prairie Organic and Shaker. So 
I invite you visit this ethanol plant and then we can celebrate 
your confirmation over a shot of vodka--recycled.
    As America looks for solutions to our struggling economy, 
homegrown energy like solar, wind and the next generation of 
biofuels will power a new industrial boom in our economy and 
reduce our imports on foreign oil and reduce environmental 
pollution. These projects, as you know, create good jobs, and I 
look forward to hearing your thoughts and ideas about how 
protecting our environment will help our transition to a 21st 
century energy economy and create good-paying jobs right here 
in the United States.
    I thank you. I apologize, I will be going in and out, 
because the Agriculture nomination is going on at the same 
time. I also serve on that committee. Thank you very much.
    Senator Boxer. Thank you so much, Senator.
    Senator Barrasso.

          OPENING STATEMENT OF HON. JOHN A. BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    Congratulations to both of you. Congratulations to your 
family and friends and associates who are here. And I want to 
thank both of you for coming to my office to sit and visit. We 
had, I thought, very good and productive discussions. I wanted 
to thank you for all of that.
    Madam Chairman, Wyoming is very interested in a number of 
the environmental issues on which the nominees today will have 
a significant impact. And the biggest concern of the people of 
Wyoming, a big concern for the people of Wyoming is sometimes 
how Federal laws on the books are being used in ways that they 
were never intended to be used. That affects our people, the 
water, the land and the species.
    So we just want to make sure that we operate in a fashion 
that is appropriate for the environment but also appropriate 
for the people who earn their living in that way. In Wyoming we 
have coal miners, in Gillette we have ranchers in Lincoln 
County, all fear for their economic future in today's political 
environment. From their perspective, a number of environmental 
proposals have arisen which really loom large over their 
futures, proposals often from people who have never set a foot 
in a mine or on a working cattle ranch. Ranchers and miners in 
Wyoming know that addressing climate change through the Clean 
Air Act is a disaster waiting to happen. Small businesses 
across Wyoming are concerned that such a move would lead to 
many unintended consequences that could ripple across the 
entire economy.
    People around Wyoming hear environmental advocates call for 
turning the Endangered Species Act into a climate change bill. 
That is something that Congress never intended. And when I 
talked to a former member of the Senate, Cliff Hanson from 
Wyoming, who voted for the Endangered Species Act, no idea 
about this use of the law.
    Another issue important to Wyoming is the debate over the 
true intent of the Clean Water Act. In Wyoming, where the 
frontier spirit of smaller government and individual liberty 
are still very sacred traditions, there is overwhelming 
objection to legislative efforts which would expand the Federal 
Clean Water Act jurisdiction over all water within the United 
States. The concern I hear from home is that this legislation 
would grant the Environmental Protection Agency and the Army 
Corps of Engineers virtually unlimited regulatory control over 
all wet areas within the State.
    And the wet areas change in that State. It is winter in the 
Rocky Mountains. The snow will soon be melting. We will have 
large, temporary water holes formed on ranches and farms across 
the State. Under the bill that was introduced, any activity on 
that land that touches these water holes would require a 
Federal permit. And that is what has people across the State of 
Wyoming concerned.
    So it is my hope, Madam Chairman, and both of you, that we 
can all work together in a manner that is reasonable with 
deference to the legislative branch in terms of the regulations 
that will come, using laws that have previously been passed in 
ways that were never intended.
    Thank you, Madam Chairman. I encourage the nominees and 
will get into some of that with the questioning, to make sure 
that we don't turn laws passed by Congress into something that 
they were never intended to do. I look forward to that 
commitment from you and to working with you.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Barrasso follows:]

           Statement of Hon. John A. Barrasso, U.S. Senator 
                       from the State of Wyoming

    Madam Chairman, Wyoming is interested in a number of 
environmental issues of which the nominees today will have a 
significant impact.
    Most pressing among these concerns is environment advocates 
in certain quarters of our society who want to use Federal laws 
on the books in ways they were never intended.
    Rather than follow how a law has operated for 20 years, 
they seek to rewrite the law.
    Rewrite these laws in a way that Congress never envisioned.
    I fear that the consequences of operating in this fashion 
will prove disastrous, with little environmental gain to show 
for it.
    Nominees to serve in the highest environmental posts in the 
land should not approve of these tactics. They should be weary 
of where this might lead and keep in mind the concerns of rural 
Americans.
    They should advocate that if there are changes in the law 
that need to be made, they should draft such changes. Send them 
to Congress so that we can debate them, and the American people 
can comment on them.
    In Wyoming, coal miners in Gillette, and ranchers in 
Lincoln County, all fear for their economic future in today's 
political environment.
    From their perspective, a number of environmental proposals 
have arisen which loom large over their futures. Proposals from 
people who have never set foot in a mine, or on a working 
cattle ranch.
    Ranchers and miners in Wyoming know that addressing climate 
change through the Clean Air Act is a disaster waiting to 
happen.
    Small businesses across Wyoming are concerned that such a 
move would lead to many unintended consequences that would 
ripple across our faltering economy.
    One such concern is the possibility of a ``cow tax'' that 
would devastate our farmers and ranchers.
    This would not only cripple ranchers in inter-mountain 
States like Wyoming, but across the dairy and cattle operations 
of the Northeast and Midwest.
    They also hear environmental advocates calling for turning 
the Endangered Species Act into a climate change bill, 
something Congress never intended.
    Energy, construction and agricultural development could be 
halted in the lower 48 States to protect the polar bears at the 
North Pole.
    In addition, some have speculated that any Federal action 
could be subject to a new standard: Does the activity 
contribute to global warming and therefore affect the polar 
bears?
    Another issue important to Wyoming is the debate over the 
true intent of the Clean Water Act.
    In Wyoming, where the frontier spirit of smaller government 
and individual liberty are still sacred traditions, there is 
overwhelming objection to legislative efforts which would 
expand the Federal Clean Water Act jurisdiction over all water 
within the United States.
    The concern I hear at home is that this legislation would 
grant the EPA and the Army Corps virtually unlimited regulatory 
control over all wet areas within a State.
    I have serious concerns on how this bill will affect my 
home State.
    There are significant unintended consequences of this 
legislation that will lead to absurd results in Wyoming.
    It is now winter in the Rockies.
    As the snow melts in spring, large, temporary water holes 
are formed on ranches and farms across the State.
    Under this bill, any activity on that land that touches 
these water holes would require a Federal permit.
    Ranchers who use stock water ponds for watering livestock 
would be required to obtain a Federal permit before any 
upgrades or modifications to the pond occur.
    Let's talk about the larger issue for Westerners across the 
spectrum--the water shortage in the West.
    The West is growing, but the Rocky Mountain West never has 
all the water it needs.
    The Clean Water Restoration Act bill filed last year will 
needlessly delay construction or repair of pipelines, ditches, 
canals, diversion structures and wells with more permitting 
requirements.
    Delays in providing for water delivery not only hurt our 
citizens, it also hurts endangered species who need that water 
as part of habitat conservation plans and recovery programs 
across the West.
    We are in the midst of tough economic times across the 
Country.
    As we debate an economic stimulus package meant to pump 
Federal funds in to rebuild bridges and roads, let us be 
mindful what the impacts these ``re-interpretations'' of the 
environmental laws will have in speeding those projects along.
    We must not allow any stimulus investments to be needlessly 
blocked by bureaucratic red tape and never ending litigation.
    Let us not reverse any gains made by such stimulus efforts 
and further drag our economy down.
    It is my hope that the nominees will work in a manner that 
is reasonable, with deference to the legislative branch, and in 
the light of day to ensure our constituents are treated fairly.
    Well funded special interests from urban areas can bring a 
lot of political pressure to bear on decisions affecting all 
Americans.
    I encourage the nominees to stand up to these political 
pressures and say ``no'' to turning laws passed by Congress 
into something that they are not.
    I look forward to your affirmative commitment.

    Senator Boxer. Thank you.
    I just want to, when we talk about differences on this 
Committee, you just saw one. Because the vast majority on this 
Committee believe that the Clean Air Act absolutely has a 
relevance to carbon dioxide. It is not only in the law, but the 
Supreme Court ruled that.
    So I agree, let's not go out and look for new ways, let's 
do what the law requires. But the fact that some people are 
still saying that the Clean Air Act doesn't cover carbon means 
they either refuse to accept the Supreme Court's decision or 
they didn't read the Clean Air Act or if they did, they 
certainly didn't see the words.
    But that is the kind of thing you will face here. We really 
have very big differences. But we care about each other and we 
respect each other. But that is the kind of thing you are going 
to see here. And I think this statement by Senator Barrasso 
shows that very clearly, so you know what you are getting into 
here.
    So you are not going to make everybody happy, that is for 
sure. You won't be able to. Because if you do, it means you are 
doing nothing, and I know both of you want to do something. So 
I wanted to make that case.
    Now, we have a vote on, and what we are going to do is, 
when Tom Carper comes back, I am going to give him the gavel. 
We will complete the opening statements, so you can go, vote, 
come back. But next on our list is Tom Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Madam Chair, and thank you today 
for the very warm welcome. Let me say to Senator Bond and 
Senator Voinovich, we are going to miss your experience.
    Ms. Sutley and Ms. Jackson, you come to this hearing with 
strong recommendations from President-elect Obama and other 
members of his transition team. I look forward to hearing from 
you and learning about your ideas to protect human health and 
the environment. President Obama has bold plans for addressing 
the major environmental issues of this century. His vision of a 
strong economy that does not compromise environmental and 
public health is inspiring, and I look forward to working with 
the new Administration on energy efficiency, global warming, 
developing green jobs that bolster the economy and ensuring a 
healthy planet for generations to come.
    Ms. Jackson, I am anxious to hear more about your extensive 
work on brownfields, contamination remediation and industrial 
compliance enforcement in New Jersey. And Ms. Sutley, I look 
forward to hearing more about your efforts to clean the Los 
Angeles air, green the city and protect California's water 
resources and water quality. You both have extensive experience 
to offer our Nation and the new Administration, and I 
congratulate you on your nominations.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Senator Bond.

      OPENING STATEMENT OF HON. CHRISTOPHER ``KIT'' BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you, Madam Chair, and welcome, Ms. 
Jackson and Ms. Sutley.
    I happen to agree with the four on the Supreme on the Clean 
Air. So there are differences, we will work out the policies.
    But the point I want to make is Missourians treasure their 
environment and natural resources. Our Ozark Mountains hold 
countless wonders, our majestic caves and our pristine lakes to 
hardwood forests. We have great rivers. The Missouri and the 
Mississippi run through our State. Our rich soil supplies 
everything from corn and soybeans to rice and cotton.
    I want to protect these natural resources. I was co-author 
of the Acid Rain Trading Provision in the Clean Air Act 
Amendments, so we got that done. So I have worked on these 
things. I have worked on many things that can clean up the 
environment. We have lots of projects that are going on that 
can clean up the water, prevent erosion. We are proud of the 
progress we are making and that we are going to continue to 
make.
    But we need to protect our families. They provide the soul 
of our churches, the heart of our communities, the brawn of our 
cities. And it means not only protecting their health, but 
their ability to provide for themselves. And we are suffering 
right now, as people are across the Nation. They are facing 
housing crises to job loss. And the budget is not going as far 
to provide housing, food, higher education and health care.
    That is why we support protecting the environment, but 
protecting family budgets and worker payrolls, doing it so it 
works. That means, for example, protecting Missouri families 
and workers from climate change proposals that would raise 
energy costs by $6.7 trillion that we debated in here last 
year. It is not that Missouri does not want to cut carbon 
emissions, we are supporting zero carbon nuclear power. We need 
to proceed on that. We are producing low-carbon biofuels and 
want to get even more from cellulosic ethanol to expanded 
biodiesel.
    We want clean cars. We make batteries that can run those 
cars. We want clean coal technology, solar and wind power. But 
we can't support plans pushed by Northeast and West Coast 
States that hit coal-dependent Midwest manufacturing jobs hard. 
We are potentially looking at a devastating depression. We 
can't support plans that raise the price of gasoline $1.50 a 
gallon, or support plans to increase regulation and permit 
costs to livestock operations, programs originally intended for 
chemical spills or big refiners. Agricultural producers, 
farmers are facing problems.
    I would urge you to take your new responsibilities to 
heart. What may have worked in Trenton, New Jersey may not work 
in New Madrid, Missouri; what may be acceptable in San Jose, 
California may not be acceptable in Carthage. We want to find a 
middle ground. If you are willing to work toward that common 
ground in a bipartisan manner, you will certainly have my 
assistance, and I wish you both well.
    [The prepared statement of Senator Bond follows:]

              Statement of Hon. Christopher ``Kit'' Bond, 
                U.S. Senator from the State of Missouri

    Madam Chairman, thank you for holding this hearing today on 
the nominations of Lisa Jackson to be Administrator of the 
Environmental Protection Agency and Nancy Sutley as Chairman of 
the Council on Environmental Quality.
    Ms. Jackson, welcome, and welcome to you, Ms. Sutley.
    Missourians treasure their environment and natural 
resources. Our Ozark Mountains hold countless wonders, from our 
majestic caves and our pristine lakes to our hardwood forests.
    Great rivers such as the Missouri and the Mississippi run 
through our State, and our rich soil supplies everything from 
corn and soybeans to rice and cotton.
    In wanting to protect these natural resources, we also need 
to protect our families. Our families provide the soul of our 
churches, the heart of our communities, and the brawn of our 
cities.
    In Missouri, protecting our families means not only 
protecting their health, but also their ability to provide for 
themselves.
    Missouri families are suffering right now. Missouri 
families face foreclosure from the housing crisis and recession 
job loss.
    The Missouri family budget is not going as far as it needs 
to provide housing, food, higher education and healthcare.
    That is why while Missouri supports protecting the 
environment, it also supports protecting family budgets and 
worker payrolls.
    That means, for example, protecting Missouri families and 
workers from climate change proposals that would raise energy 
costs by $6.7 trillion.
    It's not that Missouri does not want to cut carbon 
emissions--we support zero carbon nuclear power, low carbon 
biofuels and clean cars, clean coal, solar and wind power.
    But we cannot support plans pushed by Northeast and West 
Coast States that will hit coal-dependent Missouri and Midwest 
manufacturing jobs especially hard.
    We cannot support plans that will raise the price of 
gasoline $1.50 per gallon, or kill hundreds of thousands of 
jobs.
    Neither can we support plans to increase regulation and 
permit costs for livestock operations, especially from programs 
originally intended for chemical spills or big refiners.
    Agricultural producers are facing a credit crunch too. A 
drop in production because farmers cannot get credit will also 
hurt families who will face higher food prices.
    Likewise, maintaining renewable fuel production is vital to 
preserving the investment Missouri made in clean fuel.
    I tell you these things because I want both you and Ms. 
Sutley to succeed, and I want to work with you to protect the 
environment.
    But I urge you to take your new national responsibilities 
to heart.
    What may have worked in New Jersey may not work in New 
Madrid, Missouri. What may be acceptable in California may not 
be acceptable in Carthage, Missouri.
    But if you are willing to listen to middle-America, if you 
are willing to find common ground, if you are willing to work 
in a bipartisan manner, you will have help from this Senator 
from Missouri.
    Thank you.

    Senator Boxer. Thank you, Senator, very much.
    So here is, you know, here is another difference that you 
will find, a very fair difference with some colleagues 
believing that as you move to protect the environment, in many 
cases, you hurt the economy. Others of us believing that as we 
look at the past, and I go back to when I served on the local 
air quality board, when you move forward to protect the 
environment, you create jobs. And we do have this respectful 
difference. Again, seeing it today gives you a sense of where 
colleagues are coming from.
    So here is what we are going to do. I have given the gavel 
to Senator Carper. He is going to make his opening statement. 
As members come back in who haven't given statements, they will 
do that. And as soon as I get back, we will then go to your, 
finally, to get to your opening statement.
    Senator Carper, thank you so much for rushing back in.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper [presiding]. My pleasure. Thank you, Madam 
Chair. Welcome to our witnesses. To Lisa Jackson, welcome back. 
You are no stranger here. We are delighted that you have come 
back and we are delighted that you have returned as the nominee 
to be Administrator for EPA.
    Ms. Sutley, my recollection is that this is may be the 
first time you have been before this Committee, at least during 
the time that I have been here. We are pleased also with your 
nomination and are delighted to have this opportunity first, to 
meet with both of you in my office earlier this week and now 
today to talk with you in this more public setting.
    I am going to say some fairly critical things about the 
Bush administration. Before I do that, I want to mention a 
thing or two that they have done that I warmly endorse. We have 
done a fair amount of work here on this Committee on trying to 
reduce diesel emissions. And I think one of you is aware of 
that. We have had a great partnership in this Committee on 
that, and the Administration has done a good job. Also, not 
just with diesel emission reduction, but also offshore diesel 
emissions.
    However, for the last 8 years, the Bush administration has 
not provided the information we need on some of the biggest 
environmental challenges of our time: global warming, energy 
independence, cleaning up our Nation's air. But beyond just 
refusing to do its part, the Administration has also held up 
any Federal regulations on climate change, despite the Supreme 
Court's ruling that the regulation of carbon dioxide is 
required under the Clean Air Act. The D.C. Circuit Court of 
Appeals has had a field day beating on the Bush 
administration's fossil fuel emissions regulations, and rightly 
so.
    The Courts' decisions have sent the EPA back to the drawing 
board to rewrite the rules that reduced sulfur dioxide, 
nitrogen oxide and mercury emissions. So we start this 111th 
Congress pretty much where we were 8 years ago, with no 
meaningful Federal regulations to clean up our dirtiest fossil 
fuel power plants. And while we have discussed and while we 
have waited for the Bush administration to act, our Nation has 
been left all too often breathing our dirty air. And we can no 
longer afford inaction on climate change or on air pollution.
    Starting today, here in this Committee, we must send the 
right signals to industry that will impact their decisions 
tomorrow and in years to come. Quite simply, how we address 
many environmental issues today will directly impact future 
generations. The fellow who was before us a week or so ago, New 
York Times columnist and author Tom Friedman, who sat right 
where you are sitting, Ms. Jackson, said it is not just 
lighting up our house, it is about lighting up our future. 
Unfortunately, the new EPA Administration and CEQ chair must 
address a host of problems at the same time our Country faces 
its worst economic crisis in decades.
    With that in mind, we need leaders who can build alliances, 
who can work with Congress to help us determine the path 
forward that both strengthens our economy and as Senator Boxer 
and others have alluded to, strengthens our economy and 
protects our environment. We can walk and chew gum and we need 
to do that in this instance as well.
    I can think of no one more qualified and ready to lead the 
Environmental Protection Agency and the Council on 
Environmental Quality during these challenging times than the 
two nominees before us today. Ms. Jackson and Ms. Sutley, you 
are both principled, pragmatic advocates for environmental and 
energy issues, both present strong resumes at the State and 
Federal level and with an especially good track record when it 
comes to cleaning our air.
    Ms. Jackson and I both come from States that are at the end 
of the tailpipe, the Nation's tailpipe. The bulk of air 
pollution in States like ours comes from emissions generated by 
power plants in other States. It harms our health, inhibits our 
States' economic activity, but we have no control over the 
sources of this pollution.
    As Chairman of the Senate Subcommittee on Clean Air and 
Nuclear Safety, I especially look forward to working with Ms. 
Jackson and Ms. Sutley on developing stronger air quality 
regulations on our Country's aging fleet of fossil power 
plants.
    So I am going to put it simply, continued inaction on clean 
air in our legislation means that tens of thousands of 
Americans will die prematurely from lung-related diseases in 
our States. Inaction means that thousands of children who would 
have been born healthy will be born with brain defects from 
mercury poisoning.
    We cannot afford to ignore the other pollutants while we 
address climate. So Ms. Jackson, I am delighted to say that Ms. 
Jackson shares my vision, a vision a number of us hold, of 
developing a comprehensive national approach to slashing 
harmful emissions from power plants. I hope she continues to 
share this concern.
    Both Ms. Jackson and Ms. Sutley have been very active on 
climate change and clean energy issues, as we know. We look 
forward to hearing more about Ms. Sutley's and Ms. Jackson's 
experience and lessons learned as they look to drafting 
economy-wide climate legislation.
    In closing, we are talking about climate change mitigation, 
we cannot forget the transportation sector. The transportation 
sector, I think, is responsible for some 30 percent of 
greenhouse gas emissions in our Country. Any climate change 
strategy that we develop must also require substantial 
reductions from our transportation sector, which means more 
fuel-efficient cars, cleaner-burning fuels as well as 
convenient, reliable alternatives to driving.
    I am going to ask unanimous consent to include the rest of 
my statement for the record, and now turn to recognize here for 
his opening statement our colleague, Senator Alexander.
    [The prepared statement of Senator Carper follows:]

           Statement of Hon. Thomas R. Carper, U.S. Senator 
                       from the State of Delaware

    For the past 8 years, the Bush Administration has not 
provided the leadership we need on some of the biggest 
environmental challenges of our time--global warming, energy 
independence and cleaning up our Nation's air.
    But beyond just refusing to do its part, the Administration 
has also held up any Federal regulation on climate change--
despite the Supreme Court ruling that the regulation of carbon 
dioxide is required under the Clean Air Act.
    The D.C. Circuit Court of Appeals has had a field day 
beating up the Bush Administration's fossil fuel emissions 
regulations--and rightly so. That court's decisions have sent 
the EPA back to the drawing board to rewrite the rules that 
reduce sulfur dioxide, nitrogen oxide and mercury emissions.
    So we start this 111th Congress pretty much where we were 8 
years ago--with no meaningful Federal regulations to clean up 
our dirtiest fossil-fuel power plants. And while we wait for 
the Bush Administration to act, our Nation is left breathing 
dirty air.
    We can no longer afford inaction on climate change or air 
pollution.
    Starting today, here in this Committee, we must send the 
right signals to the industry that will impact their decisions 
tomorrow and in years to come.
    Quite simply, how we address many environmental issues 
today will directly impact future generations. As New York 
Times columnist Thomas Friedman said: ``It's not about just 
lighting up our house, it's about lighting up our future.''
    And unfortunately, the next EPA Administrator and CEQ 
Chairman must address a host of problems at the same time our 
country faces its worst economic crisis in decades.
    We need leaders who can build alliances, work with 
Congress, and determine a path forward that both strengthens 
the economy and protects the environment.
    I can think of no one more qualified and ready to lead the 
Environmental Protection Agency and the Council of 
Environmental Quality during these challenging times than Lisa 
Jackson and Nancy Sutley.
    Ms. Jackson and Ms. Sutley are both principled and 
pragmatic advocates for environmental and energy issues. Both 
with strong resumes at the State and Federal levels, and with 
an especially good track record when it comes to clean air.
    Ms. Jackson and I both come from States that are at the end 
of what I like to call ``the Nation's tailpipe.'' The bulk of 
air pollution in States like Delaware and New Jersey comes from 
emissions generated by power plants in other States. It harms 
our health and inhibits our States' economic activity, but we 
have no control over the sources of this pollution.
    As Chairman of the Senate Subcommittee on Clean Air and 
Nuclear Safety, I especially look forward to working with Ms. 
Jackson and Ms. Sutley on developing stronger air quality 
regulations on our Country's aging fossil fuel power fleet.
    Let me put it simply: Continued inaction on clean air 
legislation means that tens of thousands of Americans will die 
prematurely from lung-related illnesses.
    Inaction means that thousands of children, who would have 
been born healthy, will be born with birth defects from mercury 
poisoning.
    We cannot afford to ignore the other pollutants while we 
address climate.
    So Ms. Jackson shares my vision of developing a 
comprehensive, national approach to slashing harmful emissions 
from power plants and I hope she continues to share this 
concern.
    Both Ms. Jackson and Ms. Sutley have been very active on 
climate change and clean energy.
    I look forward hearing more about Ms. Sutley's and Ms. 
Jackson's experiences and lessons learned as we look to 
drafting an economy-wide climate legislation.
    When talking about climate change mitigation, we cannot 
forget the transportation sector.
    The transportation sector is responsible for about 30 
percent of greenhouse gas emissions in the United States. Any 
climate change strategy we develop must also require 
substantial reductions from our transportation sector. This 
will mean more fuel efficient cars and cleaner burning fuels, 
as well as convenient, reliable alternatives to driving.
    But if we are asking the car companies and oil companies to 
contribute to the solution, we must require the same of 
ourselves by improving our Nation's transportation systems. I 
hope that Ms. Jackson and EPA will work closely with the 
Department of Transportation to ensure that this area is not 
overlooked in any developing climate initiative. In fact, I 
hope this new administration views the Department of 
Transportation as a key player on its climate and energy team. 
I believe Ms. Sutley can help facilitate these conversations.
    Ms. Jackson and Ms. Sutley, you have been nominated to 
serve at an historic time. The opportunities you will have to 
shape the future of our Nation's environmental policy are truly 
monumental. And I have confidence that you can, and will, rise 
to the challenges presented to you. Thank you.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Senator Carper. 
Congratulations, Ms. Jackson and Ms. Sutley, on your 
appointments. I have enjoyed our visits. I look forward to 
working with you on this Committee, hopefully, and on the 
Appropriations Committee, where we will be working together.
    I have three things that I would like to mention to you, 
all of which we discussed, and maybe you will want to say 
something about them in your hearing. One is, Senator Carper 
and I have worked together on this issue quite a bit over the 
last 6 years, he before that. We need a new CAIR Rule and we 
need a new rule on mercury, and they need to be, we need them 
soon, because it affects a lot of States, and they need to be 
appropriately strong.
    It is impossible in Tennessee for the communities of 
Knoxville, Chattanooga, for example, to meet their attainment 
standards so they can attract industries like the Volkswagen 
plant if we don't have strong national standards about sulfur, 
nitrogen and mercury. So that is No. 1.
    No. 2, in your discussions about the goal of dealing with 
climate change, and I am one Senator who has had a cap and 
trade carbon bill in ever since I have been a Senator, I hope 
you will focus on carbon-free solutions and be careful about 
what we often call renewable solutions. Because they are not 
really renewable solutions, they are just wind. Now, wind may 
be fine for offshore or in Minnesota or some places. But for 
example, in Tennessee, the estimates are that if we had all the 
wind power we could muster, which would mean putting 800 or so 
of these big turbines on our ridges, interfering with our views 
of the Smokies, which I would rather not see, it would only 
supply 1 percent of our electricity. Yet we are now 40 percent 
carbon-free because of nuclear and hydro power and trying to 
move that number up. California, as an example, is 50 percent 
carbon-free. So Tennessee is doing pretty well in the region, 
and I hope that you will think about that.
    In addition, as you think about policy to spend money, keep 
in mind that subsidies for wind are 27 times greater per 
megawatt hour than subsidies for all other forms of renewable 
energy, and that is before whatever the stimulus bill does.
    Finally, when you deal with climate change, I would suggest 
legislation that focuses on smokestacks, tailpipes, and gives 
all the money collected from cap and trade back to the people. 
I think that is simpler, I think it is less expensive, and the 
cost is something Congress can consider. I have a headline from 
the Tennessean showing that 30,000 people in the Nashville area 
can't pay their electric bills on time already, and TVA has 
some of the lowest electric bills in the Country.
    So I would take the step of focusing on cap and trade for 
power plants, President-elect Obama's standards, and I will 
wind up with this, because I see my time is up. A carbon-free 
fuel standard, which this Committee adopted at my amendment 
when we debated this last year, which would do a better job 
than a cap and trade on fuel. And that would be two-thirds of 
the carbon produced by the Country. And then take all the money 
that comes in from a cap and trade and give it back to people 
who are having a hard time paying their electric bills because 
of the inevitably increased prices of electricity that will 
come from carbon legislation.
    I look forward to working with you and I thank the 
Chairman-designate for the time.
    Senator Carper. You are quite welcome. Thank you for your 
statement.
    I think Senator Cardin is next. He has gathered the time, 
he tells me, from a bunch of other Senators who are not here, 
and he is recognized for 45 minutes.
    [Laughter.]

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. They are not here to object, so I figured 
it worked out well.
    Mr. Chairman, thank you very much. I am very much looking 
forward to this confirmation hearing for Lisa Jackson and Nancy 
Sutley to assume their roles in the Obama administration. I 
welcome both of you here and thank you, thank you for being 
willing to serve. Thank you for your families, for putting up 
with the inconvenience of the responsibilities you are about to 
assume. We very much appreciate your willingness to continue in 
public service.
    I have had the chance to talk with both of you in my 
office. So you know the first issue I am going to bring up, and 
that is the Chesapeake Bay. The Federal partnership in the 
Chesapeake Bay has been extremely valuable for promoting the 
appropriate type of remedial action in the Chesapeake Bay, and 
has been a real model for our Nation. What I urged in our 
private discussions and I will continue to raise today is that 
we need leadership from both of you. We need leadership from 
this Administration to strengthen the partnership between the 
Federal Government and the Bay partners in order to be able to 
move forward.
    And we are going to be asking you to do that. That requires 
leadership and adequate funding. And we are going to be talking 
about both. We want to be result oriented. We don't want to see 
press releases, we want to see results in the cleaning up of 
the Bay. And we look forward to working with both of you in 
that regard.
    As I requested in our meetings, I would invite you to join 
me in seeing first-hand what is happening on the Bay. I thank 
you for your willingness to make that a priority of your 
agenda.
    Ms. Jackson, you and I discussed also the critical problems 
of polluted runoff from stormwater. Stormwater is the major 
challenge facing the Bay and many other waters of the United 
States. Non-point pollution is the least regulated source of 
pollution, and the only pollution sector still growing in the 
Bay watershed.
    In my meetings with Ms. Sutley, we also discussed the need 
to make Bay cleanup a priority across all Federal agencies. We 
talked in detail about the immediate attention to a long-
simmering dispute over environmental cleanups at military 
installations. I feel confident that Nancy Sutley will ensure 
that cleanup of Federal facilities will be just as stringent 
and receive the same oversight that we require from the private 
sector.
    Our communities of Fort Meade and Fort Dietrich can be sure 
that the environmental experts at EPA will have the ultimate 
responsibility for cleanup standards and methods. Our military 
families and local communities who support our installations 
deserve no less.
    During the questioning, I will get into some other issues 
that we had a chance to talk about. I do look forward to this 
hearing, but more importantly, I look forward to your 
leadership on environmental issues for our Nation.
    [The prepared statement of Senator Cardin follows:]

            Statement of Hon. Benjamin Cardin, U.S. Senator 
                       from the State of Maryland

    Good morning.
    We are meeting today to consider nominees for two of the 
highest environmental positions in our Nation. I have had the 
opportunity to meet with both nominees to discuss their visions 
for their respective offices. Based on my discussions, I have 
renewed faith that the Chesapeake Bay restoration effort under 
the Administration of President Obama will remain a Federal 
priority that deserves renewed attention and resources.
    During our meetings, I invited both Lisa Jackson, nominee 
for EPA Administrator, and Nancy Sutley, nominee to head the 
Council on Environmental Quality, to visit Maryland so they can 
witness the beauty and the challenges of the Chesapeake Bay 
firsthand. I look forward to the first of many official visits 
a bit later this year.
    I was encouraged by our conversation about the need for new 
leadership and strengthened regulatory oversight of the 
Chesapeake Bay restoration effort. Transparency and results 
should be the hallmark of the new EPA leadership team. The last 
8 years of failed leadership are about to end. Positive spin is 
about to be replaced by a focus on real accomplishments.
    Ms. Jackson and I also discussed the critical problem of 
polluted run-off from stormwater.
    Stormwater is the major challenge facing the Bay and many 
other waters of the United States. Non-point pollution is the 
least regulated source of pollution and the only pollution 
sector still growing in the Bay watershed.
    In my meeting with Ms. Sutley, we also discussed the need 
to make Bay cleanup a priority across all agencies of the 
Federal Government.
    We also talked in detail about the need for immediate 
attention to the long-simmering dispute over environmental 
cleanups at military installations. I feel confident that Nancy 
Sutley will ensure that cleanup at Federal facilities will be 
just as stringent and will receive the same oversight that we 
require of the private sector.
    Our communities of Fort Meade and Fort Detrick can be sure 
that the environmental experts at EPA will have ultimate 
responsibility for cleanup standards and methods. Our military 
families and the local communities who support our 
installations deserve no less.
    I look forward to hearing more from these two impressive 
nominees at today's hearing, to hosting them at meetings in 
Maryland, and to a robust working relationship in the years 
ahead.

    Senator Carper. Senator Cardin, thanks for that statement. 
Under the early bird rule, I believe Senator Isakson is next, 
then Senator Whitehouse. Then we will come back to Senator 
Voinovich.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
             U.S. SENATOR FROM THE STATE OF GEORGIA

    Senator Isakson. Thank you, Mr. Chairman.
    I want to first echo the remarks of Chairman Boxer and 
others regarding Senator Voinovich and Senator Bond, two great 
individuals from whom I have learned so much in the years I 
have been in the U.S. Senate. They will be appreciated in the 
next few years and missed desperately after that.
    And welcome, our two new members.
    I have not had the privilege of talking with Ms. Jackson 
yet, however, I have read her resume, and she is eminently 
qualified. I have one inside information on her, she graduated 
from Tulane University summa cum laude. I am still paying off 
my son's tuition from Tulane 20 years later. That is a great 
institution, and she is a very significant contributor to that 
institution as an advisor.
    And with a master's from Princeton, she obviously has the 
academic acumen to do it, and management responsibilities in 
New Jersey certainly qualify her. My comments to her will 
simply be this. My interest is in an environmentally friendly 
regulatory body that uses common sense and recognizes what is 
going on. One of the unintended consequences of regulation is 
sometimes it doesn't work. A prime example in my State, in 
Catoosa and Walker Counties, where we are in non-attainment by 
EPA and have been, but have no industry to speak of. They 
happen to be on an interstate highway. But unfortunately, not 
because it is a bad place, it is a good place, but they are 
immediately adjacent to Chattanooga, Tennessee, which does have 
a lot of manufacturing, and they are downwind.
    So they are in non-attainment, which restricts them 
greatly, but they are not the generators of it nor can they do 
anything about the pollution they suffer from that lowers the 
air quality standards. There are ways to find flexibility, I 
think, in those standards, to work with communities like that 
who end up being punished through no fault of their own because 
regulations don't recognize the natural occurrence of things 
that have happened.
    Second, the potential regulation of greenhouse gases by the 
Department has included some conversation about naturally 
occurring methane from livestock going into the atmosphere, 
resulting in a taxation on livestock. On behalf of my Georgia 
farmers, I would just add that there is nothing they can do 
about Mother Nature and cattle. I think we have to be very 
careful when we start regulating naturally occurring elements, 
that we not turn it into a tax once again that they can't do 
anything about.
    But you are a very accomplished lady. I had the privilege 
of working with Carol Browner and I would close with this. Ms. 
Browner was a very good regulator. I didn't agree with her all 
the time, but she had common sense and still does. We were 
talking the other day. She, in Atlanta, which has been in non-
attainment and had a lot of difficulty, a lot of problems for a 
long time, she recognized back in 1999 and early 2000 that a 
waiver we had asked for for the construction of a bridge that 
would transcend the interstate system in downtown Atlanta would 
actually contribute to lessening air pollution from 
automobiles. And even though it was in non-attainment, she 
granted that waiver. And today, air quality standards are 
better, because we waived a regulatory prohibition because it 
made sense to put in a bridge.
    Ms. Sutley, I was proud to be able to talk to you 
yesterday. I have only one thing to repeat from what we said 
yesterday, and that is that Mr. Connaughton, who has been the 
negotiator for the White House and the catalytic agent in terms 
of the Georgia, Florida and Alabama water wars, we have been 19 
years with a broken-down water compact and the Federal courts 
have been regulating drinking water and ACT and ACF for some 
time. It is very important in this Administration that we find 
a way to get the three States together to come up with a 
working water plan. Your experience from California should be 
very helpful, because you understand the issues of water.
    And I hope the Administration, which in the campaign kind 
of sided with Florida, but I understand the politics of that, 
will understand we have three States, all of which need to 
drink water, all of which need to have it protected. If you can 
be a catalyst, as Mr. Connaughton has tried to do, to bring 
them together, I will be eternally grateful to you.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Isakson follows:]

   Statement of Hon. Johnny Isakson, U.S. Senator from the State of 
                                Georgia

    Thank you, Madam Chairman.
    At the outset I would like to pay tribute to our colleagues 
Senator Voinovich and Senator Bond, two outstanding Senators 
and members of this Committee who have announced their 
retirement. Both of them are former Governors of their States, 
and have spent their lives doing what they thought was in the 
best interest of the people they represented. The Senate and 
Nation are a better place because of their service.
    This hearing is a good opportunity for us to learn about 
the nominees' vision for the EPA and the Council on 
Environmental Quality. I was disappointed that I wasn't able to 
have a substantive meeting with Ms. Jackson prior to this 
hearing, however I understand that her staff is working to try 
and schedule such a meeting. I was able to have a brief call 
with Ms. Sutley yesterday, and again understand that her staff 
is working toward scheduling a more substantive meeting, which 
I look forward to.
    I have a number of issues I am eager to hear from the 
nominees on. Starting with Ms. Jackson, Catoosa and Walker 
Counties in my State were put into non-attainment by EPA, even 
though EPA admits that the source of the pollutants that put 
them in non-attainment are not in these counties. I am 
interested in hearing from her if the EPA under her leadership 
will punish rural communities who have air quality issues that 
are no fault of their own. If they will continue this practice, 
what steps she will take to ensure that these communities are 
given the tolls they need to come out from under this 
designation.
    Another issue I will want to hear from Ms. Jackson about 
relates to the EPA plan to regulate greenhouse gases such as 
methane, nitrous oxide and carbon dioxide, under the Clean Air 
Act that would result in new taxes on livestock operations. 
This is of significant interest to me and the farmers in my 
State.
    The EPA proposal in response to a Supreme Court decision in 
Massachusetts v. EPA, which dealt with a petition to regulate 
automobile emissions, was to make a finding that any or all 
greenhouse gases endanger public health. Once an endangerment 
finding is made, EPA cannot restrict its regulations only to 
auto emissions, and other Clean Air Act provisions are 
automatically triggered, such as the Title V permit program.
    Title V requires that any entity that emits, or has the 
potential to emit, 100 tons of a regulated pollutant must 
acquire a permit in order to continue to operate. Livestock 
operations emit more methane and nitrous oxide than carbon 
dioxide and both are alleged to be more potent than carbon 
dioxide.
    States administer Title V permits and permit fees vary, 
although the EPA sets a presumptive minimum rate for fees. For 
2008-2009, the EPA rate is $43.75 per ton of emitted GHGs. 
Using EPA data and USDA statistics, American Farm Bureau 
estimates the fees could be $175 per dairy cow per year, $87.50 
per head of beef cattle a year and about $20 per hog a year.
    Livestock and dairy producers would not be able to absorb 
the costs associated with this plan, and many of them would be 
forced out of business because farmers are usually price takers 
rather than price makers.
    Implementation of the EPA's proposed rule could result in 
less livestock production in the U.S. while also helping cause 
an increase in the importation of foreign livestock.
    Finally, small water systems in Georgia and across the 
Nation are struggling to comply with several EPA drinking water 
rules because of unfunded mandates imposed by the Federal 
Government. I cosponsored Senator Inhofe's bill to reauthorize 
the technical assistance provision of the Safe Drinking Water 
Act which expired in 2003. This bill provided much needed 
assistance to community water systems across the country that 
face several very technical and difficult Federal drinking 
water regulations. I am interested in hearing from Ms. Jackson 
whether she will prioritize rural water funding within EPA's 
budget because small communities depend on that program to 
protect their drinking water quality, and to comply with 
Federal mandates.
    Small communities are most in need of assistance for EPA 
compliance because of their limited technical and financial 
resources. Rural water is often the only understandable 
assistance small communities receive to operate water supplies, 
comply with Federal rules, and apply for Federal funding.
    Rural water allows all small towns to work together to 
share common resources. This nationwide effort is truly unique 
because it accomplishes progressive environmental protection 
with the support of the local community.
    As you know, without these initiatives effective 
implementation of the Safe Drinking Water Act and Clean Water 
Act in our rural areas would be impossible. And the EPA rules 
and their complexity are increasing (disinfection by-products 
rules, arsenic enforcement, groundwater rule, coliform testing, 
distribution system assessments, TMDLs, Clean Water Act re-
permitting, the Federal bio-terrorism act security reporting, 
etc.).
    All of our small and rural communities want to comply and 
provide safe water, however, they need assistance as to how to 
comply with EPA rules in a manner their community can afford 
and understand.
    I am interested in hearing from Ms. Sutley on her plan to 
carry on the good work Chairman Jim Connaughton did in 
mediating talks between the Governors of Georgia, Alabama, and 
Florida as it relates to water allocation issues in the 
Apalachicola-Chattahoochee-Flint and Alabama-Coosa-Tallapoosa 
River basins.
    I also would like to enter into the record, Madam Chairman, 
a statement by the President-elect on this issue made in 
October of this past year and a letter I, along with Senator 
Chambliss, sent him in response to his statement. In it the 
President-elect said he ``will make protecting Florida's water 
resources a priority'' while referencing the ACT/ACF river 
basin negotiations that have been going on for 17 years between 
Georgia, Florida, and Alabama. This statement was not well 
received in my State. I hope this was purely election year 
politics in an effort to gain Florida's 27 electoral votes, and 
not a statement of preference for Florida's needs over the 
people of my State or the State of Alabama for that matter.
    From Lake Lanier to Lake Allatoona, from Atlanta to West 
Point Lake, and from LaGrange to Columbus, I have worked with 
Senator Chambliss, Governor Perdue, and others to find a 
solution that benefits not only the people of our State, but 
all those who reside in the river basins regardless of what 
State they live in. I am hoping Ms. Sutley will clarify that 
the President-elect does not wish to undo the good work we have 
done to find a solution for all the people in the river basin 
and instead prioritize the needs of only the people of Florida.
    I thank the Chair for calling this hearing.

    [The referenced material follows:]
    [GRAPHIC] [TIFF OMITTED] T4020.001
    
    [GRAPHIC] [TIFF OMITTED] T4020.002
    
    [GRAPHIC] [TIFF OMITTED] T4020.003
    
    [GRAPHIC] [TIFF OMITTED] T4020.004
    
    Senator Carper. Senator Isakson, thank you very much for 
that statement.
    Senator Whitehouse, I don't think you have spoken yet, have 
you?

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Not yet, Mr. Chairman. But I appreciate 
the opportunity to be with you. I am delighted to welcome our 
two nominees and to join Senator Cardin in applauding them for 
their decision to embark on this public service journey at a 
perilous and I think also fascinating time.
    Rhode Island, as the Ocean State, has a long tradition of 
environmental stewardship. It has been represented on this 
Committee over many years by Rhode Islanders like John Chafee, 
who served as the Chairman of this Committee, then his son 
Lincoln Chafee, who succeeded him, who was an energetic and 
distinguished member of the Committee. I hope that I can 
contribute on this Committee as well.
    Despite our best efforts, you have not only local Rhode 
Island efforts, but regional efforts, like REGI, we remain very 
vulnerable to environmental threats from outside, particularly 
global warming. Our fisheries, our orchards, our very coastal 
infrastructure is vulnerable to the consequences of global 
warming. We simply can't do it all alone. In some cases, we 
can't do any of it alone. Like Senator Isakson, I can relate to 
the concerns about non-attainment. Rhode Island is in non-
attainment, not because of anything we have done, but because 
of Midwestern power plants that dump their effluents on our 
State. And there is nothing you can do in Rhode Island about 
that. I tried, as attorney general, lawsuits and now we have a 
chance to work on this from a more national level.
    So it really is important, and particularly with respect to 
the Environmental Protection Agency. This is an agency that has 
fallen into significant disrepute. More than anything else, it 
needs its integrity restored. It is important that, from a 
scientific and process point of view, the agency have 
integrity. It is also very important from a personnel and 
staffing point of view that it have integrity.
    As you and I both know, the people who work at the 
Environmental Protection Agency give up a great deal in their 
lives. They are not super well-paid, they all have, almost all, 
I suspect, have better and more remunerative opportunities they 
could find for themselves. And they go to work every day at the 
EPA because they care deeply about and take pride in the 
mission of the Environmental Protection Agency. If you take 
away that pride by taking away the integrity of the agency, 
then you risk losing that key element, that ingredient of the 
agency's success, its career dedicated personnel.
    I know you know this, but I just want to take this moment 
to emphasize it, because the administration of the EPA, under 
Administrator Johnson, has been a disgrace to our Country. It 
has harmed America and it has grievously harmed this agency and 
the well-meaning and honorable people who try to work in it. I 
thank you.
    Senator Carper. Thank you, Senator Whitehouse.
    Under the early bird rule, Senator Voinovich is recognized 
next, and he will be followed by Senator Lautenberg, and saving 
the best for last, Senator Merkley.
    Before Senator Voinovich speaks, I want to echo the 
sentiments that were just voiced. There is probably no one in 
the Senate that I admire more, like more and enjoy working with 
more than George Voinovich. We had the opportunity to work 
together as Governors, and he is a dear friend and highly 
principled member of the Senate. I realize we are stuck with 
him for 2 more years, and that is a good thing. But I lament 
the eventual loss of this member of our body.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Senator Carper.
    I welcome the new members from the other side of the aisle 
to this Committee, and look forward to working with them, as 
well as our Chairman, Senator Boxer.
    I have said that I think these next 2 years may be the most 
important 2 years that I serve in public office, because of the 
condition of our economy and the threat, in all aspects, to the 
world economy. And I think some of the work that we are going 
to do here on this Committee is going to have a lot to do with 
what our future is going to look like.
    I am really pleased that I had a chance to meet with our 
nominees in my office. I enjoyed our visit. I echo my 
colleagues' comments about welcoming you to this business. I 
want to thank your families for the sacrifice that they are 
going to make in order for you to serve the way you are going 
to have to serve to do the job that I am sure we will want you 
to do and our President-elect wants you to do.
    Having served as a mayor and Governor and Senator, I 
understand the needs, concerns and responsibilities that each 
level of government brings to bear on the challenges we face as 
communities and as a Nation. I really think it is neat that 
both of you have had some really good State and local 
experience, because that is where the rubber hits the road. I 
think those experiences are going to stand you in good stead 
when some of these decisions come your way, that you just don't 
have the Federal attitude toward some of these things.
    Our first nominee this morning is Lisa Jackson to be EPA 
Administrator. And I want you to know, and as I told you, I 
think it is the most difficult job that one can have in the 
Federal Government. I know that there have been some comments 
about the other people that have held that office. I want to 
say for the record that I think Steve Johnson did an 
outstanding job as Director of the EPA. Mike Leavitt, who was a 
former Governor of Utah, when he was head of the EPA, I thought 
he did a very, very good job. So that is for the record. The 
goal is for you to do the very best that you can do with what 
God has given you.
    Our second nominee is Nancy Sutley, to be Chair of the 
Council on Environmental Quality. As with Ms. Jackson, your 
experience working on environmental issues with the Federal 
Government on behalf of California and the city of Los Angeles 
will help you to bring a nice, local perspective. I didn't have 
an environmental person when I was mayor of the city of 
Cleveland, but L.A. is a big city.
    I look forward to working with you on a variety of issues, 
including more funding and assistance to local communities to 
deal with water infrastructure needs. Senator Lautenberg and I 
are well aware of this State revolving loan funds have not been 
adequately funded for 10 years. Senator Lautenberg and I put 
legislation in to provide some grants to communities. We have 
cities all over the Country that are being required to comply 
with the law in terms of storm overflow. And frankly, with the 
economy today, and I have been told the rates are going to go 
up 10 percent each year, and no help from us, it doesn't make 
sense. On the one hand, we want to stimulate the economy, and 
on the other hand, we have these situations.
    Last but not least, I would like to mention the Great 
Lakes. Senator Obama, President-elect Obama has made a real 
commitment to that. I want you to know that I am going to make 
sure that he fulfills that commitment, and hopefully we can get 
somebody in either one of your shops that is going to provide 
the leadership that we need to get it done.
    Thank you.
    [The prepared statement of Senator Voinovich follows:]

          Statement of Hon. George V. Voinovich, U.S. Senator 
                         from the State of Ohio

    Madam Chairman and Ranking Member, thank you for holding 
this nominations hearing.
    I am pleased to have had the opportunity to meet with both 
of our nominees prior to this hearing, and I thank them for 
making themselves available to meet with members of this 
Committee.
    Having served as a mayor, Governor and now as Senator, I 
understand the different needs, concerns and responsibilities 
that each level of government brings to bear on the challenges 
we face as communities and as a Nation. I am very pleased that 
both nominees before us today have experience serving at the 
State and local level. I thank them both for their willingness 
to serve, and even more importantly, I thank their families for 
their sacrifices. I welcome them and look forward to hearing 
from them.
    Our first nominee this morning is Lisa Jackson to be EPA 
Administrator. In my opinion this is one of the most difficult 
positions in the Federal Government. No matter what you do--it 
is either too far for industry or not enough for the 
environmental groups.
    I believe that Mrs. Jackson's past experience working with 
the EPA both at the State and Federal level will serve her in 
good stead, and I hope that she will be able to bring the 
perspective she gained from her work in New Jersey to bear on 
an agency that is not always understanding of the needs and 
concerns of States.
    Our second nominee is Nancy Sutley to be Chair of the 
Council on Environmental Quality. As with Mrs. Jackson, the 
experience working on environmental issues with the Federal 
Government on behalf of California and the city of Los Angeles 
that Ms. Sutley will be able to bring to Washington will serve 
her, the President-elect and the Country as well.
    The perspectives of State and local governments, which both 
nominees understand, can help the Federal Government work more 
effectively with State and local officials.
    I also look forward to working with both of you on a 
variety of issues, including:
    <bullet>  More funding and assistance to local communities 
to deal with water infrastructure needs. There is a crisis in 
my State--hundreds of communities are increasing their water 
and sewer rates while at the same time they are facing 
significant job losses. If the EPA is going to impose costly 
mandates on struggling State and local governments, then it 
should provide funding for compliance with those mandates.
    <bullet>  Strong leadership in efforts to restore the Great 
Lakes. I am pleased that President-elect Obama has made a great 
commitment to the Great Lakes. As I mentioned to Mrs. Jackson, 
we finally have a Great Lakes Regional Collaboration Strategy, 
but we have never had someone in DC to devote the time to this 
carrying out this plan; and
    <bullet>  Harmonizing our environment, economic, energy, 
and national security needs through a responsible and balanced 
application of the Clean Air Act and any future policy to 
reduce greenhouse gas emissions. I am looking forward to 
working with you on climate change, and I hope we can come up 
with a compromise.
    Again, I thank both witnesses for being here today and for 
their desire to serve this Country.

    Senator Boxer [presiding]. Thank you so much, Senator.
    I want to announce who has not spoken yet, this is all in 
order of arrival. So it looks to me that we have three, four. 
Lautenberg, Merkley, Baucus and Cardin. Oh, then it is three.
    So we will go to Senator Lautenberg.
    Senator Lautenberg. Thank you again, Madam Chairman. To our 
good friend, George Voinovich, George, if you find civilian 
life a little dull, you can come back in a couple of years.
    Senator Voinovich. No, thanks, Frank.
    [Laughter.]
    Senator Lautenberg. Wait.
    [Laughter.]
    Senator Lautenberg. The last 8 years, it is interesting how 
the division of views develops as we chat here. And no gloves 
on yet. The last 8 years, in my view, at EPA, have been very 
disappointing. Global warming, for example, the most serious 
environmental threat that we face, we haven't done very much at 
the Federal level, and the current EPA prevented States from 
taking action at the local levels. When California, New Jersey 
and 15 other States fought to cut greenhouse gas emissions from 
cars and trucks, under Mr. Johnson, EPA sided with industry 
more often than not, and even denied the routine waiver that 
would have allowed States to regulate these emissions. And our 
CEQ chair knows very well in her State how hard you worked to 
try to get a waiver, how often it was denied.
    The current Administration has also failed to provide 
sufficient funding to run the Superfund program. And everyone 
knows how important a program that is. During the 1990s, EPA 
averaged more than 80 Superfund sites cleaned up per year. But 
in 2008, only 30 sites were cleaned up. And New Jersey has more 
Superfund sites than any other State in the Country, and this 
EPA has left those sites to decay and allowed toxins to seep 
into the neighborhoods where our children live nearby, playing 
around those areas. This is EPA's legacy over the last 8 years, 
a legacy of disappointment, missed opportunities and secrecy, 
where officials refused to even appear before this Committee, 
denied an appearance before this Committee.
    Well, it is time for a new beginning, time to leave behind 
the mistakes of the past and focus on the challenges of the 
present and the future. It is time to usher in a better and 
brighter future, for this agency, for our environment, for the 
health of generations to come. Lisa Jackson and Nancy Sutley 
are the right leaders to forge that change.
    As I said in my opening comments, Lisa Jackson has the 
energy, the expertise, the experience we need to revitalize the 
EPA. And we found out that her husband is fully behind the 
effort, and we thank you. We are getting two of you.
    And Nancy Sutley has a career of experience to draw on as 
she advises President-elect Obama on environmental policy.
    Once these nominees are confirmed, I look forward to 
working with them. I have had a chance to work with Lisa 
Jackson in the past, and look forward to continuing that. And 
on this Committee, I look forward to passing legislation to 
protect our environment and the health of our children for 
generations to come.
    I thank you, Madam Chairman, for your leadership on this 
Committee.
    Senator Boxer. Senator, thank you so much.
    Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Madam Chair.
    Lisa Jackson and Nancy Sutley, I am impressed by your 
public service credentials that you bring to this Committee and 
to this opportunity to serve in the executive branch. It is 
clear that cleanup of our environment has been of great concern 
to each of you. And it certainly is of great concern to the 
citizens of Oregon.
    It is our belief in our State that it is so important to 
protect the treasures of this planet as a legacy for our 
children, and that pursuing that aggressively will also be 
great for the economy. And believe you me, we are thinking 
about the economy day and night out on the West Coast, as we 
are throughout the rest of the Nation.
    It has been our experience in the last several years that 
it has been up to the State to take leadership. And Oregon has 
done just that, creating perhaps the best renewable energy law 
in the Country, 25 percent by 2025, on top of the hydro power 
that we currently utilize in the State. Probably the most 
aggressive law for the efficiency of our appliances, 
establishing a 2 percent standard for inclusion biodiesel in 
all diesel that will be triggered this year, as a result of the 
opening of a new biodiesel plant last year. Expanding Oregon's 
landmark recycling bill. Being on the forward edge of 
restricting the use of mercury in products. And the list goes 
on and on.
    But as we look from the West Coast to Washington, DC, we 
have been disappointed by the failure of leadership, by the 
paralysis of Congress as well as the failure of leadership in 
the Bush administration. Now it is time to change that. 
Certainly, one of the statistics that was much discussed in my 
part of the Country was a survey of scientists who work at EPA. 
If I recall correctly, half of the scientists said that they 
had been pressured by their managers to modify their findings 
for political purposes.
    That is an astounding, astounding finding. It is a 
systematic effort to degrade science, to degrade the factors 
that will help us see clearly into the future. So I certainly 
look forward to the type of leadership that both of you will be 
able to bring.
    Senator Boxer. Thank you, Senator.
    We will go to Senator Baucus, then Senator Vitter, and that 
will close the opening statements, and we will get to Ms. 
Jackson's statement.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you very much, Madam Chairman.
    I add my congratulations to Lisa Jackson and Nancy Sutley 
on their nominations. I know you will work very hard, you are 
dedicated public servants and you care, and certainly in this 
spirit of this new Administration, you are going to go the 
extra mile. I congratulate you both and wish you very good 
luck.
    Marian Anderson, the great American soloist, who 70 years 
ago gave a concert on the steps of the Lincoln Memorial, when 
she was not allowed to sing at Constitution Hall, gave this 
advice about leadership: ``Leadership should be born out of the 
understanding of the needs of those who will be affected by 
it.'' The EPA has failed to understand the needs of some of our 
most vulnerable communities. Nowhere is this more true than in 
Libby, Montana, where EPA's failure to declare a public health 
emergency has hindered EPA's cleanup efforts and denied medical 
care to hundreds of residents.
    I have spoken many times about the over 200 people in Libby 
that died from asbestos contamination caused by W.R. Grace, 
over 200 people have died as a result of the contamination 
caused by W.R. Grace. In the year 2001, EPA took chest x-rays 
of the people in Libby who had been exposed to asbestos. Well 
over 1,000 people showed abnormal lung changes and needed long-
term medical care, over 1,000. At that time, the EPA's 
scientists and doctors in Libby recommended that a public 
health emergency be declared, so that EPA could have the 
authority to do a proper cleanup and provide medical care for 
the community. Unfortunately, the White House overruled EPA's 
scientists and decided not to declare a public health 
emergency.
    Asbestos is a sinister poison. Asbestos-related diseases, 
once it sets in, sets in decades after the exposure. You don't 
know until decades after the exposure. And the suffering is 
excruciating, especially with mesothelioma, a particularly 
pernicious form of asbestosis. So the people in Libby with 
asbestos in their lungs wait. They don't know, they worry that 
10, 15, 20 years later, lo and behold, they have it. They wait 
to see if they will develop asbestosis or mesothelioma. They 
wait for a public health emergency to be declared so they can 
get the Federal medical care they need. Otherwise, they are not 
going to get the Federal medical care that they need. And then 
they worry that that help will never come.
    Several years ago, I made a promise to the people of Libby 
that I would do all I could to help them. Now I expect both of 
you to make me a promise. If you want my support, I need your 
commitment that you will come to Libby and see the suffering 
that W.R. Grace has caused and the opportunity we have to right 
this wrong. And I need your commitment that you will correct 
the failure of the current Administration to declare a public 
health emergency in Libby.
    Leadership should be born out of the understanding of the 
needs of those will be affected by it. That is what Marian 
Anderson said 70 years ago when she was denied the ability to 
sing at Constitution Hall. So I say, come to Libby, meet the 
people who are depending on you. If you do this, I am confident 
you will do the right thing.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Baucus follows:]

  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana

    I add my congratulations to Lisa Jackson and Nancy Sutley 
on their nominations to lead the Environmental Protection 
Agency and the Council on Environmental Quality. Marian 
Anderson, the great American soloist who 70 years ago gave a 
concert on the steps of the Lincoln Memorial when she was not 
allowed to sing at Constitution Hall, gave this advice about 
leadership: ``Leadership should be born out of the 
understanding of the needs of those who would be affected by 
it.''
    The EPA has failed to understand the needs of some of our 
most vulnerable communities. Nowhere is this more true than in 
Libby where EPA's failure to declare a public health emergency 
has hindered EPA's cleanup efforts and denied medical care to 
hundreds of residents.
    I have spoken many times about the over 200 people in Libby 
who have died from asbestos contamination caused by W.R. Grace. 
In 2001, EPA took chest x-rays of the people in Libby who had 
been exposed to asbestos. Well over a thousand people showed 
abnormal lung changes and needed long term medical care.
    At that time, the EPA scientists and doctors in Libby 
recommended that a public health emergency be declared so that 
EPA would have authority to do a proper cleanup and provide 
medical care for the community. Unfortunately, the White House 
overruled EPA's scientists and decided not to declare a public 
health emergency.
    Asbestos is a sinister poison. Asbestos related disease 
sets in decades after the exposure, and the suffering is 
excruciating. So the people in Libby with asbestos in their 
lungs wait and worry. They wait to see if they will develop 
asbestosis or mesothelioma. They wait for a public health 
emergency to be declared so they can get the Federal medical 
care they need. And they worry that help will never come.
    Several years ago, I made a promise to the people of Libby 
that I would do all I could to help them. Now I expect you both 
to make me a promise. If you want my support, I need your 
commitment that you'll come to Libby and see the suffering that 
W.R. Grace has caused and the opportunity you have to right 
this wrong. And I need your commitment that you will correct 
the failure of the current Administration to declare a public 
health emergency in Libby.
    ``Leadership should be born out of the understanding of the 
needs of those who would be affected by it.'' Come to Libby. 
Meet the people who are depending on you. If you do this, I'm 
confident you'll do the right thing.

    Senator Boxer. Senator Baucus, thank you. I just want to 
say as Chair, every time you speak about this subject, it 
touches everybody's heart. And let me say that we do need this 
commitment, and I hope you that will ask that question. If you 
can't be here because of your work that you have pending now, 
please, I will ask it for you and be very happy to do that, as 
well.
    Senator Vitter will have the last opening statement, and 
then we will get to Lisa Jackson.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair. I am pleased to 
welcome both of these nominees, and in particular, starting 
with Lisa Jackson, a fellow Louisianan and fellow New 
Orleanean, who went to high school literally six blocks from 
the home I grew up in. I was delighted to visit with Lisa 
recently, talk about many challenges she will confront in EPA, 
including some very unique post-Katrina issues and post-
hurricane issues in Louisiana.
    I was also delighted she expressed a real willingness to 
revisit Louisiana, return to Louisiana very soon to see some of 
those pressing issues that involve EPA, including with regard 
to Corps of Engineer work, which is very time-sensitive, very 
soon.
    I haven't had a chance to visit with Nancy Sutley, but look 
forward to hearing your views in terms of your prospective role 
and the thoughts you would bring to that job.
    Clearly, climate change will be a primary topic of 
discussion in this Committee and with regard to your jobs. I 
hope we discuss that fully, beginning here. I think it is 
really imperative that we think carefully about how, when, if 
we do that, considering that a very significant new regulatory 
burden implemented in the context of the current economic 
downturn would have very significant consequences. We need to 
think through that very carefully.
    Again, I look forward to all of your comments and to the 
questioning of the entire Committee. Thank you.
    Senator Boxer. Thank you.
    I wanted to mention to colleagues that we will have 7-
minute rounds. I am willing to stay, and I think Lisa Jackson 
is willing to stay as long as it takes, and then we will go to 
Nancy Sutley.
    Lisa Jackson, once again, welcome, and you have the floor.

STATEMENT OF LISA JACKSON, NOMINATED TO BE ADMINISTRATOR OF THE 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Jackson. Thank you, Madam Chairman.
    Please allow me to begin by first expressing my gratitude 
to you and to Ranking Member Inhofe for holding this hearing; 
to Senators Lautenberg and Menendez for their kind 
introductions; to all the members of the Committee for their 
thoughtful statements; and to many of you for taking the time 
to meet with me over the past week.
    If I may, Madam Chairman, I would like to re-introduce my 
husband, Kenny, whom I am delighted to have here with me today. 
My sons, Marcus and Brian, wanted to be here today, but their 
demanding mother insisted they go to school instead. I'm also 
pleased to introduce friends from the Ramapough Mountain Nation 
in Upper Ringwood, New Jersey: Wayne Mann, Vivian Milligan, Jay 
Van Dunk and Veronica Van Dunk.
    They and too many other Ramapoughs have lived on top of a 
Superfund site for decades. They are vivid reminders to me of 
how EPA can be a force for good if it does its job well and 
what can go wrong if EPA falls short. When I was nominated by 
the President-elect to lead EPA, Vivian called me and she 
cautioned me with one simple request: don't forget about us. So 
I asked them here today, not to offer them empty promises, but 
as witnesses to what I hope will be the beginning of my journey 
as EPA Administrator.
    I am deeply honored that President-elect Obama has 
nominated me to lead the Environmental Protection Agency. As 
one who has spent 21 years of my career in government service 
working to protect public health and the environment, I can 
think of no higher calling than to be asked to serve as EPA 
Administrator. It would be a particularly special privilege to 
head the agency where I worked as a career employee for 15 of 
those 21 years.
    I joined EPA in 1987 as a staff engineer. Two years later, 
I moved to the agency's Region 2 office in New York, where I 
served as a project manager for Superfund sites. I worked my 
way up through the EPA ranks.
    In 2002, I moved to New Jersey State Government. On Mardi 
Gras Day in 2006, in honor of my beloved native New Orleans, 
Governor Jon Corzine swore me in as Commissioner of the New 
Jersey DEP, where I managed an agency of almost 3,400 dedicated 
public servants.
    Madam Chairman, from a past of public service, I come to 
this moment, ready, able and eager to serve our Country and the 
President-elect and mindful of the awesome responsibility of 
protecting public health and the environment. President-elect 
Obama has affirmed two core values that he expects EPA to 
uphold during his Administration: scientific integrity and the 
rule of law. He has also made it clear that we will operate 
with unparalleled transparency and openness. I pledge to uphold 
those values.
    Science must be the backbone of what EPA does. The 
environmental and public health laws Congress has enacted 
direct the EPA Administrator to base decisions on the best 
available science. EPA's addressing of scientific decisions 
should reflect the expert judgment of the Agency's career 
scientists and independent advisors.
    If I am confirmed, I will administer with science as my 
guide. I understand that the laws leave room for policymakers 
to make policy judgments. But if I am confirmed, political 
appointees will not compromise the integrity of EPA's technical 
experts to advance particular regulatory outcomes.
    The President-elect's commitment to the rule of law is the 
hallmark of a principled regulatory agency. EPA needs to 
exercise its policy discretion in good faith and in keeping 
with congressional and court directives. I respect this 
Committee for its diligent efforts to hold EPA to the rule of 
law in recent years, and I pledge to uphold this principle 
every day if I am confirmed.
    The President-elect strongly believes responsible 
stewardship of our air and water can live side-by-side with 
robust economic growth. Done properly, these goals can and 
should reinforce each other.
    The President-elect's environmental initiatives are 
highlighted by five key objectives: reducing greenhouse gas 
emissions; reducing other air pollutants; addressing toxic 
chemicals; cleaning up hazardous waste sites; and protecting 
water. These five problems are tough, but so is our resolve to 
conquer them. Knowing the bright minds at EPA and the 
determination and spirit of Americans, we will.
    I was raised in New Orleans. My mother, like so many 
others, lost all she had in Hurricane Katrina. Her home lay 
vulnerable because of its design, but also because of the 
failure of the Government-built levees that were supposed to 
protect her. The natural defenses of the marshes and wetlands 
south of New Orleans have been destabilized by siltation and 
cut by oil and gas lines. The Government agency that was 
supposed to respond to the disaster was inept and incapable. In 
the face of that tragedy, I almost left public service. But I 
stayed because I believe we can and must do better for my 
mother and for all Americans.
    Like Vivian, Veronica, Wayne and Jay right behind me here, 
my mother has suffered from environmental negligence. But none 
of them are victims. They are survivors. They are Americans. 
They are my conscience. And I pledge today to serve them and 
all Americans well. Thank you very much.
    [The prepared statement of Ms. Jackson follows:]
    [GRAPHIC] [TIFF OMITTED] T4020.005
    
    [GRAPHIC] [TIFF OMITTED] T4020.006
    
    [GRAPHIC] [TIFF OMITTED] T4020.007
    
    [GRAPHIC] [TIFF OMITTED] T4020.008
    
    [GRAPHIC] [TIFF OMITTED] T4020.009
    
    [GRAPHIC] [TIFF OMITTED] T4020.010
    
    [GRAPHIC] [TIFF OMITTED] T4020.011
    
    [GRAPHIC] [TIFF OMITTED] T4020.012
    
    [GRAPHIC] [TIFF OMITTED] T4020.013
    
    [GRAPHIC] [TIFF OMITTED] T4020.014
    
    [GRAPHIC] [TIFF OMITTED] T4020.015
    
    [GRAPHIC] [TIFF OMITTED] T4020.016
    
    [GRAPHIC] [TIFF OMITTED] T4020.017
    
    [GRAPHIC] [TIFF OMITTED] T4020.018
    
    [GRAPHIC] [TIFF OMITTED] T4020.019
    
    [GRAPHIC] [TIFF OMITTED] T4020.020
    
    [GRAPHIC] [TIFF OMITTED] T4020.021
    
    [GRAPHIC] [TIFF OMITTED] T4020.022
    
    [GRAPHIC] [TIFF OMITTED] T4020.023
    
    [GRAPHIC] [TIFF OMITTED] T4020.024
    
    [GRAPHIC] [TIFF OMITTED] T4020.025
    
    [GRAPHIC] [TIFF OMITTED] T4020.026
    
    [GRAPHIC] [TIFF OMITTED] T4020.027
    
    [GRAPHIC] [TIFF OMITTED] T4020.028
    
    [GRAPHIC] [TIFF OMITTED] T4020.029
    
    [GRAPHIC] [TIFF OMITTED] T4020.030
    
    [GRAPHIC] [TIFF OMITTED] T4020.031
    
    [GRAPHIC] [TIFF OMITTED] T4020.032
    
    [GRAPHIC] [TIFF OMITTED] T4020.033
    
    [GRAPHIC] [TIFF OMITTED] T4020.034
    
    [GRAPHIC] [TIFF OMITTED] T4020.035
    
    [GRAPHIC] [TIFF OMITTED] T4020.036
    
    Senator Boxer. Thank you so much for such a good statement.
    I am deferring my opening round to Senator Baucus, then we 
will go to Senator Inhofe, because he has to go. Senator, I am 
pleased to cede to you my time.
    Senator Baucus. Thank you very much. Thank you, Madam 
Chairman.
    Ms. Jackson, you heard my statement about Libby. You and I 
spoke personally about Libby. I personally asked you to come 
visit Montana, come to Libby, Montana, see what is going on in 
Libby, Montana. I again make that request to you to come to 
Libby. Can I take you to Libby?
    Ms. Jackson. Yes, Senator. If I am confirmed, I would like 
to accompany you to Libby as soon as possible.
    Senator Baucus. I appreciate that very much.
    At this Committee last fall, we held a hearing and released 
a report documenting the failure of EPA to declare a public 
health emergency in Libby, despite the clear and documented 
desire of EPA staff and scientists, when you read the record 
you will see that is very clear, including Ms. Whitman. She 
also agreed with the recommendation. But they all based it upon 
the science, and I am very happy to hear you spent so much 
emphasis on science. And based upon the science, the 
recommendation was made by staff, by people on the ground in 
Libby, and by the EPA regional office, and by the EPA 
headquarters that a public health emergency be declared. But 
they were overruled by the OMB and by other political 
appointees.
    Declaring a public health emergency has not been done in 
this Country. It is allowed under the Superfund statute. But 
declaring a public health emergency would provide EPA with 
clear authority to remove some toxic zoolite attic insulation 
from homes in Libby and take other remedial action. It would 
also require that the Federal Government provide much-needed 
long-term medical care for the people of Libby. Libby is a very 
important community. And the company, W.R. Grace, has not 
provided adequate medical care. In fact, they keep cutting 
back, cutting back, cutting back.
    So most folks in Libby who have asbestos or asbestos-
related diseases have no medical care, or very little medical 
care. They are just left with grossly insufficient attention. 
So will you support the declaration of a public health 
emergency in Libby so that the cleanup will be done right, and 
so the people of Libby can get medical care?
    Ms. Jackson. Senator, after we visit, and I do see the 
victims of this tragedy, and it certainly sounds like they are 
the worst or among the worst of all sites I have ever heard of, 
I will review the record, which I believe you referenced, and 
which I believe, based on the science and the recommendations 
of the EPA staff, will lead to a quick determination on whether 
or not a public health emergency does exit. I pledge to do that 
as early as possible. It will be one of the issues on my desk 
if I am confirmed as Administrator.
    Senator Baucus. Will you report back to me within 90 days 
on the status of that declaration?
    Ms. Jackson. Absolutely, Senator. I will report back within 
90 days, for sure.
    Senator Baucus. I appreciate that. I don't want to over-
dramatize this, and many of my colleagues have heard me talk 
about Libby before. But a lot of this for me began with a 
fellow named Les Scramstad. I showed you a photograph of Les 
when you were in my office. I remind you, 6 years ago, I was 
sitting in the living room of a lady named Delia Benefield. 
These are all employees of W.R. Grace. There was Les, and he 
said, Senator, I hope you can do something for us. I said, I 
will. Then he looked at me straight in the eye and he said, a 
lot of people say they are going to help us, but most of them 
don't, so I will be watching you. Right then, I said to myself, 
boy, I have to make sure that Les is taken care of.
    Les would come off the hill, up from the mine. He would go 
home. He would embrace his wife. His kids would jump into his 
lap. He was caked with dust when he walked into the living 
room. I have seen those guys come off the hill. They are just 
dustbins, they are caked with the stuff. And W.R. Grace knew 
that this stuff was contaminated. They knew it. There is right 
now a pending criminal case in Federal court by the employees 
of W.R. Grace. That dust gave Les, I don't know if he had 
mesothelioma, but he certainly had asbestosis. His wife has it, 
because she embraced him. His kids have it. He is dead now. He 
passed away a couple of years ago.
    And just think of the guilt he had in giving that disease 
to his wife and his kids. That is common. The stuff is used in 
playgrounds, it was used in school yards, it is used in attics. 
It is throughout Libby. As I mentioned, over 1,000 people now 
are contaminated. And they don't know yet if they are going to 
get it, because it is a delayed disease. I have never seen 
anything like this, as tragic as this. These people are hung 
out there, just hung out to dry.
    So when you come to Libby, I think you will see this, and I 
am quite confident that you will make that declaration. And 
thank you very much for saying that you will report back to me 
in 90 days. Because I am not going to let this slide until we 
finally get that declaration.
    Ms. Jackson. I understand, Senator.
    Senator Baucus. Thank you very much.
    And one other question. It has to do with the toxicity 
assessment. In order to know what standards to clean to, you 
have to know how contaminated it is in the first place. There 
has been no toxicity assessment yet in Libby. How toxic is the 
contamination? It is a separate issue. I am not talking about 
cleanup. And the EPA has never done a toxicity assessment. So I 
also urge you to commit to fully fund and complete this 
toxicity assessment for Libby residents so that we know how 
clean clean has to be. We have yet to know how dirty it is now, 
how toxic it is now, to know what levels to clean to.
    So will you make that commitment, to get that toxicity 
assessment done?
    Ms. Jackson. Senator, if I am confirmed, I will review the 
science. I admit that sitting here, I don't know the status of 
what EPA has already done.
    Senator Baucus. I understand that.
    Ms. Jackson. But I am happy to review it and to move it 
toward a conclusion on toxicity.
    Senator Baucus. Would you mind reporting back to me on that 
subject, too, when you report back within 90 days?
    Ms. Jackson. Absolutely, yes.
    Senator Baucus. Thank you very, very much. I appreciate 
that.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    In these last 13 seconds, I wanted to say to my colleague 
that you will have, I believe, the full support of this 
Committee as we move forward. But I also want to remind 
everyone that, working with Senator Isakson, we were able to 
write a bill to ban asbestos, which passed through this 
Committee and passed through the Senate and died over in the 
House. So I just want to remind colleagues, we will be taking 
that bill up again as soon as possible. We are introducing it, 
reintroducing it.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman. Let me finish 
what I was going to say when I was paying tribute to our two 
departing Senators and our two new Senators on this Committee, 
that it is unusual. Because there is some violent disagreement 
on some issues. And I know it drives the press nuts, but 
Senator Boxer and I really do like each other. And this is 
unusual, and Senator Lautenberg, I might say.
    But let me just mention, Senator Voinovich is right, I say 
to you, Ms. Jackson, when he talked about the difficulty, this 
is no Mardi Gras. This job is really tough. And I know that you 
realize this. I was very pleased that you singled out just a 
minute ago in your opening statement, I normally take the time 
to get a review of the written statement, which I did not do, I 
confess, but you talked about two things. No. 1, transparency, 
which is very, very important. And that would come to the first 
question that I would have for you.
    I don't agree with the criticisms of many on this Committee 
on the current Administration not being forthcoming and 
providing all the information needed. I think they have. In 
fact, I would join Senator Voinovich in the kind things he said 
about Stephen Johnson. There has never been a director, at 
least in my memory, who has been more qualified. He came up 
through the ranks, and he has the right scientific background 
and all that. I think he did a very good job in a very 
difficult environment.
    So I first of all, in terms of being open and responding to 
us, whether it is the Democrats, Republicans, all Senators, 
that you will do this, and will be very forthright with us, as 
I am sure you will. And judging from our private conversation 
in our office, I think you have that commitment. I would like 
to get that commitment, to be working with us, Democrats, 
Republicans, in a very forthright way.
    Ms. Jackson. Senator, if I am confirmed, I look forward to 
working with this Committee, through its Chair, but also with 
individual members. EPA has long played an advisory role to 
Members of Congress on a range of environmental issues, and I 
would look forward to working with you and communicating with 
you.
    Senator Inhofe. Good. I appreciate that.
    The second thing you were very emphatic about was the 
science. I wrote it down, you said scientific integrity and 
rule of the law, that is going to drive you. You said the 
Administration has science as my guide. That was music to my 
ears. And I hope that includes the recognition that science 
changes. I know it is difficult and people don't want to talk 
about it. But things back during the Browner Administration, 
science was pretty well settled at that time in terms of things 
like greenhouse gases, climate change. And then so many of 
those individuals who were solidly on that side have changed.
    Now, I am going to ask for a commitment from you, and you 
had better think about this before you get it to me, I want a 
commitment that you will take the time in the next, let's say 
in the next 2 weeks, to pull up the record on my last Monday's 
speech, it was a whole hour on the floor of the U.S. Senate, on 
science, and that you will read my speech and then have a 
private visit with me afterwards some time at your convenience. 
Would you be willing to do that?
    Ms. Jackson. I am taking the time, Senator.
    Senator Inhofe. Oh, I want you to.
    [Laughter.]
    Senator Inhofe. You can't take more than 3 minutes, because 
that is all I have here.
    [Laughter.]
    Ms. Jackson. I was watching that clock.
    Senator, I am happy to exchange views with you at any point 
on science, and am I happy to read your testimony in advance of 
our discussion.
    Senator Inhofe. Thank you. Since we are almost out of time 
and you have your roots in New Jersey, I made mention to the 
Manville Superfund site and how it affects Oklahoma and the 
lawsuit that is going on there. There are a lot of people who 
believe that should have been done for about $20 million. In my 
opening remarks I commented on so many times that we see the 
EPA coming in and spending more money, and I believe this is 
true in some of these cleanups, and I think that has happened 
in this case. Of course, they are in Chapter 11 now, so I don't 
know how it is going to come out.
    But I would like to know if you would share with us your 
role in that, and any opinions you want to on that particular 
creosote site.
    Ms. Jackson. Certainly, Senator.
    Senator Inhofe. Very, very briefly.
    Ms. Jackson. Sure. At one point in my career, I was the 
section chief for Central New Jersey sites. I have been to the 
Federal creosote site in Manville, before, I believe it was 
before it was ever listed on the Federal Superfund list.
    There are well over 100 people who lived on top of what 
were essentially wood-treating pools full of creosote. So this 
site came to EPA's attention because people had oozing coal tar 
in their basements. And if you know about coal tar, it is 
particularly aggressive, and it is full of furans and dioxins.
    So the site included temporary and I think some permanent 
relocations of residents, and then basically a rededication of 
that neighborhood, because as I recall, the leadership of the 
town made clear that they wanted to restore it to residential 
levels. I do know that there has been some legal investigation 
of contracting practices, actually I should say the practices 
of the contractors who bid on the work at that site. But I 
haven't had any direct contact with it since probably the late 
1990s.
    Senator Inhofe. OK, that is fine. In my office, and I think 
that in my opening statement I mentioned that the most 
devastating site prior to its cleanup, and we actually got into 
this about 6 years ago, was Tar Creek in Oklahoma. As I have 
said, it is almost, it is 95 percent done now. I just want to 
be sure I get a public commitment from you, as I have a private 
commitment, that you will do everything you can to see that 
into its final stages.
    As far as relocations and that are concerned, all that is 
funded, it is done, pretty much done. And I don't think that 
anything is going to happen to do that. But do you have the 
commitment to complete that, as well as then start addressing a 
huge problem that hasn't been addressed, because we are 
concerned about saving lives. We didn't know that the 
subsidence was as bad as it was when we got into this thing. We 
had an elementary school that could have gone down at any time. 
So it was serious.
    But then we are going to have to deal with the problem of 
what are we going to have to do with all the pollution that is 
there, and cleaning that up. I would hope that you would 
publicly support what we are going to do to complete that site.
    Ms. Jackson. Senator, I first want to thank you, because my 
understanding is that your support of a subsidence study for 
that site was extraordinarily important. My guests here, the 
Ramapough people, live on top of an old mining site as well. So 
there may be lessons for us to learn in New Jersey from the way 
that site was handled in Oklahoma.
    Senator Inhofe. I think that is right. We were shocked at 
what we found out. It was quite a surprise. And the fact that 
it had not been done before, we were dealing in ignorance. We 
didn't know how many of those roads should have been closed. 
And we are talking about distances down of several hundred 
feet. It was just real bad.
    I know I am a little over my time.
    Senator Boxer. That is all right.
    Senator Inhofe. But I am not going to use the second time. 
I just want to get one last thing in. And this is just to help 
me out.
    A lot of the people with whom I disagree, like former Vice 
President Al Gore, James Hanson and others, scientific advisors 
believe that they would prefer a carbon tax fee or a tax over a 
cap and trade system. Now, I don't want anyone to go out of 
here saying that I want to have a carbon tax. I don't. But 
given the choices of those two, I would take a carbon tax, 
probably for different reasons than Hanson and some of my 
adversaries would want it. I think it is the more honest way of 
doing it.
    To me, a cap and trade is a way of obscuring what it really 
costs the American people. When we were dealing initially with 
the Kyoto Treaty and the Wharton School did the Wharton 
Econometric Survey, came to the survey that the range of costs 
would be between $300 billion and $330 billion a year, this 
was, you know, we needed to get that out so people understood 
it. If you have a carbon tax, then people are going to know 
just what it is going to cost.
    Do you have any thoughts about carbon tax as opposed to cap 
and trade?
    Ms. Jackson. Senator, the President-elect has clearly, 
during the campaign, favored the idea of a cap and trade system 
to regulate greenhouse gases. One of the reasons is because of 
the cap part. Going back to my discussion of science, a carbon 
tax alone, in isolation, does not set an eventual goal for 
actual reduction of global warming. So you could have a tax 
that doesn't, at the end of the day, meet the goal of reducing 
the amount of CO<INF>2</INF>, for example, in the atmosphere. 
That said, I think the goal is to reduce the amount of global 
warming emissions and the eventual amount of CO<INF>2</INF> in 
the atmosphere and reduce climate change.
    So I would certainly be open to discussions. I would not 
want to forestall any more discussion of carbon tax as an 
opportunity. But the President-elect has said that he believes 
the cap and trade program is a good way to go for our economy.
    Senator Inhofe. Good. Thank you very much, Ms. Jackson. I 
am looking forward to working with you.
    Senator Boxer. Thank you.
    Before I start my questioning, there are a couple of things 
you have to agree to if you want to get confirmed.
    Senator Inhofe. In addition to reading my speech.
    [Laughter.]
    Senator Boxer. In addition to reading his speech, which I 
think will be very enjoyable, actually, to read it. Because I 
have heard it, I could give it.
    [Laughter.]
    Senator Boxer. And he could give mine. This is true.
    Let me just say, one of the big disagreements we have on 
the Committee is that some of my Republican friends think that 
Stephen Johnson was one of the best administrators and some of 
us here, many of us have asked for his resignation. So we are 
not asking you to get into that. That is yesterday and you are 
today and tomorrow.
    So I want to ask you this question first. This one is not 
official, it is non-official. But in my view, and speaking for 
several on my side of the aisle, EPA is a shadow of its former 
self today. Morale is lower than low. How do I know that? 
Because I am told that by the people who work there. I am not 
making it up. They have written us letters. They are on the 
record.
    To this day, we keep seeing rollbacks. There was one the 
day before yesterday. Rollbacks that hurt the people.
    So you are walking into a tough situation. And I think you 
have the persona to deal with it. So this question is, well, it 
is more of an urging on my part. I would urge you to use your 
dynamic personality and your character and your experience and 
the way you have with people to reinvigorate the EPA by 
assuring its employees that the American people need them, that 
you need them, that you want them to be strong in protecting 
the environment and the public health, and using the best 
science to get to that goal.
    And can I have your assurance, this isn't the official, 
this is just from me to you, your assurance that you will do 
that with the employees there in desperate need of that 
leadership?
    Ms. Jackson. With pleasure, Madam Chairman. I would see 
nothing more important to restoring the health of the people of 
the United States than restoring the health of the 
Environmental Protection Agency itself.
    Senator Boxer. Thank you.
    And these are the official questions. Do you agree, if 
confirmed as EPA Administrator, to appear before this Committee 
or designated members of this Committee, and other appropriate 
committees of the Congress and provide information, subject to 
appropriate and necessary security protection with respect to 
your responsibilities as EPA Administrator?
    Ms. Jackson. Yes, I do agree.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents and electronic and other forms of 
information are provided to this Committee and its staff and 
other appropriate committees in a timely manner?
    Ms. Jackson. Yes, certainly, Madam Chairman.
    Senator Boxer. And do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed as EPA Administrator?
    Ms. Jackson. No, Madam Chairman, I do not.
    Senator Boxer. That is excellent.
    I just want to make a point that Mr. Johnson said yes to 
all of this, and he hasn't been here for 7, 8 months. We have 
asked him to. So I trust that when you say this, you mean this. 
And also, we haven't been able to get information. It has been 
a rough go. And I am glad you answered yes. I am going to hold 
you to your answers.
    Now I am going to get to my questions that have to do with 
issues that I care a lot about and others do. USA Today 
conducted their own monitoring of air around schools with the 
assistance of Johns Hopkins and the University of Maryland, to 
demonstrate that children in our Nation's schools are breathing 
polluted air. Personally, I think this was a prize-winning 
series that they did. The headline says it all: Air Tests 
Reveal Elevated Levels of Toxics at Schools. The newspaper 
found that ``Pollution at levels that could make people sick or 
significantly increase their risk of cancer if they were 
exposed to the chemicals for a long period.'' That is what they 
found. Pollution levels that could make people sick and 
increase their risk of cancer.
    And I have talked to you about this. This was about a 
three- or four-part series. And analysis pinpoints toxic hot 
spots in 34 States. So this isn't a question of one school. It 
is 34 States.
    So do I have your commitment that upon confirmation, you 
will immediately ensure that EPA quickly deploys experts to 
schools where there is an indication of threat from toxic air 
pollution, publicly release the data and take the steps 
necessary to address any health threats posed to children? And 
will you commit to report to me the steps you have taken and 
your plan for action within 30 days after you are confirmed as 
Administrator of the EPA?
    Ms. Jackson. Well, Madam Chairman, I am a mom. I am like 
many mothers in this country. Fifty-three million children go 
to school every day. And first and foremost, I believe that 
moms and they and fathers, too, have a right to know that their 
children are safe when they are in school. I will commit, if I 
am confirmed, to first and foremost begin to send investigators 
and samplers out to verify the extent of the problem that we 
have, to use EPA's current sampling expertise and sampling 
capabilities to get additional data. Because I think USA Today 
did what investigative journalists do, which is to find a 
problem that needs answers, to ask very important questions 
about what is going on. I think EPA has the expertise and 
authority to do that.
    Within 30 days, we will mobilize, if I am confirmed, to get 
that information.
    Senator Boxer. Well, I can't imagine anything that you 
could do, well, I will rephrase it. There are so many things to 
do. But I just think something like that, where the impacts are 
on our kids, and it is 34 States involved, and I will also add 
that EPA did rely on information from the EPA in addition to 
assistance from Johns Hopkins and the University of Maryland. 
So we are talking about science here, and I know you are going 
to take a look at how they got there. But this is very 
important, and I thank you for that.
    Another issue which has been brought to our attention is 
the issue of the coal ash waste that we have seen seep out, 
first it was Tennessee, and what was the second State? Alabama. 
In addition, Pennsylvania, 14 years ago it was Pennsylvania. 
And longer than that, there was West Virginia. So it seems to a 
lot of us that there is a disaster, that there are disasters 
waiting to happen out there. And we have seen a couple of them.
    So EPA has the authority to act to address the serious 
threats posed by the virtually unregulated State of coal ash 
and coal combustion waste sites. Will you commit, after 
confirmation as Administrator, to quickly, I am not putting 
days on this, to quickly assess these sites for immediate 
hazards and use EPA's authority to protect communities, 
including quickly establish strong standards at these sites 
under the Resource Conservation and Recovery Act.
    The reason this is so important, I would say, is that under 
the Clinton administration, the way they left it was for EPA to 
regulate. And the last 8 years, EPA has chosen not to. Under 
Clinton, they were looking at whether it should be regulated 
under hazardous waste or solid waste. And as you know, as we 
look at what is in this coal ash, it is quite toxic.
    So would you report to me on the steps you have taken and 
your plans for acting, not the final conclusion of this, but 
what you are doing within the first 30 days that you are 
Administrator?
    Ms. Jackson. Madam Chairman, I think that you put your 
finger on a very important thing that EPA must do right away, 
which is to assess the hundreds of other sites that are out 
there. Many of them, I think it was you who pointed out to me 
in our meeting, are upgradient, if you will, uphill from 
schools or from areas where just the physical hazard of having 
this wet coal ash, if there is a break, can endanger lives 
immediately.
    So I would think that EPA needs to, first and foremost, 
assess the current state of what is out there and where there 
might be another horrible accident waiting to happen. That 
said, that is only the beginning. EPA currently has and has in 
the past assessed its regulatory options with respect to coal 
ash. I think it is time to re-ask those questions and re-look 
at the state of regulation of them from an EPA perspective. And 
clearly, that is part and parcel, but can be done separately 
from a look at the coal technology in terms of looking, as we 
modernize coal for the future, that is one of the issues which 
we will certainly have to address.
    So in terms of a time commitment, I think EPA staff are 
currently involved, in some degree, in both of the current 
spills. So certainly, it is not a problem to commit that if I 
am confirmed, they will continue to do that. But we will then 
start to ask the broader regulatory questions.
    Senator Boxer. I want to make the point that some of us are 
going to introduce, I know Senator Carper is going to have 
authority in his subcommittee over TVA. And we are looking at 
some legislation that would call upon you to do this. And if we 
are not satisfied with action, we may move legislatively. I 
don't want to get to that point, because I think you have the 
authority to regulate this. It needs to be done.
    My understanding is, Congressman Rahall is looking at 
regulating it under the Mining Act. That to me is unnecessary, 
since you have the ability to regulate right now. We don't have 
to pass another law. You could move forward. So I am 
encouraging you to do that.
    I want to make another point about the assessment of the 
waste. As Senator Baucus talked about, making an assessment of 
how bad are things. It was pointed out to us that this coal ash 
represents a lot of different kinds of coal over the years. 
Some of the waste is more toxic. The irony here is that these 
are the worst possible wastes that we want to keep out of the 
air. And that is why we worked so hard to get them taken out of 
the air with the scrubbers.
    Now we have this pile of toxics. And some of it is reused, 
which is excellent in certain industry products. But the ash 
that remains is toxic. And there are different levels and 
contaminants. So in your assessment, I would urge you to look 
at that. A lot of this waste is stored high above, a holding 
pond. So we just need very quick action. This is long 
neglected. You are not going to fix it in a day. But we need to 
get it fixed.
    I have one last question, then I will yield to Senator 
Isakson.
    Last year, President-elect Obama co-sponsored my bill to 
approve California's waiver request, which you know affects 19 
States and a majority of the population. He said he would sign 
the waiver while campaigning, as did Senator McCain, which was 
music to my ears, frankly. Do I have your commitment to 
immediately revisit California's request for a waiver after 
confirmation and to follow the science, the law and EPA's long 
history of precedent on such waivers? They have never, ever 
declined a waiver as they did on this one. Would you respond?
    Ms. Jackson. Madam Chairman, you have my commitment that if 
I am confirmed, I will immediately revisit the waiver, looking 
at the science and the rule of law, and relying on the expert 
advice of EPA's employees in making a determination.
    Senator Boxer. I appreciate that. That is all we ask. 
Science, science, science and the rule of law.
    I am sorry, I mis-spoke, it is Senator Barrasso who was 
here first on the early bird. I am sorry, Senator. Unless the 
good Senator will yield to you, we have to stick with the early 
bird.
    Senator Barrasso. Thank you very much, Madam Chairman. I 
appreciate that.
    Senator Boxer. I guess not.
    [Laughter.]
    Senator Barrasso. If I could, Ms. Jackson, following up a 
little bit on the coal ash issues, and I visited with the 
nominee for Secretary of Energy and the nominee for Secretary 
of Interior and we talked about clean coal technology and 
needing to get to a point of energy and self-sufficiency. I 
just wanted to say with coal ash and some of the concerns that 
we do not in any way want to limit the potential for additional 
research, so that we can employ clean coal technology with 
carbon capture and sequestration. I don't know if you have any 
thoughts on that.
    Ms. Jackson. Senator, coal is a vital resource in this 
Country. It is right now the source of generation of about 50 
percent of our power. And I think that it is also important for 
us to say in the same sentence that it is, the emissions from 
coal-fired power plants are the largest contributor to global 
warming emissions. So we have to face, square shoulders, the 
future and the issues of coal and then move American ingenuity 
toward addressing them.
    You mentioned one of the technologies that the President-
elect spoke about during the campaign, and that I spoke with 
many members of this committee about, and that is carbon 
capture and sequestration. I know you visited with the 
Secretary-designate. He is fond of saying and has said to me 
now twice that we must invest aggressively to get a technology 
that will work, and that will work at full scale. Because we, 
certainly in this Country, have coal-fired power plants. But 
other countries, China, India and others, will as well. So we 
must have a way of dealing with those emissions as well, if we 
are going to really beat this climate change issue.
    Senator Barrasso. Along the lines of climate change, there 
was an article in Financial Times last month. It talks about 
what we are asking people to do. And it said, saving the planet 
demands that people give up holidays, turn down heating and 
clean their teeth in the dark. They talk about the pain as 
being a virtue in halting global warming, and then what happens 
to all of us as consumers and the lives we live.
    Can you talk a little bit about what you view the 
Administration's role and what they are recommending in terms 
of how we live our lives, how this is dramatically going to 
impact people, how we travel, what we eat, how we heat our 
homes, how much we drive, all in the effort to address climate 
change?
    Ms. Jackson. Senator, one of the ways that we can begin to 
address climate change today is through energy efficiency, 
through changing our habits, our buying habits, the appliances 
and homes that are available to us to buy, and making them 
misers when it comes to energy use. And that can happen 
quickly. It has the benefit of addressing climate change, but 
also of making us more energy independent.
    So I prefer not to think of it as pain as much as 
individual responsibility. We are at a point where within 
people's abilities and economic means, we are, we need them to 
understand that they have an important responsibility in the 
choices that they make. It is our responsibility, I believe, to 
give them choices, to give them efficient homes to buy or rent, 
to give them the ability to cut down on their energy uses, to 
give them vehicles that allow them choices, that move us toward 
addressing climate change and emissions.
    Senator Barrasso. As you and I discussed in the office 
yesterday, with efficiencies, when we get a more energy-
efficient refrigerator, we tend to move the other one down into 
the basement, and then ultimately we have more efficient 
appliances, but we have twice the number. So we are still using 
quite a bit of energy.
    One of the things that you and I talked about a little bit 
was that President-elect Obama has indicated that he is going 
to appoint Carol Browner to direct the integration of energy 
and environmental policy in the Administration. As you 
understand it, how will that work? Who will ultimately make the 
final EPA decisions?
    Ms. Jackson. Well, Senator, final EPA decisions will be 
made by the EPA Administrator. Ms. Browner's appointment into 
an Office of Energy and Climate Change will not change EPA's 
statutory responsibilities, and in my mind, change EPA's other 
non-statutory responsibilities to advise this body, to advise 
the President.
    Senator Barrasso. And if the two of you disagree on 
something in terms of an environmental issue, then how does 
that work, between you and the White House?
    Ms. Jackson. I believe that if I am confirmed, the EPA 
Administrator is bound by law to uphold the laws that list the 
EPA Administrator as the official to implement them. So I will 
take very seriously my legal responsibilities to enact and 
uphold and implement the laws that Congress puts forward for 
the American people.
    I am sure that advisors can agree or disagree on any number 
of issues and her advice and counsel is something I would 
certainly seek. She has very relevant experience and she will 
be dealing across Government on many issues with respect to 
energy and climate change.
    Senator Barrasso. In my opening statement I talked about 
some laws passed a number of years ago that are now being used 
or interpreted in different ways than I think were the initial 
intent of the law. I would ask, will you follow these 
reinterpretations or come back to the Congress and say, could 
you please clarify this so we know exactly what you are talking 
about?
    Ms. Jackson. Senator, I think that the beauty of many 
environmental laws is that they were meant to address not only 
the issue of the day but the issues of potentially tomorrow. I 
think that that is the hallmark of what makes them strong in 
many cases.
    So what I can commit to, and what I would be happy to 
commit to is an ongoing conversation and communication, so that 
we understand each other's views, even if we don't necessarily 
agree on all of them, and get input from this Committee, from 
each member and through the Chairman from the Committee as 
well.
    Senator Barrasso. My last question, there have been a 
number of regulations issued by the EPA and have been growing 
at a fast pace over the recent years, with certain costs passed 
on to States without money to help. While the EPA hasn't 
lowered its budget, the unfunded mandates, if you will, to the 
States has grown. As a former State Senator, I am very familiar 
with some of those.
    Could you talk about that and the mandates that have come 
to the States and the expense to the States? Is that something 
that you are going to be cognizant of and work on to try to 
make sure that those expenses are not borne by our States 
without additional funding from the Federal Government?
    Ms. Jackson. Senator, the budget realities for States are 
playing out in the news media every day. Environmental programs 
are certainly not exempt from decreasing budgets. It is very 
true that EPA budgets over recent years have flat-lined at best 
State programs and State grants that are meant to pay for 
personnel. We see the same thing in grant programs like the 
State revolving fund, money that has been cut, that funds 
tremendously important work on water quality.
    So what I can commit to, obviously the EPA Administrator 
has a role in formulating the President's budget, and clearly, 
in looking at that role, I would look very strongly at the work 
that States do. As a former State commissioner, I know how hard 
we work and I know how efficiently we try to do it. Much of the 
permitting work and enforcement happens at the State level and 
some at the local level. So we will do what we can to find the 
appropriate balance between national leadership on 
environmental issues and State implementation and local 
implementation.
    Senator Barrasso. Thank you, Ms. Jackson. Thank you, Madam 
Chairman.
    Senator Boxer. Thank you.
    Before I call on Senator Lautenberg and then Senator 
Isakson, I ask unanimous consent that all letters of support 
for Ms. Jackson be included in the record.
    Without objection, so ordered.
    
    [The referenced documents follow:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Senator Lautenberg.
    Senator Lautenberg. Ms. Jackson, I am, as you know, a fan 
of yours because of the work that you have done. So I am 
enthusiastic about your being here. The fact that our good 
friend and former Senate colleague Jon Corzine, Governor Jon 
Corzine, who recognized your ability and encouraged and 
supported pro, positive environmental law while you were there, 
and was extremely disappointed at the fact that you were going 
to be leaving his cabinet, but certainly encouraged you to be 
interested and to take this job, because he knew that we needed 
your kind of talent and commitment at EPA.
    So I just wanted to make a note of the fact that it was Jon 
Corzine that I checked with to say, hey, Jon, how does this go. 
He said, well, those little words perhaps for New Jersey, but a 
lot better for the Country. And my friends from Ringwood are 
there, Vivian and Wayne Mann and Jay Van Dunk and Veronica. And 
I want to make a commitment to you, supported by the knowledge 
that Lisa Jackson is going to be chairperson of the EPA, that 
we are going to work with you. We know each other and I feel in 
some ways like you are part of my group. I have been up to 
visit, as you know, and seen you there and seen how dismal 
things are by the threats of toxic pollution. When in fact, 
Madam Chairman, the EPA discharged this site in Ringwood, New 
Jersey, and it pervades the whole community, as being all set 
and everything done. If you walk around, you see these huge 
paint slogs that have been put there by the Ford Motor Car 
Company, just dumped there and continuing to be dumped there. 
What it does to the threats to childhood growth and health is 
awful.
    So we are going to get a lot more done, I can promise you 
that. Ms. Jackson has a way, she said if confirmed, if 
confirmed. This is an engine that can't stop, I can tell you.
    [Laughter.]
    Senator Lautenberg. So I want to say that you were 
instrumental in writing New Jersey's global warming law, it 
calls for 80 percent reduction in greenhouse gas emissions by 
2050. And as Chairperson Boxer knows, we worked very hard to 
get a bill through and we came awfully close. But the forces, 
negative forces stepped in and wouldn't permit it to happen.
    What lessons did you learn that can help you here with the 
EPA to finally work to regulate these emissions that cause 
global warming? What did you learn that you can employ in the 
new situation?
    Ms. Jackson. Senator, thank you for the kind words. The 
States consider themselves, as you know, laboratories for 
invention, for democracy. And the States have, in the absence 
of any Federal program, moved forward with programs that I 
think on many levels provide extraordinarily important guidance 
to EPA and possibly to folks outside the EPA. We now have 
operating a modest, a small, modest cap and trade program for 
CO<INF>2</INF> emissions in 10 States in the Northeast. It is 
not a perfect program, it was not designed to be an all-
encompassing step. It was designed to be a laboratory, to show 
people that States could come together and begin to regulate 
these emissions and deal with some of the real issues of 
governance and market manipulation and how do you ensure 
against those kinds of issues, so that we would have some real 
world experience.
    So I look forward to sharing that experience with those who 
want to on this Committee and working within EPA and building 
on it. We look every day in States, or we did when I was 
commissioner, we still do, I am just not there to do it, but 
States look every day at energy-efficiency issues and energy 
usage issues and renewables at a very different level than the 
Federal Government does. They are where the rubber hits the 
road, where work happens in terms of energy efficiency and 
retrofitting homes and weather-proofing schools and businesses 
and people's houses.
    So there is a tremendous amount that States will be able to 
do along with municipalities in terms of implementing the kind 
of energy efficiency programs that will turn the tide on our 
energy usage and buy us some real reductions in global warming 
emissions.
    Senator Lautenberg. Well, what it says is that we have to 
try whatever we can to eliminate or certainly reduce this 
attack on the well-being of our families, our children, our 
grandchildren. And I in this Committee room the other day 
called it a plague, the likes of which has never been seen in 
the history of man, that we are now facing something that 
unchecked, unchallenged, can affect the health of future 
generations to a disastrous level. So when we talk here, as we 
often do, about job loss, it is a very serious thing.
    But we also talk about a green condition that will employ 
lots of people and new enterprises, getting our society and our 
functioning converted to a positive system. I am pleased that I 
was author of legislation that said that the Federal Government 
must follow a green standard. We are the largest occupant of 
property in the Country. And a significant part of our 
greenhouse gases come from just the buildings standing there 
that otherwise could be contributing to a positive effect 
against greenhouse gas, by making some changes. And new 
construction or the renovations by the Federal Government are 
going to follow that standard.
    Madam Chairman, I assume the record will be held open?
    Senator Boxer. Yes.
    Senator Lautenberg. I thank Ms. Jackson for being here. 
Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Isakson.
    Senator Isakson. Thank you, Madam Chairman.
    You have been given a lot of deadlines and ultimatums and 
there was talk of demanding resignations. I am here to tell you 
I have no ultimatums, I have no demands and time limits. And 
given your qualifications, I am sure that resignation would 
never be a consideration.
    However, 33 years of running a business and 32 years in 
elected office, I have a suggestion for you to consider. Most 
people in regulatory, all people in regulatory positions in 
Government have two choices. They can presume that their 
relationship with those they regulate is automatically 
adversarial, or they can look to find partnerships to solve 
problems through those they regulate. The Chairman mentioned 
the asbestos bill a little bit ago, when I wasn't here. Senator 
Murray and I were the co-authors of that, and we passed through 
the Senate an asbestos bill. For the first time in 37 years, 
Congress actually got to the point we could ban asbestos.
    But because there is one use of asbestos which is an 
industrial chlorine filter, for which there is no substitute at 
the present time, because we provided for a transitional phase-
out of that asbestos rather than automatic drop, the House 
rejected it, and today asbestos is not banned, it is not 
regulated. An intolerant attitude caused a problem to be 
perpetuated.
    In my opening remarks, I mentioned the Atlantic Steel site 
in Atlanta where Carol Browner granted a waiver from the Clean 
Air requirements to allow us to build a bridge. What I didn't 
tell you about that was that bridge was to the Atlantic Steel 
brownfields site, a site that for 17 years had been abandoned, 
locked up, couldn't be used. Because of Ms. Browner's waiver 
with the developer, the developer then took that site, 
redeveloped it, replaced all the soil and today it is a town of 
25,000 people and an urban city and the private sector solved 
the problem, because the regulator saw the benefit in 
partnership versus litigation.
    So all I want to do is tell you that my attitude has always 
been, try and find ways you can do things that cause the right 
thing to happen, rather than presume that you are going to turn 
over your responsibility to a judge. Because ultimately, 
adversarial attitudes cause judicial results. Many times, that 
is coming from people who aren't as qualified to make the 
decision as you and those you regulate might be.
    So I apologize, that was a mini-speech, but I just had to 
get that out.
    Second, and I will just go to the two questions I raised in 
my opening remarks, in Catoosa and Walker County, Georgia, they 
remain restricted because of air quality standards. Yet even 
the EPA recognizes the pollution is not point generated in 
either Catoosa or Walker County. It is generated in Tennessee, 
and other States. I hope you will consider, in these unintended 
consequences, wherein clean air standards, even clean water 
standards, point pollution is where you address the problem, at 
the source, not the unintended victim, somewhere either 
downstream or downwind. We ought to be able to find ways to 
allow those communities to transition, rather than just totally 
put them in a punitive non-attainment status. I hope you will 
consider that.
    Ms. Jackson. Senator, I am happy to consider it, as still a 
resident of a State that gets one-third of its air pollution 
from outside its borders. As I think Senator Carper said, we 
are downwind States. I certainly know the conundrum of needing 
stronger controls upgradient in order to even have a chance of 
meeting attainment, for example, in the State of New Jersey.
    Senator Isakson. Well, it actually is the reason why there 
is a joint role between the States and the Federal Government 
in terms of these standards. Because there are times that 
States' self-interest actually can use the law to its advantage 
to not do something because the victim is downstream getting 
penalized. So Federal oversight can help to harmonize those two 
adjoining States or those two adjoining communities.
    Everybody giggled in my opening remarks when I talked about 
naturally occurring methane. But agriculture is the biggest 
business in Georgia. And the Georgia cattlemen and the Georgia 
Farm Bureau are very concerned about the regulation of 
greenhouse gases and the unintended negative effect of maybe 
taxing cattlemen or other livestock producers who have cattle 
that emit methane naturally, as they have since God created the 
earth.
    So I hope you will consider, in that type of a situation, 
when you have something that is totally beyond the control of 
the farmer or the rancher, that you will, rather than levying 
taxes without consideration for where the source might be and 
whether it is natural, that you will take into consideration 
that source and that it is naturally occurring.
    Ms. Jackson. Senator, I think that what is very important 
here is recognizing that there will need to be a look across 
the economy at sources, but also a reasonable look. If I am 
confirmed, one thing I can certainly pledge is that we will be 
reasonable and thoughtful and deliberate about moving toward a 
regulatory environment that addresses CO<INF>2</INF>. And I am 
sure cattlemen and ranchers are not the only people who are 
worried. Many people across our economy are worried about what 
it means to begin to embark on this new world of CO<INF>2</INF> 
control.
    So my commitment would be that if I am confirmed, we will 
have those conversations, we will try to work with this 
Committee, we will work with members and we will work with 
individual stakeholders to hear their concerns. But also with 
the recognition that all industries have the potential to do 
environmental harm, and what we need to do is to work with 
them, and sometimes to regulate them in order to make sure that 
they are ready for our future as we begin to address global 
warming gases.
    Senator Isakson. I appreciate that. And my last comment 
would be particularly with regard to EPA and EPD, in the 
various States, soil sediment and erosion control issues are 
tremendous because of the Clean Water Act. And in Georgia, we 
went for a number of years with an arbitrary methalometer was 
the determinant for all suspended particles and turbidity units 
in water. And the EPD in Georgia regulated soil sediment and 
erosion control standards by using that arbitrary determinant 
of suspended particles.
    When it turned out in the spring, pollen became a suspended 
turbidity unit in the water, it wasn't somebody polluting it or 
runoff or anything else. And we changed our management practice 
to use BMPs, best management practices, rather than arbitrary 
measurements. So I would just encourage you, as you find ways 
to mitigate problems, find ways to seek solutions, to reduce 
pollution, that you recognize the tremendous difference of soil 
erosion, sediment from State to State, from region to region, 
and use management practices as the best determinant rather 
than some arbitrary piece of equipment that determines the 
number of units that puts somebody automatically in violation, 
when in fact again, they might not have had anything to do with 
what contributed to the suspended particles.
    So best management practices and a partnership approach 
with the private sector can solve a lot of problems and keep us 
having the cleanest environment in the world. And I wish you 
the best of luck.
    Ms. Jackson. Thank you, Senator.
    Senator Boxer. Senator Isakson, thank you.
    We are going to hear from Senators Whitehouse, Carper and 
Merkley, in that order. If a Republican comes back, we will 
work him in between.
    I wanted to just state on this conversation you had with 
Senator Isakson, a very important one, and he is right, there 
are some who are worried about a regulatory regime, cap and 
trade, however we move, which is the one I think we will go to, 
they are worried about it. But I can assure you, Ms. Jackson, 
something I think you know, because I have looked at the polls, 
80 percent of this Country are much more worried about the fact 
that we have done nothing on CO<INF>2</INF>. And we know the 
ravages of global warming.
    So while we must work with those who will have to reduce 
the output, and whether it is, and there are challenges out 
there. The one thing I want to say as Chair of this Committee, 
to my friend, Senator Isakson is, I hope he realized in the 
last bill that we did, we were working hard to make sure that 
there were resources, so we could find out how we get the clean 
coal, so that we could reward farmers who work with us and 
build that into whatever regulatory regime that we have.
    So yes, there are those worried about regulating carbon. 
But far more Americans are concerned that we haven't done 
anything, truly, in terms of a national policy. States have 
been the leaders. We have so many States, including your own, 
my own and others. Anyway, that is just an editorial comment.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Ms. Jackson, there is obviously some dispute on this 
Committee about whether the EPA is an agency in distress or 
not. My information is that dispute does not extend to EPA. I 
think that the career people know pretty well what has happened 
to them in the last 8 years and that very significant damage 
has been done to the institution.
    And it is not just me saying this, it is the GAO pointing 
out that EPA processes are without transparency and 
inconsistent with sound science. The Union of Concerned 
Scientists pointing out systematic interference with EPA 
scientists, 60 percent of them indicating that they had been 
interfered with in their work for political purposes. Jonathan 
Cannon, who served in the Reagan and Bush EPAs, pointing out 
extreme friction, institutional damage, demoralized staff. The 
EPA's own Clean Air Standards Advisory Committee critiquing, 
repeatedly, EPA's activities, including its chair testifying 
that standards were set by fiat, behind closed doors, that OMB 
and the White House truly set the standard, and that willful 
ignorance was the result.
    The United States Court of Appeals for the D.C. Circuit has 
repeatedly critiqued EPA legal analysis using Alice in 
Wonderland examples. Other people on this Committee may 
disagree, but I think there is a real problem there, and there 
has been a very significant problem there. Although that is 
yesterday, yesterday bears on today. Yesterday bears on today 
through EPA advisory panels that may still contain industry 
representatives that have been packed onto the panel in order 
to influence the outcomes, through tainted regulatory 
decisions, ozone, lead, soot, the California waiver, mercury. 
There have been an array of them.
    And I think that in that context, it is very important that 
there be at least some effort to review what happened, to make 
sure that you know what was done wrong, so that A, you can put 
it to right, B, to the extent that it bears on the future, we 
can correct that, and C, so that nobody does this again. 
Because I think something very wrong was done to a very 
important piece of Government.
    So for all those reasons, I would ask you for your comment 
on what process you consider to be appropriate, given that you 
are busy looking forward. You have environmental issues to 
protect. What process within EPA do you think would be the best 
one, we talked about this in my office, as you recall, for 
looking back, documenting what went on, and particularly in the 
context of the vacancy in the IG position, or the Acting IG, 
what are your thoughts about that?
    Ms. Jackson. Senator, when we spoke, you made a suggestion 
that I thought was very, very good, obviously. But also echoed 
one that I had been thinking. As part of our look at EPA, we 
see that the role of the inspector general, the idea of an 
audit function, and that has historically been played at EPA at 
least in part inside the agency by an independent inspector 
general, who has authority and is given the authority by the 
Administrator to the staff of, the cooperation of the staff at 
EPA. A good inspector general, an independent one, asks the 
tough questions to make sure he actually serves the 
Administrator well, make sure that the programs are functioning 
at EPA as they should, the money is being spent as it should, 
that it is independent, that it is truly protecting human 
health and the environment, that it is returning to its core 
mission, and that it is performing its core mission.
    Senator Whitehouse. Well, my strong advice continues to you 
to get a good IG, and task them to look back and catalog what 
happened and what effect it may still be having on the present.
    I would also advise you to watch out for OMB. We have 
received repeated evidence that OMB has become sort of the 
political bully boy influencing agency decisionmaking in very 
often I think inappropriate ways. I have spoken to Peter Orszag 
about this, Cass Sunstein's appearance at OMB announces a 
promised reform of their agency review process. But I think 
that has also been used to corrupt the agency process and to 
insert political considerations behind closed doors. So I would 
urge you to keep an eye out for that.
    The last question I have is, we have talked about the Clean 
Air Act, bearing on carbon dioxide. We have talked about the 
California waiver, which will bear on carbon dioxide. Rhode 
Island is one of the States, so it is also the Rhode Island 
waiver. And then of course we have the Warner-Lieberman bill 
from last year, and whatever iteration of it should re-emerge, 
preparing a cap and trade regime. How do you see those three 
elements fitting together, and what rapidly, if anything, do we 
need to be considering on this Committee to deal with climate 
change. How much can you go forward on your own with the Clean 
Air Act Authority and with reliance on the California waiver, 
and how much do we need to do here to support you with cap and 
trade authority?
    Ms. Jackson. Senator, much of the initial agenda for the 
EPA Administrator and for the EPA is now set by court decision. 
The California waiver, I have already committed that we will, 
if I am confirmed, I will review forthwith, and the President-
elect said as much during the campaign. In the Massachusetts v. 
EPA decision, the Supreme Court has ordered EPA to make a 
finding and EPA has yet to do it. When that finding happens, 
when EPA makes a decision on endangerment, let me put it that 
way, it will indeed trigger the beginnings of regulation of 
CO<INF>2</INF> for this Country. And that means an 
extraordinary amount of communication with this Committee, and 
interaction is going to be necessary. Because it will happen at 
the same time as this Committee is potentially, as you said, 
considering legislation to address same.
    All that is happening in the wake of another court decision 
on CAIR, on the Clean Air Interstate Rule, that tells EPA to go 
back and remands the decision, holds it up for now so the 
State, the Country is not left with no air pollution 
regulation, but commands EPA to now go back and review and 
potentially propose new regulation or a different regulation. 
All those things together mean that there will be an 
extraordinary burst of activity, not just at EPA, but I would 
expect, potentially, from Congress. And I think there is 
tremendous opportunity in those imperatives to move forward 
together, to move forward so that we build on what each other 
are doing, rather than work at cross purposes.
    And industry has said, many have said in industry that if 
they had the road map, they would prefer a clear road map. So 
to the extent we can, it serves them well, too. Because it 
gives them one set of criteria that they know they will be 
required to meet, rather than some piecemeal regs and then 
maybe law, and then more regs and law. So I think that there is 
tremendous opportunity there.
    Senator Whitehouse. Thank you, Ms. Jackson. Thank you, 
Madam Chair.
    Senator Boxer. Thank you.
    Before I call on Senator Cardin, I just want to correct the 
record on something you said about the waiver. You committed to 
review it. And you committed also that science would guide you 
and professionals would guide you at EPA, for which I am 
eternally grateful. You also said the President-elect committed 
to review the waiver. He didn't. He committed to sign the 
waiver. And he not only committed to sign the waiver, but he 
was a co-sponsor on our bill to grant the waiver. So I wanted 
to separate out what you said about him with what he actually 
said. I think it is important we remember, he said he would 
sign it and he was a co-sponsor of the bill to grant it. So I 
want to make sure that happened.
    The other thing I would like to put in the record at this 
time, I just want to say before Senator Whitehouse leaves, in 
this new Committee structure, Senator Whitehouse can be very 
involved in vigorous oversight. So you will be talking a lot 
with him in the future.
    We just got hot off the press the following. A Federal 
judge has ordered the Tennessee Valley Authority to clean up 
four coal-fired plants that he said were engulfing parts of 
North Carolina with air pollution emissions that fouled the 
region's health, economy and natural resources. The Attorney 
General of North Carolina announces how pleased he is with 
this.
    The judge says, in this case, North Carolina has presented 
sufficient evidence that untreated air pollution from the three 
power plants in Eastern Tennessee unreasonably interferes with 
rights of North Carolina's citizens, he wrote in his statement. 
The judge ruled TVA must install and maintain pollution 
controls at the Widow Creek plant in Alabama. TVA's failure to 
speedily install readily available pollution control technology 
is not and has not been reasonable conduct under the 
circumstances. And this article goes on.
    I just want to say, and I think you know this, Ms. Jackson, 
that if it hadn't been for the courts these last 8 years, I 
don't know how much more cancer there would have been, I don't 
know how many more sick kids with asthma there would have been. 
But the courts have acted as a check against EPA. However, 
there is so much more out there that you need to review. Those 
midnight regulations, those rollbacks after the last 8 years. I 
asked my staff how many rollbacks, and they said if you listed 
the rollbacks, they would go from probably one end of Dirksen 
all the way to the other.
    So the courts have played an enormous and positive role in 
stopping some of the worst of it. I am sad to say to my 
colleague, Senator Carper, who will be overseeing TVA, that TVA 
is bemoaning this decision. I think those days are over. They 
need to stop bemoaning cleaning up the environment and work 
with us. I know under your leadership they are going to go that 
direction.
    Senator Cardin, Senator Carper, Senator Merkley.
    Senator Cardin. Thank you very much, Madam Chairman. Let me 
just concur with your comments, particularly on the California 
waiver. I am another co-sponsor of that bill, and we look 
forward to science prevailing and the California waiver going 
forward, which Maryland is one of those States that have 
adopted the California position.
    Ms. Jackson, I want to return to the Chesapeake Bay. I 
thank you for our conversations. Speaking on behalf of the 17 
million people who live in the watershed, its importance to our 
Country, we need leadership. I know that you have indicated you 
planned to visit the Bay with me, and we will see first-hand 
the work that is being done.
    The Federal partnership requires leadership, requires 
strategies based upon facts and science, not based upon any 
just trying to feel good, but really making the progress that 
we need. I want to give you a moment to reflect on that, and I 
hope that you will make a very strong commitment in regard to 
the Federal Government's partnership with the Bay.
    Ms. Jackson. Senator, as we discussed, I look forward to 
visiting the Bay with you. I believe that the Federal 
Government's partnership is important, not only because of the 
extraordinary treasure that is the Chesapeake Bay, and the 
extraordinary need to return it to health, to the ecosystem 
that it is and can be in all of its glory, but because it is 
such an important demonstration to the rest of the estuary 
programs in the rest of the Country of the power of EPA and 
States, because the States are certainly involved, to turn the 
tide, to reverse the trends in non-point source pollution that 
are affecting the Chesapeake Bay.
    I am happy, if confirmed, to commit to raising the bar even 
further on the Federal Government's level of commitment to this 
extraordinary resource, and to doing something you referenced 
in your question, which is making sure that science, that EPA 
career employees who are working on it don't feel the need to 
hide the truth of what is working and not working, because they 
are worried about resources being taken away from them. We need 
to be able to have an honest dialog about where we haven't been 
able to see the improvements.
    Senator Cardin. I thank you for that. I agree with you 
completely.
    I am going to mention two areas of specifics for the Bay. 
One is the nutrient problem. You have already mentioned the 
stormwater runoff issues, non-point pollution sources. Another 
causing nutrient is the wastewater treatment facilities and the 
need to improve that, and then we have the agricultural use. In 
all three of those areas, we need to concentrate on reducing 
the nutrient levels that are suffocating the Bay.
    Again, I look forward to your strategies as it relates to 
that particular issue.
    The second issue is mercury and nitrogen oxides that 
Senator Carper has been a strong leader on. Thirty percent of 
the problems in regard to nitrogen oxide comes from the air 
into the Bay. So it is not just dealing with water quality, it 
is also dealing with air quality as we try to develop the right 
strategy on improving the quality of the Chesapeake Bay.
    Ms. Jackson. Senator, I look forward, if confirmed, to 
working with you on those issues.
    Senator Cardin. Thank you.
    Senator Boxer is correct in that the courts have been very 
helpful in balancing some of the outrageous conduct at the EPA 
during the last 8 years. But in a couple of cases, the court 
cases have been difficult and problems for the environment. 
President-elect Obama has said that he looks forward to signing 
legislation that will return the traditional role of the Clean 
Water Act. Recent decisions have, on the definition of water in 
the United States, dealing with isolated waters and headwater 
streams, have effectively eliminated about 500 cases that were 
pending before the EPA.
    Can we have your assurance that you will be working with us 
to correct the Clean Water Act so you have the power you need 
to regulate the waters of our Country?
    Ms. Jackson. Senator Cardin, if confirmed, I will be happy 
to provide advice, counsel, information, whatever I can to this 
Committee through its Chair to make sure that the waters of our 
Country are adequately protected and enhanced.
    Senator Cardin. Thank you. I want to return just very 
quickly to the stormwater issue. The National Research Council, 
part of the National Academies of Science, released a report 
this past October finding that radical changes to the EPA's 
stormwater programs are necessary to reverse the degradation of 
our Nation's water resources. I just call that to your 
attention because I agree with you on your point of letting 
science control the decisionmaking here. The clear science is 
that we have to regulate runoff issues. And you have the 
opportunity to do that once you are confirmed and head up EPA. 
I just urge you to be bold in looking at ways that we can deal 
nationally with the runoff issue and the damage it is causing 
to your environment.
    I want to mention one other issue in the time that I have 
remaining, and that is lead and lead poisoning. Maryland has 
been one of the leading States in the Country in trying to 
develop proper strategies to deal with lead poisoning. The work 
in Baltimore, at our law school, and some of our medical 
facilities are the top in the Country.
    I just really want to bring that to your attention. On 
residential property, you need to have an effective way to 
determine whether there is toxic lead dust, and needs again to 
use the best science information that is available in an 
objective sense, rather than just having a self-regulated 
process that many property owners would prefer to see, rather 
than having a more objective Federal policy as it relates to 
the lead poisoning. You know the impact it has on our children. 
It is preventable and it is widespread and it needs leadership. 
I ask for your commitment to find ways in which EPA can play a 
constructive role in reducing the number of children in our 
Country that have been exposed to lead.
    Ms. Jackson. Senator, if confirmed, I would certainly 
commit to that. I think that the fact that it is preventable 
makes it a tragedy, makes it an environmental issue and often 
an environmental justice issue. The President-elect has said 
that lead poisoning in children is something that would be 
addressed in his Administration. I would begin by reviewing 
current EPA regulations and looking toward other ways to 
address mitigation of this problem.
    Senator Cardin. Thank you very much. Thank you, Madam 
Chair.
    Senator Boxer. Thank you so much, Senator.
    Now, here is what we are going to do. We are going to go 
to--I apologize, Senator Merkley, this is what happens, but 
very quickly you will be moving up the rolls. We need you to 
stay here, you have a wonderful voice. So Senator Carper, 
Senator Voinovich, Senator Merkley.
    Senator Carper. Thanks very much.
    Ms. Jackson, I understand you introduced your husband 
earlier. What is his name?
    Ms. Jackson. His name is Kenneth.
    Senator Carper. I just want to say, take a good look at 
your wife. When you bring her home from the inaugural ball, 
take a real good look at her. That is the last time you will 
her until Christmas.
    [Laughter.]
    Senator Carper. Make sure your kids have plenty of pictures 
of her. Well, they will see her on TV.
    [Laughter.]
    Senator Carper. I just want to say, we understand that 
these are partnerships and that there is a great willingness to 
share your wife and your children's mom with our Country. We 
are grateful for that. We promise to make sure she gets home 
for at least Easter, and maybe even a birthday or two along the 
line.
    Ms. Jackson, you have been asked by Senator Cardin to come 
and visit the Chesapeake Bay with him. I think you have been 
invited by Senator Baucus to come to Libby, Montana. Others 
have probably invited you to come to their States as well. Last 
time, when I was Governor, Carol Browner came to Delaware, 
brought her son, came on a wonderful summer day. The idea was 
to come to Southern Delaware and then go to the beach. It 
rained all day.
    [Laughter.]
    Senator Carper. You have great beaches in New Jersey, but 
if you make your way to our State, we will be sure to provide 
better weather. We hope you will have the opportunity to come 
and see us, too.
    Senator Boxer spoke earlier about the kind of hazardous air 
problems that are facing our schools, too many of our schools, 
and staff held up a picture. In that picture, as I recall, we 
could see several school buses. And one of the major 
contributors to air pollution in and around schools comes from 
those school buses that the kids ride to school in, they are 
present on the grounds, and they ride home in those at the end 
of the day.
    Senator Voinovich has been a great leader on this front, as 
you may know, along with Senator Clinton, joined by Senator 
Inhofe and others on this Committee. We have the opportunity to 
do something about it, and some of us have actually called on 
the incoming Administration as we put together a recovery 
package. We are looking at ways to provide employment 
opportunities for people in ways that enhance our 
competitiveness as a Nation, cleanup our air and meet other 
public purposes.
    The idea that we can spend $1 to install diesel emission 
reductions equipment, made in America by Corning, in school 
buses, we not only provide employment opportunities for the 
folks who do the installation in the school buses and trucks, 
boats, trains and so forth, we also provide employment 
opportunities for people at Corning or other places where they 
are actually manufacturing, creating the technology.
    And for every $1 that we invest, we get a $13 public health 
benefit. Thirteen for one. I don't know of any other investment 
that we voted on or made in this Committee where we get a 
better public health investment for the dollar. So I would just 
ask, just know that we submitted it to the Administration the 
transition team. We think this is a good way to stimulate the 
economy and have a number of good public purposes in addition. 
So I just lay that at your feet.
    On climate, I was pleased to see in your written testimony 
that you listed reducing greenhouse gas emissions and reducing 
other pollutants as to the incoming President's environmental 
initiatives. I would just ask, do you expect the Administration 
will be sending us a climate change bill to the Hill, and if 
so, will other pollutants from coal plants likely be included? 
How do you expect transportation to be included? So that is 
like three questions.
    Ms. Jackson. Thank you, Senator. The EPA, I can speak first 
for EPA and then maybe more broadly. As I mentioned in an 
earlier answer, the remand of the CAIR Rules back to EPA demand 
a look at NO<INF>x</INF> and SO<INF>x</INF>. The mercury 
decision demands a look at mercury rulemaking by the EPA. And 
clearly, the President-elect has, I believe, demonstrated a 
commitment to energy and climate change issues that will 
involve me and Nancy Sutley and Carol Browner and across 
Government an effort to coordinate those issues.
    As far as the actual formulation of policy and how, what 
will be controlled legislatively versus regulation, I think 
that is part of a dialog that we certainly can and must have 
with Congress and with others. And I look forward to that. I 
think that there is great opportunity in that dialog and what I 
would say is, if confirmed as Administrator, I would certainly 
not forget the other pollutants as we look toward climate 
change and its impacts on our economy. Whether it is diesel air 
pollution from buses, and you took away my chance to thank 
Senator Voinovich for that when his time comes. But thank you 
for your work on DERA and on diesel emissions.
    I am a mother of a son with asthma. My youngest son spent 
his first Christmas in the hospital with asthma. So I can only 
echo what you say about the incredible benefits for the amount 
of money. But many of the other pollutants as well, there is 
still low-hanging fruit, there is still work that has almost 
comparable health benefits if we are smart in how we regulate 
them and potentially legislative controls for them.
    So I look forward to moving those issues forward in a 
thoughtful but aggressive way.
    Senator Carper. Good, thank you. Going back to diesel 
emissions just for a moment, the good thing about diesel 
engines is they last a long time. The bad things about diesel 
engines is they last a long time. There are a bunch of them out 
there, about 10 million, more than 10 million I am told. And we 
have spent, I think in the last year, about $50 million to pass 
legislation, and in these settlements, to allow States to use 
some of the settlement money for diesel emissions reductions. 
But it is very modest compared to the great need that is out 
there.
    You mentioned the CAIR Rule, let me come back to that just 
for a moment. In light of the mercury cases and the CAIR Rule 
and other attempts by the current Administration, I believe, to 
delay clean air, what would you say are your top two Clean Air 
priorities for 2009, if confirmed? I am not asking your top 10. 
What might be your top two Clean Air priorities for 2009? And 
really, how can we help? We want to help.
    Ms. Jackson. Thank you. I would say, again, that the first 
thing is to, in keeping with restoring EPA's role as protector 
of human health and the environment, and meeting its statutory 
mandates to protect human health and the environment, I think 
it is incumbent upon the next EPA Administrator to take a hard 
look at the regulations that are out there. So that is going to 
encompass mercury and the CAIR Rule. And that is going to 
encompass our current regulatory web. It is also going to bring 
in climate change, because of the Massachusetts v. EPA Supreme 
Court question, which begs the question of where we regulate 
there.
    So not to broaden it too much, but I think you can't pick 
one of those issues and say, well, I will only work on this. 
Because I think what must be done in order to really restore 
the American public's faith in EPA is for EPA to squarely look 
at the mandates that are before it and step up to the 
regulatory plate and commit early on, as I do now if confirmed, 
to address those regulations and to make them sound, to base 
them on science and to do it in a way that will withstand legal 
challenge. Because certainly the constant sort of back and 
forth of the legal challenge doesn't help anybody in terms of 
actually achieving cleaner air. It simply prolongs it.
    Senator Carper. All right. Thank you, Madam Chair.
    Senator Boxer. On the mercury, Senator Carper has been an 
extraordinary leader. My understanding is that EPA lost a case 
at the District Court level, correct me if I am wrong on this, 
Circuit Court, D.C. Court of Appeals. They now are fighting it. 
They were told they had to go back and write a new rule. But 
they are fighting that. I hope, and you don't need to answer 
this now, that you are going to look back at this and say, why 
are we fighting it? Because that is exactly what the EPA, they 
fight every step of the way against what is doing right. I hope 
you have the best advisors there that will tell you, don't 
pursue some of these legal cases. They cost a fortune, and they 
are hurting people's health.
    We are going to go to Senators Voinovich, Merkley, 
Klobuchar.
    Senator Voinovich. Thank you.
    First of all, I want to thank you for the wonderful visit 
that we had in the office. We got into a lot of management 
things and I want to let the Chairman know that I have every 
confidence that Ms. Jackson has the management capabilities and 
the wisdom to do what is necessary to run a good agency, which 
is No. 1. You get the right people with the right knowledge and 
skills at the right place at the right time, and I urged her to 
make sure to let the Office of Budget and Management know that 
she has to have the wherewithal in terms of the people who work 
there to get her job done.
    Senator Boxer. Absolutely.
    Senator Voinovich. We talked about a lot of things, the 
DERA thing, by the way, that was a team of Voinovich-Carper, 
Carper-Voinovich. We have been working on a lot of stuff for a 
long time. I hope to continue to do so. They got that done, and 
it is a good program. And other programs that you are going to 
have to look at in terms of the allocation of your budget.
    But I think it is time, and Madam Chairman, you are going 
to be hearing more from me on this, because I have 2 years, and 
so I want to try and make sure that I get in a good 2 years. 
The President has a wonderful idea of having this energy-
climate change czar in Carol Browner, whom I have gotten to 
know quite well. I knew her when I was Governor and then when I 
became Senator.
    But one of the things that I think would be wonderful, 
Madam Chairman, is if we could get these folks together in a 
room, not necessarily a hearing, but just get together and have 
them kind of outline, what is the vision? What are the things 
that they want to see done and the issue then is, where do we 
put our time on this Committee to get things done.
    This is my tenth year. We haven't done very much. The 
reason is because we have not been able to harmonize our 
environment, our energy, our economy, and now another major 
thing that is on the horizon that we are going to hear a whole 
lot more about, is our national security. And then we now have 
a new thing, and that is, our economy is in terrible shape. So 
any time we start doing things, say, like climate change, I 
fought that, I told you I fought that bill and we were trying 
to come back with another bill. You have to consider what 
impact it is going to have on these people.
    In my State, 100 communities are being asked to take care 
of their combined storm overflow problem. And they are talking 
about rates that are 10 percent more each year. They are out of 
work. In other words, we are in an interesting environment 
today, and one that we hopefully will get out of. But the fact 
is, we need to do more planning than ever before, I think, if 
we are going to get the job done.
    I want to do something about climate change. I think there 
is an urgency in climate change. I think it has foreign policy 
implications. At the same time, how do you put it together in a 
way that you don't kill the economy of our Country?
    So Madam Chairman, that is the kind of thing we need input 
for. Why don't you just follow up with what Senator Carper 
asked, and that is, with a prioritization of what are the 
things that you think, at least at this stage, that you need to 
focus in on real fast? Because you have the CAIR Rule that is 
out, you have the issue of the court case that said that now 
you can regulate greenhouse gases. How does that fit in with 
our climate change legislation that we have been working on?
    Ms. Jackson. Thank you.
    First, I used his answer time to thank him, so now I have 
to use your answer time to thank Senator Carper for his 
extraordinary work on DERA, and on air pollution as well. So 
now we are even. And to answer your question and to continue 
the prioritization, Senator Carper asked about air. I am going 
to broaden it, and be one of those bosses that, if I am 
confirmed, maybe EPA staff will say, oh, my. But regulatory, 
EPA is a regulatory agency, its stock and trade, and it should 
be judged by the caliber of its rules. And it has many, many 
rules. So one of the other things I would look forward to doing 
is to, looking at the state of rulemaking, not just in the air 
program, but in the water program where there are many 
questions, on community right to know, where there have been 
some questions, and asking ourselves two simple questions: are 
they legal, are they sustainable and are they based on science.
    And challenging the staff, the professional staff that are 
there, to work on those issues. We certainly cannot change 
every rule, nor should we. There are good rules on the books as 
well. But I think part and parcel of restoring the agency's 
stature is for the agency to be able to sit up tall and say, 
our rulemaking stands on its face, and it stands up in court.
    So I would look forward to doing that. I think that there 
are clearly, resources dictate that you cannot do everything at 
once. But if we look at the rules that are before us legally on 
the air side, we have some mandates on the water side. But we 
look as a whole at the agency and how we do our regulatory 
process, I think that the agency will be better and stronger 
for it.
    Senator Voinovich. Well, in the process of the regulation, 
I think it has to be also looked at in terms of just what the 
reality is of the regulation. One of my pet peeves for years is 
we are in Region 5. I have heard business after business say 
that, I would rather be in Region 3 or I would rather be in 
some other region, because they implement the rules differently 
in those regions than they do in Region 5. In other words, 
where is the consistency? It is just a management thing. But 
are they consistent in terms of the training, in terms of what 
are you doing in one area and are you being consistent there? 
It is another issue that I think you should look at.
    And then look at some of the other things that are around 
that impact on your well-being. One of the jurisdictions we 
have is the Nuclear Regulatory Commission. And how does nuclear 
power impact on greenhouse emissions? It may not be in EPA's 
ball game, but it is. That is why I am saying, if Carol would 
get everybody together and say, hey, in this climate 
legislation we had, it requires or anticipates, EPA says, 150 
new nuclear power plants being built by 2050. Well, nuclear 
power contributes 70 percent of the emissions-free energy in 
this Country. And it has to be part of all of the things that 
we are doing.
    I think the problem here, to a degree, is that we have too 
many silos. I was listening to Jack Lew, who is going to go 
over to the Department of State, talk about the fact that you 
have to look at the big picture, how does all of this stuff fit 
together? And as I told you in my office, and I will finish 
real quick, I was the mayor of the city of Cleveland. We had 20 
percent unemployment. The Federal Government was helping us 
with an emergency jobs bill, so that we could have a public 
works program, on the one hand, then I have the EPA in there 
working, shutting places down. And I thought to myself, do 
these people ever talk to each other? And I know you have a 
regulatory job.
    But there seems to me to be a bigger picture here that we 
ought to be looking at if we are going to make the progress 
that we would like to see made here in this Country, for our 
environment, for our energy, for our economy and our national 
defense.
    Ms. Jackson. Thank you, Senator. I will remember 
environment, economy, energy and security. I will take that 
back with me, thank you.
    Senator Boxer. I think Senator Voinovich makes a good 
point. Of course, for me, it is not as complicated as it 
sounds, because you have a clear mission to protect the health 
of the people. That is what it is. So for me, you are a 
professional, you have scientists. For me, that is it.
    And what I am happy about is that when Senators on both 
sides of the aisle ask you about some of the issues they really 
care deeply about, which fit into that, you have said yes. So 
already, I think, Senator Voinovich, we have a commitment for 
Senator Inhofe to get help on Tar Creek, for Senator Baucus to 
get help. When I say, they, the people in Libby, Montana, the 
toxic coal ash, the toxic air in the schools, the waiver 
review, clean water, the water runoff problem, particularly in 
places like Chesapeake, diesel engine cleanup, working with us 
on that. And from Senator Whitehouse, a review of these 
advisory boards that are laden with folks that some believe 
have a special interest.
    Senator Voinovich. Madam Chairman?
    Senator Boxer. If I could just finish, and then I will call 
on you.
    For me, the last thing I want to do is dictate what you are 
supposed to do. I like the idea of a conversation and we will 
do briefings. We will, which are not hearings, they are 
briefings, conversations. I love that idea. Because I think 
bringing Carol Browner in, bringing you in, bringing Nancy 
Sutley in, you all have your responsibilities statutorily into 
the law. I think it would be a very good thing. Because 
President-elect Obama has, I would say, re-ordered the system 
here by bringing in a Carol Browner, who used to be the head of 
EPA, who understands it, and by I think elevating, and if I 
just might say it, with the people he has chosen, elevating in 
importance the environment.
    I think it would be good to have that conversation, so I 
would like to commit, Senator Voinovich, we will do a briefing, 
and we will have the top level Obama people there. Because I 
think this give and take that we have today shouldn't just be a 
one-time only thing.
    Senator Voinovich. Right. But the point I am making is it 
is like the Great Lakes. We finally have a comprehensive plan 
for restoration of the Great Lakes. But Madam Chairman, Army 
Corps of Engineers, Fish and Wildlife, NOAA, Department of 
State, Department of Transportation, USDA, all of these 
agencies have something to do with restoring the Great Lakes. 
It seems to me that when we are doing our work, we ought to 
think about, how do some of these other things impact on what 
we are trying to accomplish, and maybe get those agencies to 
maybe work better together to move the agenda forward and 
better utilize their dollars.
    Senator Boxer. Absolutely. I think we have to do that, 
otherwise we have paralysis. I think this, we don't have, we 
can bring the Corps in here, we have jurisdiction, that is a 
good thing. So I think we do face these uphill climbs when we 
have something ready to go. And I stand ready to help you on 
cutting through some of that, on the Great Lakes in particular. 
Let's get it done, let's make a commitment to get it done.
    Senator Voinovich. Thank you.
    Senator Boxer. So we will.
    OK, and Senator Merkley, the most patient human being on 
the Committee today, followed by Senator Klobuchar.
    Senator Merkley. Thank you very much, Madam Chair.
    Ms. Jackson, I wanted to get your understanding of how 
serious the buildup of CO<INF>2</INF> is in the atmosphere and 
what happens if we continue at the current pace of increased 
CO<INF>2</INF> 50 years from now.
    Ms. Jackson. Senator, we know that man-made emissions are 
contributing to climate change on our globe. And we know that 
the conditions are worsening, that time is not our friend, it 
is our enemy in this matter. CO<INF>2</INF> lasts in our 
atmosphere for decades, sometimes longer.
    There is a need to act, there is a need to act, I believe, 
for our Country with science in front of us. Obviously with the 
law as our guide. And there is a need to do it not only for our 
Country but in order to show the leadership that the world has 
been waiting for on that issue. There are technologies that 
America can help to develop and bring to operation. There are 
renewable energy mandates in some States, but there is an 
opportunity for an incredible investment in renewables that 
makes sense, and energy efficiency.
    So in my mind, the peril of inaction is different for 
different areas of the Country and quite different for 
different areas of the world. Science tells us that those areas 
of the world that have the least ability to defend themselves 
and the least money will be hardest hit by the ravages of 
climate change. A State like mine that is a coastal State, and 
yours as well, could be particularly hard hit.
    Senator Merkley. I will just share with you a couple of 
numbers that I have carried with me in thinking about this. One 
is that everything we are seeing change in the world is from a 
one degree centigrade change in temperature, just a one degree 
change. It is my understanding that the best scientific 
consensus is that by the time a small child grows up to be my 
age, and I am 52, so 50 years from now, that if we continue on 
the current course of carbon buildup and other global warming 
gases, the temperature of the planet could well go up more than 
five degrees, which is more than catching a slight fever. It is 
a very, very catastrophic state. And 50 years is such a brief 
period. This is why these numbers helped me understand why this 
is so important.
    I just picture that small child, and that we have one 
lifetime, basically to address this.
    An issue in Oregon and in our ports and the Columbia River 
is invasive species from ballast water. In October 2008, there 
was a conversation in which the Oregon ballast water manager 
said, the Feds have delayed time and time again coming up with 
proposals. This was specifically related to trying to diminish 
invasive species. And we have something like 30 species in the 
lower Columbia River that have come from ballast water, several 
number of species in the Coos Bay.
    Can we anticipate a collaborative approach in tackling this 
problem?
    Ms. Jackson. Thank you, Senator. If I am confirmed, I would 
bring together the scientists and regulators from EPA's water 
program. It is, indeed, invasive species are a huge problem in 
your bay and also in the Great Lakes. I have heard from several 
people about the impact on shipping with respect to these 
invasives. And I would be happy to sit with you and work with 
you cooperatively and re-look at EPA's current regulatory 
posture with respect to ballast water and its impact with 
respect to invasive species.
    Senator Merkley. Thank you. That would be most appreciated.
    We have an area north of Klamath Falls called Northridge 
Estates, 750 acres that was affected by 1,500 tons of asbestos. 
And in 2007, just over a year ago, the EPA outreach 
coordinator, Judy Smith, said the emergency cleanup ``was a 
Band-Aid when surgery was needed.'' Can we anticipate more than 
Band-Aids in assisting us in taking on the major toxic 
pollution sites like the Northridge Estates?
    Ms. Jackson. Yes, Senator, if I am confirmed, you can. I 
don't know the particulars of that site. I certainly think that 
if an EPA employee says we are just beginning, clearly she 
would know that. I would need to look into it, but I would be 
happy to do that.
    Senator Merkley. Thank you. That would be very helpful.
    Turning to tailpipe emissions, in December 2007, EPA 
rejected the California request. This was certainly of concern 
to Oregon, because we had tied ourselves, like so many other 
States, to California. It was specifically to cut greenhouse 
gases and tailpipe emissions by 30 percent by 2016. It is my 
understanding that the EPA staff concluded that this waiver was 
appropriate under the law, but it was reversed at the highest 
levels of EPA for political purposes.
    Can we count on you to work hard with your staff to 
implement the law as it is written, and in this issue in 
particular, can we get your assistance in supporting the 
California tailpipe standards?
    Ms. Jackson. Senator, I will commit again, recommit that I 
will review the waiver decision if I am confirmed, very, very 
aggressively, very soon after confirmation and taking the job. 
And I will let science be the guide in making the 
determination, and I will let the rule of law, and the law, I 
think not only EPA scientists but EPA lawyers, have looked at 
the issue and had a history of looking at waiver requests from 
California.
    So while I wouldn't prejudge it, I would commit to you that 
those are the two sources I would look at in making a 
determination.
    Senator Merkley. Thank you very much.
    There is one more area I just want to draw to your 
attention, and that is the Hanford Nuclear Reservation on the 
Columbia River. It has a growing radioactive plume affecting 
the river. We have had a tremendously difficult time getting 
the funding necessary to get ancient nuclear radioactive 
products that were part of that industry from numerous nuclear 
plants that were there, out of single tanks, into double 
shells, out of double shells into permanent storage, getting 
the plant built that will put these materials into glass 
noodles for a long time, basically isolate them safely for the 
future. We really would appreciate an aggressive and bold help 
on Hanford.
    Ms. Jackson. Senator, if confirmed, I am happy to re-look 
at and redouble our efforts at cleanup. For so many sites, it 
comes down to a question of resources, money and authority. I 
think both are necessary to ensure adequate cleanup of sites.
    Senator Merkley. Thank you very much.
    Senator Boxer. Senator Merkley, it was worth the wait to 
hear you talk about the California waiver. When you say science 
and the rule of law, it sounds funny that it would be such 
music to our ears. Because for 8 years, a lot of us don't 
believe there was science or the rule of law involved in these 
decisions at EPA.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chairman, and 
thank you, Ms. Jackson. I know it has been a long morning. You 
must be getting hungry. So I will try to keep this short.
    I started out my opening statement by talking about just my 
frustration with what the Chairwoman just talked about, this 
lack of transparency and this literally hiding of evidence, 
which as a former prosecutor, I just couldn't believe. One of 
my worst memories of this time period was sitting out there 
secretly reading that endangerment finding. I know that Senator 
Whitehouse asked you some questions along this line, but could 
you talk a little about, well, one just specifically, can you 
make that endangerment finding public, so everyone can see it? 
Maybe you will be writing your own, I don't know.
    But then second, just ideas to restore not just the faith 
of the public in the agency, but more transparency?
    Ms. Jackson. Senator, the finding on endangerment has not 
been made. I would expect, I would certainly need to consult 
with lawyers, because I am not one. But I would expect in doing 
that, in fulfilling a commitment to move toward making that 
finding, we would be reviewing the background and information 
that has been prepared, and then making it public as part of 
the record. I would certainly want to check on that. But that 
is generally the way those things are done.
    As far as transparency, the President-elect has made it 
clear that transparency, he has an unprecedented level of 
commitment to transparency in Government, and to opening up the 
doors of Government and Government decisionmaking. So if I am 
confirmed, I would certainly be proud to uphold that commitment 
on the President-elect's part and to make sure that it is 
translated at EPA. I am certain he will be doing things at the 
White House level. But I would certainly, as the EPA 
Administrator, then make sure that the staff understand the 
commitment to transparency as well, so that it doesn't just 
guide my actions, but that it guides their action as well. 
Because they also have an awesome responsibility as employees 
of the agency.
    Senator Klobuchar. That is why I appreciate your management 
experience that some of the other Senators were referring to. 
Because I think you understand it is not just one person, it is 
changing the culture of an agency, where some people probably 
wanted to come out with things and they haven't been able to.
    On the climate change legislation that we did last year, 
specifically the first title was the greenhouse gas registry 
that I was pushing for. I think we talked about that yesterday 
when you and I talked. The EPA has a rulemaking going on, there 
was supposed to be a rule issued. This is this notion that we 
need a carbon counter, like a calorie counter, that it 
shouldn't be that hard, that we are never going to be able to 
enact cap and trade if we don't have some way to measure what 
the carbon emissions are. And we were blocked with this on the 
floor, States have, I think 30 some States have had to come 
together to form their own registry, which I just think is sort 
of a pathetic example of how the Federal Government is lagging 
behind, when you have the majority of the States having to form 
their own.
    Could you talk about your commitment to getting that 
started immediately, so we can get that in place as we move 
forward on climate change?
    Ms. Jackson. EPA, Senator, has already received funding to 
begin the process of developing a registry. It simply hasn't 
gotten the rules out the door. And the time lag is not good. 
Because we don't know where we are. So it is very hard to track 
where we are going. Many industries have already started to do 
it for themselves. Business already wants to know what they are 
emitting so they can know what impact carbon regulation is 
going to have on them.
    So my commitment, if confirmed, would be to jump start that 
rulemaking. Because it is certainly an important step, not the 
only one, but an important step to baselining and making sure 
that we know where we are going with respect to the science of 
CO<INF>2</INF>.
    Senator Klobuchar. Thank you.
    Also in my opening I talked a lot about this need to start 
viewing the EPA work also positively in terms of how we can 
work hand in hand with job creation in the energy area through 
climate change policy and other things. One example of that 
that I want to call to your attention, biofuels, I still 
believe are at their infancy, whether we move toward LG or 
prairie grass and switch grass. There is a guy, the Chairwoman 
has heard me tell this story before, in southern Minnesota who 
brings out his laptop all the time and shows me how he can 
solve our entire dependency on foreign oil by growing switch 
grass on highway medians. And I always think, as my husband and 
I drive down the Minnesota highways, how dangerous it would be 
to harvest it.
    [Laughter.]
    Senator Klobuchar. But there are plans out there and I 
think people have felt stymied in their advancement. With the 
biofuels, as I say, it is at its infancy, it clearly can move 
toward more cellulosic. Our State is very interested in doing 
that.
    But right now, industry is rather fragile. I for one 
believe we shouldn't be pulling the rug out from under it. And 
one of the things that Senator Thune and I and others have been 
pushing for and the EPA is considering this, there is a 
rulemaking going on with blends. I think we have come to be 
convinced that the answer may not just be E85, it may be just 
lower level blends in all of our fuel.
    There is a rulemaking going on for E15 and E20, I think, 
which will take quite a while. One of the things that we have 
asked for is whether the EPA could look at, as you look at 
making rules easier to create more jobs, is a short-term 
increase in the level of the ethanol blends, say to E11 or E12. 
It sounds small, but it could actually be very helpful to the 
biofuels.
    So if you could look at this, I would really appreciate 
that. It is something we have been meeting with the auto makers 
on, and it doesn't appear, studies from the University of 
Minnesota have shown that a slight increase wouldn't do 
anything to the engine. But again, this kind of common sense 
thought about jobs and environmental regulation I think would 
be helpful.
    I don't know if you want to comment on the biofuels at all.
    Ms. Jackson. Thank you, Senator. I like the phrasing of 
short-term, and then there is clearly, when there is short-
term, there is also long-term. So I am happy, if confirmed, to 
sit with you and explore the issue of short-term changes in 
ethanol or biofuels and what that means. But over the longer 
term, EPA has another responsibility, though, and that is to 
look at the life cycle of fuels in their development, and the 
life cycle analysis thereof. I think that is an important role, 
and one that EPA scientists can add a lot to the discussion on.
    So in addition to the short-term questions, I hope we can 
work together, if I am confirmed, to look at the longer term 
issues that are before EPA, and the impacts, however indirect, 
that you say common sense, I think there will need to be a look 
at indirect impacts. But one that is guided by what we can 
actually measure and what we know and what the science says we 
can determine.
    Senator Klobuchar. Thank you. Again, I just want to 
reiterate, we have had a big bipartisan effort in our State on 
renewable fuels and alternative energy. And as a result, we 
have huge political support for it across the lines. We have 
the most aggressive renewable electricity standard in the 
Country, 25 percent by 2025, with Xcel agreeing to 30 percent. 
We have the biofuels, we are on the front end of that. And the 
people in our rural areas have seen the positives of this, and 
that is why when you talk about a green economy to them, it is 
nothing foreign. They know that the growing area in our State 
right now where they are actually looking for employees is the 
Fargo-Moorhead area in large part because of the wind turbine 
industry up there.
    So again, I think the more we can push this, we not only 
will get political support for climate change, but we will also 
add jobs to our economy. And you have a big job, but I know you 
can do it. Thank you very much.
    Senator Boxer. Thank you, Senator.
    So I want to say what the rules are. Senator Udall is back 
for his first round of questions, and I have gotten clearance 
from the minority side that if, that people have 10 minutes to 
come back if they want to do a second round. I know Senator 
Carper and I are going to do a second round. So if they are not 
here by 25 after-ish, around that time, then no second round. 
We will be completing this and then we will have Nancy Sutley 
come forward. Is that all right? Unanimous consent request to 
go that way.
    OK. So Senator Udall, you are recognized for 7 minutes.
    Senator Udall. Thank you, Madam Chair. And this is, I think 
you have covered a lot of ground, Ms. Jackson, no doubt about 
it. I haven't been here the entire time, but I have been in and 
out of my office and seen some of it, so I am impressed with 
the breadth of your knowledge.
    One of the things that you and I talked about was uranium 
mining, and uranium mining waste on the Navajo Reservation and 
on the Colorado Plateau. It is a real tragedy and disaster out 
there. The Chair may be interested, the L.A. Times, within the 
last year did a four- or five-part series on what had happened. 
Henry Waxman did hearings over in the House. And growing out of 
those hearings, because there was a great deal of concern as to 
the waste that was there and kids playing on the waste and the 
problems that communities were having and that the uranium 
tailings and mining waste wasn't being cleaned up.
    So five Federal agencies and the Navajo Nation got together 
and started working on a plan to try to move forward 
aggressively cleaning up. And I know that President-elect Obama 
is going to make a priority, I think, out of cleaning up 
hazardous waste sites. I am sure that is one of the reasons he 
picked you, because you have a real expertise.
    And these particular waste sites I am talking about on the 
Navajo Reservation really involve issue environmental justice 
and minority communities. The Navajo Reservation has an 
unemployment rate of about 50 percent, and has had for a long 
time. So there are serious problems out there. I noticed that 
Senator Carper and Senator Cardin and others were talking about 
you visiting places. This is a place that I think that coming 
out West, and there are a lot of things to see, I might propose 
to you at some point to come out and see this, because I think 
you would really be moved to get something done here for the, 
it is the largest land mass and largest Indian tribe in the 
Nation.
    So my question is one, have you been apprised of this 
situation, do you know about EPA's involvement in this project 
to move forward? And under your direction, will EPA embrace 
this initiative and lead in collaboration with the Navajo 
Nation and the Federal agencies to clean up this tragedy and 
disaster that is there?
    Ms. Jackson. Senator, I am certainly aware of it. You made 
me aware of it, and then I did a little bit of homework, 
because I knew it was coming. And it certainly is, the scope of 
mining sites, but this one in particular is such that a 
partnership is exactly what is needed. The good news here is 
that the parties involved recognize the need to double their 
efforts and triple and quadruple them by getting together.
    I would be happy, if confirmed, to first visit, to look at 
the situation, but to try to find those ways and those areas 
where EPA can move to lead and to be aggressive in making sure 
that the partnership is not the end of the story, but the very 
beginning of the story. Certainly the scope of the problem is 
such that progress will need to be incremental and over long 
periods of time. But I would look forward to working with you 
on that.
    Senator Udall. Thank you very much.
    We very much appreciate that cooperation. I think the 
Navajo Nation and its leaders will be very heartened to hear 
about your testimony today. And one of the things I have always 
thought about the EPA is that you are in the position, knowing 
and understanding and being in contact with all these hazardous 
waste situations, to be able to make recommendations to us. So 
I hope you will be very aggressive about telling us where you 
think there are the holes, the loopholes in the law that need 
to be filled.
    The Chairwoman had a fantastic set of hearings here on coal 
ash and coal, which you may have been briefed on and followed. 
This once again is a situation where you have industry and 
Government accumulating large amounts of waste and really, in 
many cases, not handling it responsibly and polluting 
groundwater. You are really in a position to tell us where to 
plug these holes. And we are going to be very aggressive on our 
side to research that and I think work with you in a 
collaborative way on this.
    So I very much appreciate your testimony today and your 
commitment to the public health and human health and the 
environment. I think it is great that President-elect Obama is 
proceeding and has put your nomination forward, a career person 
who has worked in this area. I have always thought the EPA is a 
very complicated agency, it has so much science to it. With 
your experience there and your experience in New Jersey, I 
think you bring the kind of experience that we need in that 
job.
    So thank you for your testimony today. I may or may not 
participate in a second round.
    Senator Carper, I think he was kidding you. I noticed there 
was a little shock about your husband not seeing you. I think 
he was kidding you about how long you were going to be away. I 
want you to make sure you spend time with those kids, because I 
have found that the biggest advocates are the young people. 
They are interacting with you, mom, you are in charge of this. 
And they are going to be reminding you.
    So I hope she has some time to spend with her husband and 
her children. Thank you very much.
    Senator Carper [presiding]. Before Senator Udall leaves, 
let me just say, I mentioned we would try to have her home at 
least by Easter. I think Valentine's Day is probably 
negotiable. We will work on that, too.
    Listening to all these places people want you to come and 
visit, I don't know if you get to keep your frequent flyer 
miles, but I hope that is part of the deal.
    Ms. Jackson. I don't think I do.
    Senator Carper. I want to go back, I want to talk a little 
bit more on mercury, but also before I do that, as one who 
comes from a downwind State, as we are in Delaware, let me just 
ask, do you believe the CAIR Rule, which has been knocked down 
and then really sort of reinstated for a while, but do you 
believe the CAIR Rule really goes far enough to help States 
meet our ambient air quality standards?
    Ms. Jackson. New Jersey was on record when I was 
commissioner as believing that the CAIR Rule, that more could 
be done under the auspices of the CAIR Rule to address our 
upwind contamination. The models we had working through the OTC 
and the scientists there showed that several States would still 
have attainment problems and that CAIR, stronger regulation 
could help.
    That said, I would certainly not presume, even if 
confirmed, to know, to be the expert on the regulation. What I 
would like to do is turn back and use the opportunity given to 
us by the court to look at that rule and to determine whether 
or not there is additional strengthening that could be done on 
it.
    Again, I think that can be done with an eye toward the 
extraordinary benefit that would accrue from giving emitters, 
especially utilities, a clear understanding of what the game 
plan will be, what the requirement will be upon them. So it is 
one of the reasons that I believe that re-looking at that rule 
early on is so important.
    Senator Carper. When you were good enough to visit with me 
this past week, one of the things we talked about was with the 
CAIR Rule, is there a need for some further regulatory fix, is 
there a possibility of some legislative fix, could it be a 
combination of both. Any thoughts in that regard for us?
    Ms. Jackson. Yes, Senator. What I said probably needs to 
stand, which is, we would want to make sure in dealing with the 
science staff and the regulators that any regulation would be 
strong enough to withhold any legal challenge. I would like to 
return to the day when EPA's record of putting out rules and 
having them withstand is quite strong. That means that we would 
consult with the agencies' attorneys as well.
    I don't know right now whether there might be additional 
statutory authority needed. But that is not to say that it 
wouldn't potentially be helpful.
    Senator Carper. All right. One last thing I want to go back 
to. I want to follow up on the mercury rule discussion that we 
had a bit earlier. As I think you know, mercury reductions from 
power plants, especially, is a priority for me. You were 
obviously a leader in mercury reductions in New Jersey.
    Could you just tell us briefly what you all put in place 
there with respect to mercury?
    Ms. Jackson. Well, you know, the case on mercury in New 
Jersey v. EPA, basically the courts found that the regulatory 
scheme that EPA had put forward in its rule really didn't 
comport with the requirements of the Clean Air Act. So that is 
more about rule of law than it is about science. That said, 
mercury is an extraordinarily important contaminant, not just 
because of the air emissions, but the fact that it deposits and 
that it can bioaccumulate and you can have localized hot spots 
of mercury.
    And so I think in fashioning and beginning to propose a 
regulatory scheme and to replace the current one that the court 
has mandated EPA do, I think those considerations need to be 
kept in mind, that there needs to be effective treatment or 
removal of mercury from air emissions, and that local impacts, 
potential for localized impacts and then the bioaccumulation up 
the food chain and all the way up to human health needs to be 
looked at as well.
    Senator Carper. I hope that EPA drops the mercury rule 
case, and does not appeal it further. Have you had a chance to 
think back on this with respect to going back to the D.C. 
District Court?
    Ms. Jackson. Well, if I am confirmed, I am going to talk to 
the agency lawyers, and we are going to do that in the context 
of looking at what the decision says. I have already consulted 
with the agency's ethics office to make sure that, since that 
case was captioned New Jersey v. EPA, I am able to be involved 
there. And they have indicated that they have reviewed it and 
they don't have a problem with it.
    So I would welcome the opportunity to embrace it and to 
look at the case on its legal merits, but to do it with an eye 
toward what makes sense from a regulatory perspective as well.
    Senator Carper. All right. Well, while we wait for Chairman 
Boxer to return and ask one last series of questions, is there 
anything that you had hoped would be asked today that was not 
asked?
    [Laughter.]
    Senator Carper. It is not often that we give a witness this 
kind of opportunity. So you might just want to pull out your 
bat and take a good swing at it.
    Ms. Jackson. Do I have a clock, or do you just want me to 
go on forever?
    I am hungry, so I will only say that if confirmed, I will 
continue to do that which I have always prided myself on, which 
is to, as commissioner, I am proud of my record there. We 
tackled some pretty tough problems. I would never claim that we 
were perfect or we had a perfect record, but we made progress. 
I believe that New Jersey's environment is better off for my 
tenure there. And that is, that makes me very, very proud.
    I want to be able, if confirmed, to say that as well about 
my tenure at EPA, that the Country's environment is better off 
for my having been there. I will take that responsibility 
extraordinarily seriously. I will hold my record up in New 
Jersey with pride. I know that there have been some who, in my 
mind, have been unfair about the characterization of it. Again, 
I don't think it was perfect. But I do want people to know, as 
I sit here and ask for confirmation, that I would take very 
seriously the opportunity to protect human health and the 
environment for the people of this Country.
    Senator Carper. Great. I would say in closing, again, our 
thanks to you for your willingness to serve. And to your 
husband, Mr. Jackson. A number of years ago, when former 
President Bush nominated Elizabeth Dole to serve in his 
cabinet, she was joined at the witness stand at her 
confirmation hearing by her husband, then Senator Robert Dole. 
And as he introduced his wife, Elizabeth, he said to his 
colleagues, he said these words, ``I regret that I have but one 
wife to give for my Country.'' In that spirit, I yield to 
Senator Boxer.
    [Laughter.]
    Ms. Jackson. One wife is enough, Senator.
    Senator Boxer [presiding]. Yes, we would like to keep it 
that way. Speaking as someone who has been married for--I have 
lost track--48 years.
    Ms. Jackson. Congratulations.
    Senator Boxer. Thank you.
    I have for my second round, I will call it the lightning 
round----
    [Laughter.]
    Senator Boxer [continuing]. A number of questions which I 
think for the most part you could say yes or no to, unless you 
want to elaborate. I want to get these things on the record.
    The first one is about perchlorate. Perchlorate is used to 
make rocket fuel. When it gets into drinking water, this toxic 
chemical can interfere with the thyroid and affect hormone 
systems, which control the way the body develops. Infants and 
pregnant women are especially vulnerable to perchlorate. It has 
contaminated drinking water supplies across the Country. 
California, my State, has 290 water sources with at least 4 
parts per billion of perchlorate.
    The GAO found in 2005 that nearly 400 sites in 35 States 
had perchlorate. In 2006, the CDC found widespread human 
exposure to perchlorate in the U.S. And they found that many 
women who were exposed to perchlorate in drinking water had 
significant changes in thyroid hormone levels.
    A 2008 FDA study found perchlorate in 74 percent of all 
foods tested, including baby food. Yet, EPA recently refused to 
regulate perchlorate. We had quite a to-do over here in that 
hearing. And they won't regulate it in drinking water, and they 
sent the issue back to the National Academy of Sciences.
    Now, again, delay, delay, delay. We have had years of it 
and we need action.
    Do you commit to us to immediately review this failure to 
establish a drinking water standard for perchlorate and act to 
address the threat to pregnant women and children caused by 
this dangerous toxin?
    Ms. Jackson. Yes, Madam Chair.
    Senator Boxer. Thank you.
    Ms. Jackson, my staff has prepared a report on the tools 
available under the Clean Air Act to immediately reduce global 
warming pollution. One of the things that people don't seem to 
know is without passing any more legislation, under the Clean 
Air Act, we can begin now. I will provide that report to you on 
steps you could take. By the way, we got this from a lot of 
whistleblowers within EPA who just couldn't speak out. But they 
did give us this information.
    Do you commit to use the tools as provided in the Clean Air 
Act to address global warming pollution, understanding that we 
could perfect those tools in legislation?
    Ms. Jackson. Yes, Madam Chair. Not knowing what is in the 
report, certainly I would say that I would look forward to 
working with EPA's staff openly to discuss their views on ways 
that we can use the Clean Air Act.
    Senator Boxer. Excellent. We look forward to getting you 
that report.
    This next question is on Superfund, human exposure to 
Superfund. There are 1,255 Superfund sites in the Nation. These 
sites have dangerous chemicals such as lead, mercury, benzene 
that cause cancer, harm the nervous system and damage cognitive 
thinking ability. And children, again, are especially at risk. 
One of the things I often say, children are not little adults. 
They are growing, they are changing, and we need to treat them 
differently.
    Currently, EPA knows of 92 Superfund sites where human 
exposure is out of control, their words, and 175 sites where 
there is insufficient information to determine if human 
exposure is under control. This is intolerable not only to me, 
but to many in the Senate.
    Do you commit to develop a plan to control such exposures 
and get needed data in your first 3 months as Administrator?
    Ms. Jackson. Certainly, Madam Chairman. The only caveat I 
would have is that I would want to ensure that in those cases 
where resources are an issue, because I simply don't know the 
details of these sites, that we cannot spend money we do not 
have. The lack of ability to fund actual cleanups of sites has 
resulted in slowdown.
    Senator Boxer. Well, let me assure you, I agree. I am not 
asking you to commit to cleaning them up unless you have the 
money. But what I want from you is an honest answer as to what 
do we need to clean up these sites where the waste is out of 
control. It is our job to get you the money. You can't do that, 
and is going to be President-elect Obama, it is going to be 
priority of his, hopefully, to do so. But I am not asking you 
to say, we will cleanup all of these sites. What I am asking 
you is will you please give us a commitment to develop a plan 
to control those exposures at these sites that EPA says human 
exposure is not under control, the 92 sites.
    Ms. Jackson. Yes.
    Senator Boxer. OK. And on pesticide testing, I believe very 
strongly that EPA should do everything in its power to protect 
children from dangerous exposure to toxic pesticides. 
Pesticides are designed to kill or harm living creatures. 
Children are especially at risk from exposure to such 
substances.
    Now, in my State, with a huge agriculture industry, one of 
the biggest, the biggest probably in the Country, and I work 
with them. Because they need to be able to control the pests. 
But there are ways to do it that are less harmful. In 2005, I 
helped to pass a law that banned intentional pesticide exposure 
studies on pregnant women and children, and required--these are 
intentional studies using women and children as the subjects, 
OK? We talked a little bit about the one that Mr. Johnson was 
so proud of, in Jacksonville, Florida, with the poor people, 
giving them free things to entice them to let their kids crawl 
around where pesticide was sprayed. We talked about that. And 
we finally passed this legislation and we said, we need EPA to 
enact rules, using the highest standards of ethical protections 
in pesticide studies.
    Now, the rules that they promulgated, not a surprise, do 
not comply with the law. EPA's regulations have been challenged 
in a lawsuit, another one, because of that. And I filed an 
amicus brief in this proceeding.
    Do I have your commitment that EPA will follow the letter 
of the law that Congress enacted to protect people from 
intentional testing? Will you work with the Committee to ensure 
that EPA's pesticide testing regulations comply with the law?
    Ms. Jackson. Yes, if confirmed, absolutely. EPA will follow 
the law in all cases, but especially in this one. I would be 
happy to work with the Committee.
    Senator Boxer. OK. We are getting down to the very end, you 
will be happy to know.
    This is about the Office of Children's Health. They have 
been undercut and underfunded in their mission to protect 
children's health. I have an ongoing Government Accountability 
Office investigation into the use and management of this 
office.
    As Administrator, will you make certain that this office, 
the Office of Children's Health, has strong leadership, and 
that the office proactively works to ensure that other EPA 
programs and activities effectively protect children's health 
with the full authority of the Office of the Administrator 
behind it?
    Ms. Jackson. Yes, Madam Chairman. That would be one of the 
things I would be very proud to do.
    Senator Boxer. Well, that is good. Now we are down to two 
more. Now, you have so many supporters in such places as the 
Sierra Club and community leaders. You also have a couple of 
detractors, one, the Public Employees for Environmental 
Responsibility. And I told you I was going to ask you this 
question, because we don't want to end the hearing without your 
having a chance to clear the record on what they have said.
    How do you respond to the allegations from them? They say 
you are not a strong enough protector of the public health. And 
could you address the following: the Kiddie College 
controversy, your views on polluters self-certifying that 
property is clean, and New Jersey's failure to enact the State 
perchlorate drinking water standard? If you could respond to 
those, I would appreciate it.
    Ms. Jackson. Certainly. And Madam Chairman, I appreciate 
the opportunity to do so. I will take them in order, and I may 
forget one in between, so remind me of the order.
    Kiddie College I remember was first. Kiddie College was a 
tragedy. It was, as we discussed, a determination that a child 
care center was operating in what was a former thermometer 
factory, and that the levels of mercury in the air, the vapor 
in the air, caused elevated mercury levels in children's blood. 
There are many things that were done in response to that 
determination, including shutting down the facility. The 
facility now no longer is a child care center. I think it was 
recently knocked down.
    But the criticism that I would like to address here is the 
idea that DEP, and particularly me, did not tell people what we 
knew when we knew it. I first will address myself. Personally, 
the day I found out that there was such a thing as a Kiddie 
College that had mercury results, which is the first time I 
heard the words Kiddie College, was the day that the owner was 
notified to move those children out. And the local health 
department and the mayor and the police.
    That said, it is clear from the chronology that the first 
time a DEP employee drove by that site was months before. And 
the time period in between the drive-by and seeing a building 
where he expected to see a factory, and the actual 
determination that without a doubt, this building was the 
former factory, is a period that, in hindsight, in retrospect, 
I wish had never occurred. No parent should have to wonder 
about the months in between a suspicion and a reality.
    And I think that that work was well-intentioned. I think 
the employees at DEP did a job but could have done even better 
by erring on the side of just alerting someone or making a 
phone call. That said, I know that in hindsight, we all wish 
things had turned out differently. And that is really what I 
would say to the parents and I have said personally to people 
about Kiddie College.
    I know you asked about perchlorate, so I will do that one, 
and then remind me of what the third one was.
    Senator Boxer. The third one was your views on polluters 
self-certifying that property is clean.
    Ms. Jackson. So I will do perchlorate. In the State of New 
Jersey, before I became commissioner, the State of New Jersey 
has an advisory board that advises it on and does the science 
to help it determine what MCLs to promulgate. That advisory 
board, I think in 2005, came out with a level of five parts per 
billion for perchlorate. The part of what has been said and 
alleged that is not true is, it is true that the State MCL is 
just now going to be proposed, probably this month. But New 
Jersey has been acting and regulating and enforcing a cleanup 
standard of five parts per billion all the while.
    So when we prioritize, as managers often have to, we looked 
at the work in front of our employees, and this has been a time 
of shrinking budgets, the entire time I have been commissioner, 
and we determined that we would do some other regulations 
first. So it is true that the reg is not out. It is not true 
that we have not been using that level for quite some time in 
New Jersey, and that we take quite seriously our requirement to 
look at perchlorate and its potential impacts on citizens and 
drinking water.
    The last is the hazardous waste site cleanup program in 
general. In order to answer the questions about consultants, I 
need to take one step back and remind this Committee that 
Kiddie College was the tip of an iceberg. I committed in 
testimony before our State legislature when it happened that 
the program was broken, that New Jersey's program for cleaning 
up toxic waste sites, and there are over 20,000 of them now in 
New Jersey, was broken. And I committed to do a number of 
things to address that, and not to run away from that, but to 
try to address it.
    And I am proud of several things. First is that when I was 
commissioner, we embarked upon and completed a new Internet 
listing of sites and information about sites, so that 
communities would have more information than they have ever had 
about sites that are located near them. We also, I committed to 
putting in place a prioritization scheme for sites, so that the 
worst sites would get addressed first. And we did that. It is 
not quite done yet, so it is late. But it is late because it 
relies on GPS technology, and for the first time ever, site-
specific pollution data. So we marry those two in assessing 
risks. So it has taken longer than I would like, but I think it 
is aggressive.
    We strengthened the enforcement rules for sites and we 
changed the way we recover costs, so that we now recover about 
$20 million of past costs every year in that program that can 
be used to clean up other sites. And we embarked on an 18-month 
plus, because the process is still ongoing, process to try to 
fix what is a broken program.
    One of the options that I did look at and do believe has 
real merit in that State is certifying consultants to ensure 
that they do quality work. And in exchange for that 
certification, looking at those sites where it might make sense 
to pull back DEP oversight to save those resources for more 
complex sites. I don't believe that that process really has 
merit at the Federal level, because of the differences in the 
way New Jersey manages its program versus the Federal program. 
And indeed, the future of that program is still in doubt, 
because the State legislature is now considering legislation as 
to how it wants to fix the site.
    Senator Boxer. So if I could say, what you are saying is, 
you don't anticipate and you are not at all expecting to 
utilize consultants to certify that Superfund sites, for 
example, or brownfields are clean? You are going to use the 
scientists----
    Ms. Jackson. That we have at the agency. The current 
process uses consultants quite differently at EPA, and I see no 
reason to change that.
    Senator Boxer. OK. I think that is important.
    Then for my last question, and then we are going to move to 
Nancy Sutley, after thanking you, chromium-6 is a heavy metal 
that has contaminated drinking water supplies in California. 
Everyone remembers Erin Brockovich, who fought for the people 
who drank water contaminated with chromium-6. A 2008 study by 
the National Toxicology Program shows that chromium-6 can cause 
cancer when ingested. In 2002, EPA had delayed deciding whether 
to toughen chromium drinking water standards until the recent 
study was finished.
    Will you commit to address the threat posed by chromium-6 
through the drinking water laws as quickly as possible?
    Ms. Jackson. The drinking water laws, Madam Chairman, yes. 
To address it within the authority we already have, absolutely.
    Senator Boxer. The authorities that you already have. What 
is starting to happen here is because of EPA's lack of a record 
in making these, setting these standards, we have gone off and 
started to outlaw certain toxics and certain chemicals. We all 
agree it is not the way to go, to outlaw phthalates, for 
example, with an actual law, chemical by chemical. And then I 
have bills to set standards for chromium, that is not the way 
to go.
    We want you to do this work. We don't want to put it into 
the political realm. We want to keep it in your realm, your 
work. So that is why I have asked you the series of questions 
about chromium-6 and perchlorate and these other things, 
because we don't want to start having to vote pollutant after 
pollutant, have to reset the standard and argue back and forth. 
It is not the right way to go. That is the reason we have 
asked.
    So under the Safe Drinking Water Act, you are going to look 
at chromium-6?
    Ms. Jackson. Yes.
    Senator Boxer. Thank you.
    Now, as my staff has discussed with you, follow up 
questions will be sent to you later today. Although I think you 
really covered 98 percent of the questions. And tomorrow 
morning, your responses are due. So that is why--I am sorry, 
your responses are due by noon Friday morning.
    [Laughter.]
    Senator Boxer. We will send them to you today and they are 
due by Friday. I was going to say, now I know why your husband 
is not going to see you that much, if we gave you overnight. 
But we give you a couple of days.
    The reason we are pushing this is because we want to get 
this confirmation done. We are actually going to do it by 
discharge petition, because we don't really have, if the press 
is interested, we don't yet have our Committee set up. We have 
colleagues who can't vote quite yet. We expect it momentarily.
    And I must thank Senator Inhofe and my Republican 
colleagues for allowing us to go this way. So our hope is to 
get this done, and we are trying for Inauguration Day or the 
next day. So that is why we are pushing you on these questions. 
That is our plan. That is our plan, and we want to stick to it.
    So we thank you very much. I found you to be just an 
excellent witness. I found your answers to our questions to be 
extremely direct and I found you to be a breath of fresh air. 
And I say that with its double meaning, because we do care 
about air quality in this Committee.
    So thank you, Ms. Jackson, we look forward to your speedy 
confirmation. Thank you.
    And we will ask Nancy Sutley to come right up. We are not 
taking any breaks here. We are just going to move right in.
    We are continuing our very important confirmation process. 
I told Nancy Sutley, by the way, California's loss is the 
Country's gain, I must say, again, that a lot of people would 
be worn down and it might just be a little bit of an easier 
process, even though she had to wait around. So we thank you so 
much.
    I am going to ask you these questions that I have to ask 
right now to start. Then I have no opening statement, I am 
going to go last. I am going to ask Senators Carper and 
Whitehouse to go first, and I will go with whatever statement I 
have.
    So in order for our Committee to exercise our legislative 
oversight, here are the questions. Do you agree, if confirmed 
as the Chairman of the Council on Environmental Quality, to 
appear before this Committee or designated members of this 
Committee and other appropriate committees of the Congress, and 
provide information, subject to appropriate and necessary 
security protection, with respect to your responsibilities as 
Chairman of the CEQ?
    Ms. Sutley. Yes, I do, Madam Chairman.
    Senator Boxer. And do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
information are provided to this Committee and its staff and 
other appropriate committees in a timely fashion?
    Ms. Sutley. Yes, I do.
    Senator Boxer. And do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed as Chairman of the CEQ?
    Ms. Sutley. I know of no matters that would present a 
conflict.
    Senator Boxer. That is very good.
    And what I would like to do is ask you if you have any 
relatives here who you would like to introduce.
    Ms. Sutley. Yes, thank you, Senator.
    I would like to introduce my parents, Bruno and Sarah 
Sutley, my brother Steven, my sister Suzanne, who is sitting 
behind me, and my nephew Nick Sutley.
    Senator Boxer. Well, we welcome all. We thank you so much 
for sharing Nancy with us. And as I said, I think what I am 
going to do is really just ask questions. So I am going to 
defer to my colleagues if they have any opening statements at 
this point.
    Senator Carper. Just to say publicly what I said to Ms. 
Sutley just a few moments ago, another committee that I serve 
on has a confirmation hearing starting for the President's 
nominee for OMB. And I am going to stay for your statement, but 
I have to leave shortly after that. And I will be submitting 
some questions for the record, and would just ask that you 
respond to those.
    Congratulations and welcome.
    Ms. Sutley. Thank you, Senator.
    Senator Boxer. Senator Whitehouse, do you have an opening 
statement?
    Senator Whitehouse. Nothing to add to the opening statement 
at the beginning of the hearing.
    Senator Boxer. OK. Very good.
    So Nancy, will you please give us your opening statement?

 STATEMENT OF NANCY HELEN SUTLEY, NOMINATED TO BE CHAIRMAN OF 
              THE COUNCIL ON ENVIRONMENTAL QUALITY

    Ms. Sutley. Thank you, Madam Chairman. I would like to 
extend my thanks to you and to Ranking Member Inhofe for 
holding this hearing, and to you for your generous 
introduction. I also would like to thank all the members of the 
Committee for their thoughtful consideration and the time that 
many of them set aside to meet with me in the last couple of 
weeks.
    I have already introduced my family, but I am very pleased 
that they could join me here today.
    Madam Chairman and members of the Committee, I am greatly 
honored to be President-elect Obama's choice to chair the 
Council on Environmental Quality. I have committed more than 20 
years, the last 15 in public service, to protecting public 
health and the environment and to energy and climate-change 
issues. I have devoted much of that time to harmonizing the 
efforts of multiple agencies covering different, and in some 
cases overlapping, aspects of environmental concern.
    I also bring the experience of working on environmental 
policy at the Federal, State, and local level, and a resulting 
appreciation of the role that each level of government plays in 
protecting public health and the environment. I understand that 
no one has a monopoly on creative and innovative ideas and 
policies that promote sustainability and a strong economy. The 
sum of this experience has given me a special appreciation for 
the coordinating role that the Council on Environmental Quality 
plays.
    The President-elect has stated that a strong, sustainable 
economy and a healthy environment can and must go hand in hand. 
The President-elect has also emphasized that meeting our 
environmental and energy challenges is one of the great needs 
of our time. The Council on Environmental Quality will play an 
important role in coordinating the efforts of the Federal 
Government to build a cleaner environment and a sustainable 
economy and future for our Nation.
    I currently am Deputy Mayor for Energy and Environment for 
the city of Los Angeles, where the Mayor has put a priority on 
greening the city. I spent 6 years in State government in 
California, using my environmental and energy experience, 
serving as Deputy Secretary of the California Environmental 
Protection Agency, an energy advisor to Governor Davis, and 
finally as a member of the California State Water Resources 
Control Board. I also spent 6 years at U.S. EPA, both at 
Headquarters in Washington, DC. and at Region 9 in San 
Francisco, working on innovative strategies to reduce air and 
water pollution.
    I am strongly committed to the mission of the Council on 
Environmental Quality and to the objectives of the National 
Environmental Policy Act. If confirmed as Chair, I will carry 
its responsibilities with all that I have learned and with all 
my energies. I recognize the need to have economically sound 
environmental policy as part of CEQ's mission.
    Madam Chairman, as you know, Congress created the Council 
on Environmental Quality in the National Environmental Policy 
Act. The Council's statutory responsibilities fall into three 
categories.
    First, the Council administers the Act's requirement that 
Federal agencies prepare environmental impact statements before 
undertaking major actions that significantly affect the 
environment. My goal, if confirmed, will be to administer that 
requirement in a straightforward, organized, and efficient way 
that assures the public that the Federal Government understands 
its environmental responsibilities as it carries out its 
activities.
    Second, the Act directs the Council to prepare and present 
to the President and the American public reports on the state 
of the environment, on environmental trends, and on the 
environmental impacts of Government policies and activities. My 
goal, if confirmed, will be to make those reports relevant, 
concise, and credible.
    Finally, the Act assigns the Council the responsibility to 
develop and recommend to the President policies for improving 
environmental quality. My goal, if confirmed, will be to help 
coordinate environmental policy across the Federal Government 
and ensure that those policies protect all of our communities. 
The Council will work with Federal agencies and departments and 
within the Executive Office of the President to assure the 
best, most efficient and effective environmental outcomes.
    My focus, if confirmed as Chair of the Council on 
Environmental Quality, will be to ensure that there is a strong 
science and policy basis to our environmental policy, to move 
the Nation to greater reliance on clean energy and to increase 
energy security, to combat global warming while growing the 
green economy, to protect public health and the environment, 
especially in our vulnerable communities, and to protect and 
restore our great ecosystems.
    My parents came to the United States in search of a better 
life. I learned the values of hard work and integrity from 
them. They also taught me how important it is to give back to 
the community, and I have devoted much of my career to public 
service. I have tried to honor those values by working toward 
protecting our communities and our environment. If I am 
confirmed, I look forward to working with this Committee and 
the Congress and to carry out the goals of the National 
Environmental Policy Act and the mission of the Council on 
Environmental Quality.
    Thank you, Madam Chairman.
    [The prepared statement of Ms. Sutley follows:]
    [GRAPHIC] [TIFF OMITTED] T4020.045
    
    [GRAPHIC] [TIFF OMITTED] T4020.046
    
    [GRAPHIC] [TIFF OMITTED] T4020.047
    
    [GRAPHIC] [TIFF OMITTED] T4020.048
    
    [GRAPHIC] [TIFF OMITTED] T4020.049
    
    [GRAPHIC] [TIFF OMITTED] T4020.050
    
    [GRAPHIC] [TIFF OMITTED] T4020.051
    
    [GRAPHIC] [TIFF OMITTED] T4020.052
    
    [GRAPHIC] [TIFF OMITTED] T4020.053
    
    [GRAPHIC] [TIFF OMITTED] T4020.054
    
    [GRAPHIC] [TIFF OMITTED] T4020.055
    
    [GRAPHIC] [TIFF OMITTED] T4020.056
    
    [GRAPHIC] [TIFF OMITTED] T4020.057
    
    [GRAPHIC] [TIFF OMITTED] T4020.058
    
    [GRAPHIC] [TIFF OMITTED] T4020.059
    
    [GRAPHIC] [TIFF OMITTED] T4020.060
    
    [GRAPHIC] [TIFF OMITTED] T4020.061
    
    [GRAPHIC] [TIFF OMITTED] T4020.062
    
    [GRAPHIC] [TIFF OMITTED] T4020.063
    
    Senator Boxer. Thank you.
    Senator Carper. Madam Chairman, I need to leave. But can I 
just say one quick word?
    Senator Boxer. Yes.
    Senator Carper. I was in the back room saying hello, 
meeting Kenny Jackson, Lisa's husband. And Nancy and her family 
walked right by and I didn't say hello, I just didn't know who 
you were. I just want to say, particularly to your parents, a 
special thanks for raising your children and instilling in them 
the kinds of values that Nancy has spoken to. Kids don't end up 
this well without the involvement of Mom and Dad, and we just 
appreciate very much what you have done in providing her for 
our Country. Thank you.
    Senator Boxer. Thank you, Tom. You speak for all of us.
    Providing technical support is my first question. Expert 
Federal agencies have a long history of working with 
congressional committees on important matters, at least they 
did, up until recently, including public health and 
environmental problems, to ensure that such problems are 
resolved using the best information available. Do you commit to 
renewing this cooperative approach to problem-solving between 
our two branches of Government on public health and 
environmental issues?
    Ms. Sutley. Madam Chair, yes, I will.
    Senator Boxer. Well, that is what we need to hear.
    Could you describe your view of CEQ's role in developing 
information, assessing public health and environmental threats 
and an interagency effort to address such threats? Give us an 
example of how you see your role.
    Ms. Sutley. CEQ's traditional role and the role I would 
intend to carry on for CEQ is that it is the voice for the 
environment in the White House and in the management of the 
executive branch. So CEQ can call upon the technical expertise 
in all of the agencies to help us to understand what 
environmental threats are affecting our Country and how we 
might address those. And CEQ also plays a role in bringing 
Federal agencies together when there is a dispute or difference 
of opinion or just an issue that needs to be resolved between 
two Federal agencies on environmental policy. I think that is a 
very important role for CEQ to play, and with the expertise 
both in-house and in the agencies to ensure that the best 
environmental decisionmaking is made by the Federal Government.
    Senator Boxer. And so you would be advising the President 
as to where the different agencies are coming out on a certain 
issue? Take global warming, as an example. If there are 
differences, you would present those to the President and you 
would more than likely give him your best view on it, is that 
correct?
    Ms. Sutley. That is correct, Madam Chair. The role of CEQ 
really is to provide advice to the President on the important 
environmental issues of the day. And global warming certainly 
is at the top of I know this Committee's list and certainly the 
President-elect's mind.
    Senator Boxer. Now, your predecessor went to the various 
international conferences on global warming, and in my view, he 
didn't do much to move it forward. Are you planning to go to 
Copenhagen, if you are fortunate enough to be confirmed, and 
work to make sure that the President's point of view is out 
there?
    Ms. Sutley. Madam Chairman, if I am confirmed, I will play 
an important role in the formulation of the executive branch's 
views on climate policy. But as the President-elect believes, 
this is an issue that will involve the entire Federal 
Government, really almost no agency is untouched by climate 
change and how to respond, formulating an appropriate response 
to climate change. So I will be working with my colleagues in 
the White House and Executive Office of the President and 
throughout the executive branch. So some of those decisions 
about who attends which conferences have not been made yet.
    Senator Boxer. Fair enough.
    Ms. Sutley. But it will be an organized and complete effort 
on the part of the executive branch to address global warming.
    Senator Boxer. Good. Could you describe what your view of 
the Office of Management and Budget's role should be in 
developing interagency environmental health protection efforts, 
and in resolving interagency disputes over environmental health 
issues?
    Ms. Sutley. Well, Madam Chairman, the OMB has a 
responsibility under executive orders to facilitate a 
regulatory review process which ensures that all Federal 
agencies at least have an opportunity to look at regulations 
before they are issued. I think that the science decisionmaking 
and the science review should be done by experts in science at 
the expert agencies like EPA and Interior, where there are 
experts in the field. I don't view it as the role of CEQ, or I 
wouldn't expect others within the EOP, unless they are 
scientists, to have a role in reviewing the science.
    But there is a role for, a process for managing regulations 
to ensure that everyone has a chance to look at them.
    Senator Boxer. Well, what has happened in the past is OMB 
has gotten involved and essentially called the shots on a lot 
of this in the past. And we are concerned. So let me just say 
it is a red flag. Now, the Obama OMB may be very different than 
the Bush OMB. We don't know. But you have to watch out for 
that, because we want everyone's advice about costs and 
everything else. But what we look to you for is that leadership 
on the environment. That is your focus. And we just want to 
make sure that OMB coming in doesn't change what you think is 
important strictly from an environmental and health standpoint.
    Now, from what you have said, I feel good about it. You 
said that is your role. And I just would put up a cautionary 
note here, because OMB sometimes gets themselves infused in 
these things from a budgetary standpoint. And when they make 
their calls, they are not always accurate, because they don't 
really measure the cost of a regulation in terms of its 
remedial nature, when you save so many people from getting 
cancer.
    So you may find yourself in a struggle sometimes. I guess 
what I am saying is, look out for that. Because you may come 
out with what you think is a very cost-effective idea and they 
will say, no, it isn't. But they don't measure it in the same 
way that we should be measuring it in terms of the environment. 
This could come into play, for example, the true cost of 
different types of energy. We line them up, but did we ever 
take into account a coal ash spill like the ones we are dealing 
with now as far as the true cost of coal? On nuclear, it is 
very clean, but what do we do with the waste?
    So I am simply saying that when somebody comes to your 
office and sits down and puts their feet up on your desk and 
says, well, you haven't thought about the costs, I think you 
will need to engage. Because this has been a clear problem for 
a while here with OMB.
    I just have two more questions. The IRIS program, are you 
familiar with that program?
    Ms. Sutley. Yes, I am.
    Senator Boxer. The IRIS program. The EPA and other Federal, 
State and local officials used these risk assessments under the 
IRIS program to create safety standards, including drinking 
water, clean air and toxic waste cleanup. In April, the 
Assistant Administrator of EPA, whose name is Peacock, issued a 
memo that radically altered the agency's process of developing 
these assessments. This policy put OMB in the driver's seat, 
this is an example of why I was asking about OMB, and elevated 
polluters' interests ahead of public health concerns.
    The independent GAO found the policy reduced transparency 
and it harmed the integrity of the risk assessment process, and 
they recommended it be withdrawn. Now, we didn't go into this 
question on exactly what was said, but as I remember it, the 
special interests had a seat at the table, DOD and others, who 
have a conflict in this. And the whole IRIS program was really 
taken over by the special interests. And this memo, which has 
been so highly criticized by the GAO and members of this 
Committee, we need to see it be withdrawn.
    What are your views on withdrawing this memo and on CEQ's 
role in resolving these types of issues? Because you said that 
is your role. Where DOD comes in, and EPA is there, what do you 
see your role in resolving these types of issues while you 
ensure that you are not delaying public health protections?
    Ms. Sutley. The President-elect has placed a very high 
priority on restoring scientific integrity to our environmental 
policies. I would take that commitment very seriously, if 
confirmed, and work closely with EPA on how we might address 
some of these issues that have arisen. As I said, one of CEQ's 
roles is to be the voice for the environment. CEQ also has this 
important role of bringing agencies together to try to resolve 
disputes. I think that I would certainly make that a priority 
for me, if confirmed, to have CEQ play that role in a 
constructive way, respecting the science, respecting the 
technical expertise that lies at the agencies and the 
commitment to protecting public health and the environment.
    Senator Boxer. Well, you know, these problems could go away 
with the new Administration. But in the old Administration, we 
had special interest agencies that, you know, DOD had a big 
interest in stopping some of the cleanup. Because a lot of the 
toxic cleanup they were involved in. And CEQ was just absent. 
They didn't do anything.
    So I guess I will just say once again, if it turns out that 
some of the agencies are trying to influence environmental 
regulations who really don't have that as part of their 
portfolio, the last I checked, DOD was supposed to defend the 
Country. And that is what I want them to do. I don't want them 
to be involved in environmental regulations.
    So if you see that over at the CEQ, I assume what you just 
said will answer my question, that your job as you see it is to 
say, look, we understand you have concerns for certain reasons, 
and you may, and you may, but as far as CEQ is concerned, the 
science says we have to clean it up to this level, and that is 
what I am going to recommend in terms of your role. Would that 
be a fair way to describe your role?
    Ms. Sutley. Yes, Madam Chair. When Congress passed the 
National Environmental Policy Act and created CEQ, the intent 
was to make sure that Federal activities, that we were 
assessing the environmental impacts and considering the 
environmental impacts of Federal activities, so that the 
Federal Government could live up to its responsibilities to 
protect human health and the environment. That has always been 
CEQ's role and it should always be CEQ's role, and I intend, if 
confirmed, to make sure that CEQ is a strong voice for the 
environment in the executive branch.
    Senator Boxer. Well, I thank you. Sometimes I feel, well, I 
didn't see any strong voice in the executive branch for a very, 
very long time. And just having you here makes me feel really 
good, that these issues will be raised.
    Very last question. What I really want to see, and a lot of 
us do, is an openness. And we are going to probably be asking 
you for your opinions and papers and so on. Could we count on 
that, that you will work with us? Because we are all on the 
same team here. Our job is to make sure that we protect the 
public. And your job is to make sure that the White House does 
the same.
    So could we make sure that we have this open relationship 
where we can really talk to you at a moment's notice and sit 
down and not have between us the fact that, well, you are in 
the Executive, we are in the Legislative? It goes to what 
Senator Voinovich said, the need to really cooperate. Can we 
get that assurance that you will be there for us?
    Ms. Sutley. Absolutely, Madam Chair. I believe that as the 
President-elect does that openness and transparency in our 
decisionmaking leads to better decisionmaking, and that we have 
an important relationship between, there is an important 
relationship between the executive branch and the legislative 
branch and that we need to work together. I have in my career 
in State government and local government, we found very helpful 
and useful ways to work together between the executive branch 
and the legislative branch.
    Senator Boxer. Well, thank you very much.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair.
    Ms. Sutley, first of all, thank you for subjecting yourself 
to all of the not particularly appealing attributes of public 
service. I know that you are in this for the very best of 
reasons and I applaud your decision to do it. I think 
particularly at this time in our history, you are stepping into 
a vitally important role. It will be, I am sure, frustrating 
and annoying frequently. But I think it will also be 
fascinating and I hope very rewarding for you, and all the long 
hours, I very much hope you will look back at as having been 
worth it.
    I want to follow up on the Chairman's point about OMB, 
since both organizations are located in the White House. To be 
perfectly blunt, I think OMB was the political fixer for the 
Administration in the agency regulatory process in the past. In 
the IRIS process that the Chairman referred to, OMB had not 
one, not two but three different inputs into the process, the 
last one after the public record had closed and when there were 
no further steps before official release of the regulation. So 
it had a secret, last-minute review, in essence, of what had 
been a public APA-based agency rulemaking process.
    And first of all, whenever you do that, you really make 
everybody, you play everybody who participated in the public 
process for a fool when the ultimate end story is that a secret 
deal was cut between the agency director and somebody at OMB 
and the rest was just for show. So it is really bad process to 
begin with. And then it ends up with really unfortunate 
results. The chair of EPA's own Clean Air Scientific Advisory 
Committee said that, pointed out how regulations, her phrases 
were, there was the OMB and the White House who actually set 
the standard, that the entire agency process had in effect been 
a sham, that the result was willful ignorance triumphant, and 
that it was all done by fiat and behind closed doors. That is 
really lousy practice from a governmental point of view. And 
the result here obviously was harmful to the health of the 
people we are all here to stick up for.
    As I told, I forget whether I told it to her here in this 
hearing earlier or when we met, but Administrator Jackson, this 
is an issue that I have taken up with OMB, and I think their 
new folks are attuned to it and don't want to continue that 
tradition, that unfortunate tradition. But I would like to 
emphasize and reiterate my support for the Chairman's focus on 
this particular point. It is bad governance, it is bad results, 
bad policy, all of it. It has to stop, irrespective of who is 
in power.
    I think frankly, assuming we have legitimate governance on 
this subject going forward, which I very much expect under 
President Obama, now is the opportunity to try to set up the 
protocols where that stuff can't happen again when others may 
come back into power and wish to revisit those techniques. So I 
emphasize that.
    We have never on this Committee had a situation, at least 
to my knowledge, where we had you coming in, assuming that you 
are confirmed to run the Council on Environmental Quality and 
an EPA Administrator coming in and also a White House 
environmental climate change czar coming in. What can you tell 
us about the structure of that? Who has what role? They are 
titles to me at this point, but there is nothing resembling 
sort of an org chart that helps me place where people all are. 
What is your view on how that is going to work itself out?
    Ms. Sutley. Thank you, Senator. The question of the role of 
the White House Advisor on Energy and Climate Change and sort 
of how the energy and climate change policies will be 
formulated is an important one. I speak for myself and I 
believe Lisa Jackson would say the same thing, which is that 
CEQ would retain all its statutory responsibilities and its 
role as advisor to the President on environmental issues, as 
EPA would continue to function in that way as well.
    I think the President-elect recognizes that energy and 
climate change is truly one of the great challenges of our day, 
and how we resolve this is going to take the creativity and 
thought of a lot of people throughout the executive branch and 
working with the Congress. So I can tell you that we will be 
working together closely and that the decisions about which 
policies to recommend and to pursue will really lie with the 
President, that he will get our best advice.
    Senator Whitehouse. Do you know, for instance, if on 
climate change issues you will report to the President through 
Carol Browner?
    Ms. Sutley. Well, I think we will work together very 
closely on formulating policies to recommend to the President.
    Senator Whitehouse. Well, let me put it this way. When you 
do know, if you could let us know, let me know anyway, it would 
be helpful, just for purposes of knowing who to call on what 
purpose. Because I think we are going to have, as the Chairman 
suggested, a very close relationship working together, going 
forward, and knowing how you are structured is important to us, 
as knowing how we are structured is to you.
    The last question I will ask has to do with the oceans. 
Rhode Island is the Ocean State. In this Committee, we have 
jurisdiction over the Clean Air Act and the Clean Water Act. 
Both the Clean Air Act and the Clean Water Act and their 
enforcement have significant consequences for our waterways, 
our estuaries and our oceans. And I am wondering, you come from 
a very significant coastal State. I think we may be able to 
fight you pound for pound, person for person as to whether 
Rhode Island or California has more coastline per citizen. But 
you certainly have it overall.
    Senator Boxer. However, without taking any of your time 
away--I have given you another 5 minutes. But I figure this 
way. If we did have to fight Rhode Island, 37 million people 
versus 1 million, I will take it.
    [Laughter.]
    Senator Whitehouse. You have no idea how fierce Rhode 
Islanders can be.
    [Laughter.]
    Senator Whitehouse. So my question to you is, you have been 
involved with a coastal State, you must have been deeply 
involved with coastal issues. What is your vision for helping 
to protect our oceans and coasts, and for coordinating the 
multi-agency Government approach necessary to adequately 
address the very serious issues facing our oceans and fisheries 
and coastal infrastructure and so forth?
    Ms. Sutley. Thank you, Senator. I think I won't comment on 
the coastline question of who has more.
    Senator Whitehouse. Oh, you have more. It would be more per 
person.
    Ms. Sutley. Per capita. But if there is any issue that 
cries out for interagency coordination and for an entity like 
CEQ to help to bring Federal agencies together, there are just 
a panoply of Federal agencies who have a role in dealing with 
our oceans, with protecting our coastline. I know it is an 
issue that CEQ has been involved in and we tend to continue 
that involvement, to look at ways that we can be more 
effective, to look at ways to reach out to coastal States like 
Rhode Island and California to ensure that we are doing the 
things that we need to do to protect our oceans. It is a very 
critical issue, and one that is sort of the prototyping of an 
issue that CEQ can be involved in to bring agencies together 
and to also ensure that the impact that Federal agencies' 
activities on a resource like the oceans are well-considered 
and addressed.
    Senator Whitehouse. Yes, I am sort of preaching to the 
choir here, I am sure. But as you know, for instance, we have 
seen both considerable warming of Narragansett Bay and species 
adjustments that have resulted, winter flounder much 
diminished, scup much increased, for instance, to the great 
detriment of our fishing community. And we have also seen the 
beginnings of the ocean rise that will accompany further global 
warming. There is no likelihood, I think, of it getting better. 
It is likely to get worse, if anything.
    And a little bit of sea level increase can pile up to a 
very big effect in a flood modeling situation where you have 
velocity zones. Narragansett Bay, for instance, is sort of a 
wedge driven up into Rhode Island with Providence at the tip. A 
fairly thin increment of additional sea level in Narragansett 
Bay, when it is pushed before a major hurricane, for instance, 
like the hurricane of 1938, can make an enormous difference in 
the storm surge up in our capital city at the business end.
    So it is really important to us, really, if anything, it is 
the issue immediately behind climate change, to make sure that 
there is a comprehensive and thoughtful oceans strategy that 
particularly focuses on coastal issues. I think it is an area 
where you will find we are very bipartisan. You can go right 
down the Atlantic Seaboard and it is all the same Atlantic 
Ocean, even if Senators have very different political 
persuasions.
    But it is also an area in which our own body, the Senate, 
has some of its own internal difficulties, because the Commerce 
Committee has jurisdiction in this area directly, we have it 
through the estuaries, through the Clean Air Act, through the 
Clean Water Act and through some of the public works programs 
that we supervise here. So there is a kind of a potential level 
of multiple confusion here at a time when we really can't 
afford it any longer.
    So I very much look forward to working with you on that and 
helping to draw some clear policy out of all the administrative 
confusion.
    Ms. Sutley. I look forward to working with you on that, 
Senator. Thank you.
    Senator Boxer. Well, you will be really relieved to know 
that I think this says the Senators have confidence in the 
selection of you to have this position, which is a wonderful 
thing to know. And the same we said to Lisa Jackson, we are 
going to send you some written questions. And we need to have 
them back by Friday noon, so that we can move your nomination 
forward. The hope is to discharge from the Committee, bring it 
right to the floor for a vote.
    Do I have your commitment to get that done?
    Ms. Sutley. Yes, Madam Chair.
    Senator Boxer. Excellent.
    Well, we thank you, Nancy, very much, and we thank your 
family for standing by all these many hours. We thank everyone 
who was here since early morning for their patience.
    I think we are on a new road, a much better road, and the 
American people will be better off because of that road, they 
will be much better off because of Nancy Sutley and Lisa 
Jackson. I am convinced of that.
    Thank you very much. We stand adjourned.
    [Whereupon, at 2:27 p.m., the Committee was adjourned.]
    
    [Additional material submitted for the record follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
                          [all]
                          
    
</pre></body></html>
